U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                      Use of Polygraph Examinations
                       in the Department of Justice
                                      September 2006




                                 I-2006-008
                              EXECUTIVE SUMMARY


      The Department of Justice (Department) and several of its
components use and conduct polygraph examinations for a variety of
administrative and investigative uses. In this Office of the Inspector General
(OIG) review, we examined the polygraph programs in the Department and
its components, including the components’ management and use of
polygraph examinations, the Department’s policies governing the use of
polygraph examinations, and the oversight mechanisms for ensuring that
the components conduct and use polygraph examinations in accordance
with established professional and technical standards.

      In this report, we do not make recommendations regarding the
Department’s polygraph use; rather, for informational purposes, we provide
a detailed description of how polygraphs are used throughout the
Department.

      A polygraph is an examination process that uses a diagnostic
instrument capable of measuring and recording a subject’s physiological
reactions as the subject answers questions. Because physiological reactions
can vary when subjects are telling the truth and when they are being
deceptive, by comparing a subject’s reactions to different questions a
polygraph examiner can detect reactions that may indicate deceptive
responses to specific questions. The results of polygraph examinations are
generally not admissible in court. However, various components of the
Department use polygraph examinations, primarily for criminal, foreign
counterintelligence and counterterrorism investigations, administrative
investigations (internal affairs and misconduct), and pre-employment and
personnel security screening.

       Four Department components – the Federal Bureau of Investigation
(FBI); Drug Enforcement Administration (DEA); Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF); and the OIG – administer their own
polygraph programs and have units that conduct polygraph examinations in
support of their operations or at the request of other Department
components and outside law enforcement and intelligence agencies.

      Seven other Department components do not operate their own
polygraph programs but use the results of polygraph examinations
conducted by the FBI, DEA, ATF, OIG, or an outside agency or private
contractor. These seven components are the Department’s Criminal
Division, Justice Command Center (JCC), Antitrust Division (ATR), National


U.S. Department of Justice                                                 i
Office of the Inspector General
Evaluation and Inspections Division
Drug Intelligence Center (NDIC), Office of Professional Responsibility (OPR),
Federal Bureau of Prisons (BOP), and U.S. Marshals Service (USMS).

      During fiscal years (FY) 2002 through 2005, Department components
conducted over 49,000 polygraph examinations. The examinations were
used for a variety of reasons, including making pre-employment and
personnel security decisions; investigating criminal, administrative, and
security violations; ensuring witness security; providing sex offender
treatment; and providing operational support in examining or “vetting”
foreign task force members and validating intelligence sources.

Polygraph Programs in the Department of Justice

      In describing the four components that conduct their own polygraph
examinations – the FBI, DEA, ATF, and OIG – we provide information
concerning the following key elements of each program’s:

       •   history;
       •   mission;
       •   policies and regulations;
       •   organization and staffing;
       •   polygraph examination uses and procedures;
       •   examiner qualifications and training;
       •   workload and program costs;
       •   quality control, quality assurance, and oversight; and
       •   program performance and results.

      We also discuss the Department’s limited policies regarding the use of
polygraph examinations. Existing Department-level policies include
guidance regarding the introduction of polygraph examinations as evidence
and the use of polygraph for the Witness Security Program. 1 There is no
Department-wide policy concerning the conduct and use of polygraph
examinations. Rather, each of the four components has its own policies and
procedures governing its polygraph examinations. Those policies and
procedures define who is subject to examination; the consequences of
refusing to take a polygraph examination; professional, ethical, and

        1 The U.S. Attorneys’ Manual, Section 9-13.300, states that it is the Department’s

policy to oppose all attempts by defense counsel to admit polygraph evidence or to have an
examiner appointed by the court to conduct a polygraph test and that Department
attorneys should refrain from seeking the admission of favorable examinations that may
have been conducted during an investigation. The Section 9-21.340 also establishes a
requirement for potential entrants to the Witness Security program to undergo polygraph
examinations.



U.S. Department of Justice                                                              ii
Office of the Inspector General
Evaluation and Inspections Division
technical standards for conducting an examination; quality control and
assurance standards and procedures; and the rights to be afforded
individuals who undergo polygraph testing. The four components also have
specific policies defining the use and role of polygraph examinations in
making investigative, personnel, and security decisions. Each policy notes
that polygraph testing is an investigative tool and should not be the sole
basis for investigative, personnel, or security decisions.

Purposes for Polygraph Examinations

      History of Polygraph Examinations in the Department. For over
70 years, certain Department components have used polygraph
examinations primarily as an investigation tool in criminal investigations
and administrative misconduct investigations involving Department
employees. The FBI first began using polygraph examiners in 1935 and
established a centralized polygraph program for conducting testing in 1978.
The DEA established a polygraph program in the early 1970s when it began
conducting polygraph examinations in criminal drug and misconduct
investigations. The OIG established its polygraph program and began
conducting polygraph examinations in 1990 in both criminal and
misconduct investigations. ATF, which was part of the Department of the
Treasury until January 2003, began conducting polygraph examinations in
criminal investigations in 1978. In more recent years, the four components
have conducted polygraph examinations in foreign counterintelligence and
counterterrorism investigations, pre-employment screening, personnel
security screening, foreign vetting, and supporting the polygraph needs of
other agencies.

       Criminal Investigations. The FBI, DEA, ATF, and OIG conduct
specific-issue polygraph examinations as a tool in criminal investigations.
From FY 2002 though 2005, the four components conducted a total of
8,356 polygraph examinations of criminal suspects, witnesses, and
informants in criminal investigations. The examinations were used to detect
and identify criminal suspects, verify information furnished by an informant
or witness, and to obtain additional information and investigational leads.

       Administrative Investigations. The FBI, DEA, ATF, and OIG
conduct polygraph examinations in administrative investigations into
allegations of misconduct by Department employees. From FY 2002
through 2005, the four polygraph units conducted 149 specific-issue
polygraph examinations of employees who were subjects, witnesses, or
complainants in investigations of personal misconduct in the performance of
their official duties.



U.S. Department of Justice                                              iii
Office of the Inspector General
Evaluation and Inspections Division
      Foreign Counterintelligence and Counterterrorism Investigations.
From FY 2002 through 2005, the FBI conducted 1,994 polygraph
examinations of FBI and non-FBI personnel during foreign
counterintelligence and counterterrorism investigations. The examinations
were used to resolve specific issues related to espionage or sabotage, to
validate information sources, or to make resource decisions (such as
whether to conduct surveillance).

       Pre-Employment Screening. Between 1985 and 1998, the FBI,
DEA, and ATF expanded their use of polygraphs to include pre-employment
examinations for Special Agent candidates. By 1994, the FBI had extended
its requirement for pre-employment testing to candidates for all FBI jobs. In
1996, the DEA extended its pre-employment examination requirement to
applicants for DEA Intelligence Research Specialist positions. From
FY 2002 through 2005, the FBI, DEA, and ATF conducted approximately
28,000 pre-employment polygraph examinations, which represented about
57 percent of all polygraph examinations conducted in that period.

      Personnel Security and Counterintelligence Screening. The FBI is
the only component that routinely conducts random and periodic personnel
security and counterintelligence screening of its employees. In the wake of
the arrest of FBI Special Agent Robert Hanssen for espionage in February
2001, the FBI greatly expanded its Personnel Security Program to include a
wider use of polygraph examinations for personnel security and
counterintelligence purposes. From FY 2002 through 2005, the FBI
conducted 4,721 examinations for personnel security purposes. That
number represents an almost 750-percent increase from the 331
examinations conducted in FY 2002 to the 2,481 conducted in FY 2005. All
personnel assigned to FBI counterintelligence, counterterrorism, and
security programs, including state and local law enforcement personnel
serving on Joint Terrorism Task Forces (JTTF), are now required to take
personnel security polygraph examinations. 2 FBI officials said they were
considering extending the requirement for periodic and random personnel
security polygraph examinations to all of the FBI’s approximately 35,000
employees and contractor personnel, as well as personnel from other
organizations with access to FBI information, information systems, and
space.




       2 Since 1980, the FBI has established JTTFs to enhance interagency cooperation

and coordination among federal, state, and local law enforcement agencies in
counterterrorism efforts.



U.S. Department of Justice                                                          iv
Office of the Inspector General
Evaluation and Inspections Division
      Foreign Vetting. From FY 2002 through 2005, the DEA and ATF
conducted 4,403 polygraph examinations to assess foreign personnel
selected by their countries for membership in DEA Sensitive Investigative
Units (SIU) overseas. The SIUs work in sensitive bilateral investigations in
countries critical to the counter-narcotics objectives of the United States.
ATF conducted foreign vetting polygraphs in FY 2002 at the request of other
agencies, but has not conducted any such examinations since that time.

       Requested by Other Components. The FBI conducted
approximately 1,661 polygraph examinations and the OIG conducted 33
polygraph examinations at the request of seven other Department
components that do not have their own polygraph programs. The seven
components used the results of those polygraph examinations for witness
security screening; administrative investigations (misconduct and internal
affairs); criminal investigations; personnel security screening; and vetting
foreign witnesses, prosecutors, and law enforcement personnel. In addition,
these seven components also occasionally used polygraph examinations
conducted by the Secret Service, the Central Intelligence Agency, the BOP’s
Sex Offender Treatment Program (SOTP), and a contractor working for the
USMS on the Witness Security (WITSEC) Program. Those examination
results were used for witness security, national security, and sex offender
treatment.

Requirements for Polygraph Examinations

      The consequences of polygraph examinations vary, depending on
whether the examination is considered voluntary, mandatory, or compelled;
the reason for the examination; and the examination results.

      Voluntary Examinations. Polygraph examinations given to federal
employees or other individuals may be voluntary, meaning that the
examinee may refuse to take the examination with no adverse
consequences. For example, witnesses or subjects in a criminal
investigation are protected by the Fifth Amendment right against self-
incrimination and therefore can refuse to speak with investigators or take a
polygraph examination.

       Mandatory Examinations. In some cases, polygraph examinations
conducted by the FBI, DEA, and ATF are mandatory. In these cases,
completion of a successful examination is required for an individual to
obtain a desired benefit such as consideration for employment, membership
in a foreign investigative unit, or obtaining a security clearance. The
consequences of refusing to take a mandatory polygraph examination – or of



U.S. Department of Justice                                                v
Office of the Inspector General
Evaluation and Inspections Division
having results that indicate deception – vary according to the policy of the
component requiring the test. For example:

   •   All applicants for employment in the FBI must undergo and pass a
       pre-employment polygraph examination. Applicants who refuse to
       take a polygraph examination are ineligible for employment. When
       the final opinion is Deception Indicated, the results are reported to
       adjudication officials who decide whether to disqualify the applicant
       or, based on other information available to the adjudicators, request
       that the applicant be retested.

   •   The FBI also requires selected employees and non-FBI personnel with
       access to national security or sensitive FBI information to undergo
       periodic and random personnel security polygraphs as a deterrent to
       espionage. FBI employees who refuse to submit to mandatory
       polygraph examinations, such as during periodic security
       reinvestigations or investigations of national security matters, may be
       transferred to positions that do not require access to sensitive
       information, have their security clearances denied or re-evaluated, or
       face disciplinary action for insubordination. Because holding a
       security clearance is a condition of employment at the FBI, FBI
       employees who lose their clearances may also be dismissed.

   •   In the DEA, polygraph examinations are mandatory for applicants for
       Special Agent and Intelligence Research Specialist positions, and for
       foreign candidates for membership in foreign Sensitive Investigative
       Units. Applicants for Special Agent and Intelligence Research
       Specialist positions who refuse to take a polygraph examination are
       not eligible for DEA employment. Membership in a foreign
       investigative unit is contingent on taking and passing a polygraph
       examination.

   •   ATF requires all applicants for Special Agent positions to undergo a
       mandatory pre-employment polygraph examination. Those who
       refuse are not eligible for employment. If an applicant’s examination
       results in indications of deception, or if the applicant admits to
       deception or to disqualifying behavior (such as abuse of illegal drugs),
       the individual may be ineligible for employment.

      Compelled Examinations in Administrative Investigations.
Compelled polygraph examinations are those in which employees are
ordered to submit to examination under threat of adverse action (including
suspension or dismissal) if the employees do not comply. Federal courts
have reviewed a number of cases in which public employees were dismissed

U.S. Department of Justice                                                  vi
Office of the Inspector General
Evaluation and Inspections Division
for refusing to take a polygraph examination when compelled in an
administrative inquiry. Those courts have held that employees can be
compelled to submit to polygraph examinations in investigations into the
performance of their official duties, so long as they are not also required to
relinquish their privilege against self-incrimination.

       The Merit Systems Protection Board, which reviews adverse actions
against federal employees covered by the Civil Service Reform Act, has never
specifically addressed whether an employee may be removed for refusing to
submit to a polygraph examination in an administrative inquiry.

       Within the Department, the FBI was the only component that reported
having policies and procedures for compelling its employees to undergo
polygraph examinations in personnel security and misconduct
investigations. The FBI’s policies cover all FBI employees, including
attorneys. An FBI employee can be compelled to take the examination if the
allegations under investigation involve one or more of seven specified
violations of law or FBI policy. 3 FBI employees who refuse to take a
polygraph examination under these circumstances face potential
administrative discipline, up to and including dismissal. FBI policies also
state that designated FBI officials can “compel any Bureau or non-Bureau
person with access to FBI information or facilities to submit to a polygraph
examination to resolve specific issues which may impact a person’s
trustworthiness for security matters.”

      It is not clear whether employees of other Department components
similarly can be compelled to take a polygraph in administrative
investigations in the absence of a policy regarding compelled polygraphs.
We found that the Department and components other than the FBI have not
issued policies defining the circumstances under which employees can be
compelled to submit to polygraph examinations in administrative
misconduct investigations. We also found no evidence that an employee of

       3   FBI employees can be compelled to submit to a polygraph examination to resolve
an issue during the investigative phase of a disciplinary matter if the employee will not do
so without being compelled and if the matter involves: (1) intentional and unauthorized
release of sensitive, protected information; (2) a relationship with or allegiance to a foreign
power; (3) an illegal or improper exercise of influence; (4) intentional and unauthorized
destruction, alteration, misplacement, taking, falsification, or other impairment of FBI
documents or evidence; (5) use of or unauthorized dealing in controlled substances;
(6) false statements or the failure to candidly disclose information; or (7) theft, fraud, or
misuse of government money or property. According to the FBI’s Security Policy Manual, an
employee’s refusal to take an examination can be treated as if the employee had failed the
examination. However, an employee’s refusal will not by itself substantiate the misconduct
charge.



U.S. Department of Justice                                                                vii
Office of the Inspector General
Evaluation and Inspections Division
any other Department component has been compelled to take a polygraph
examination in an administrative investigation. While we are aware of
several proposals to develop a Department-wide polygraph policy, none has
been acted upon to date.

       For example, in August 2001 the Justice Management Division (JMD)
provided the Deputy Attorney General with a memorandum containing three
options for developing a Department polygraph policy and proposing that
the Deputy Attorney General discuss with the affected components whether
the Department should adopt a polygraph policy. The Department did not
act on that proposal. In July 2004, JMD responded to an OIG inquiry about
the Department’s polygraph policy during an OIG investigation of potential
misconduct by a Department attorney. The OIG asked JMD for the
Department’s position on whether Department employees could be
compelled to submit to a polygraph examination. JMD informed the OIG
that it believed, in the absence of a Department polygraph policy, that the
Department could not compel Department employees. JMD also stated that
it was unlikely that disciplinary action against an employee based on
information gained through a compelled polygraph examination would be
sustained on appeal. 4 Also in July 2004, JMD’s Security and Emergency
Planning Staff stated its understanding that, absent a Department
polygraph policy that was approved by the Office of Personnel Management
(OPM), the Department could not polygraph a competitive service employee,
even with the employee’s consent. 5 In response to the OIG’s 2004 inquiry,


        4 Most federal government civilian employees are part of the competitive civil

service, which is governed by the Civil Service Rules in Title 5 of the Code of Federal
Regulations. However, some agencies, including the FBI, are exempt from those
competitive civil service procedures. Those agencies, called excepted service agencies,
establish their own personnel rules.

       5  JMD’s 2004 position that it lacked the authority to compel polygraph
examinations was based on its understanding that an undated memorandum signed by
President Lyndon B. Johnson (Johnson Memorandum) was the governing authority for
federal polygraph programs. The Johnson Memorandum prohibited the use of polygraphs
by federal agencies except for (1) pre-employment screening, personnel investigations, and
intelligence and counterintelligence operations; (2) criminal investigations; and (3) research
and development. As described in the Background section of this report, however, we
found strong indications that the Johnson Memorandum was never issued. Instead, the
President directed the Civil Service Commission (the predecessor to OPM) to issue
regulations governing the use of polygraph examinations by Executive Branch agencies,
which it did in 1969. Those regulations became part of the Federal Personnel Manual
(FPM), which has since been retired. In May 2006, OPM cited Executive Orders 10450 and
10577 as its authority for overseeing the use of polygraph examinations for pre-
employment and personnel security screening of competitive service employees in the
Executive Branch, using the standards for personnel security polygraphs contained in the
                                                                                    (Continued)

U.S. Department of Justice                                                                viii
Office of the Inspector General
Evaluation and Inspections Division
JMD again proposed developing a Department polygraph policy for
submission to OPM, but the Department did not act on this proposal.

       Finally, as part of this review, in June 2006 the OIG met with JMD
officials to discuss whether the Department’s position on compelled
polygraphs had changed since 2004. After discussing JMD’s 2004 position,
JMD officials informed the OIG that they intended to ask JMD’s Office of
General Counsel to reexamine whether the Department has the legal
authority to compel employees to submit to polygraph examinations during
investigations of administrative misconduct and, if so, what procedural
steps would be required to exercise that authority.

Organization and Staffing of Polygraph Programs in Department
Components

       The FBI, DEA, ATF, and OIG each have a polygraph unit that
administers the component’s polygraph program. All of the polygraph units
have a headquarters staff supervised by a polygraph unit chief (FBI, DEA,
and ATF) or a polygraph program manager (OIG). These officials manage
the day-to-day operations of the polygraph units and oversee the work of the
headquarters staff and the examiners in the field. All polygraph examiners
in the four agencies are Special Agents who may be collaterally assigned to
participate in criminal investigations. A description of the staffing and
structure of each program follows.

      The FBI has the largest polygraph unit, consisting of 119 examiners,
support staff, and contractors at FBI Headquarters and in field offices. The
FBI’s Headquarters Polygraph Unit is located in the Personnel Security
Adjudication Section of the Security Division and employees 18 personnel,
which include 13 supervisory special agent examiners. The FBI polygraph
program’s field structure comprises 5 Regional Polygraph Program
Managers (regional managers) who oversee the operations of 96 field
examiners in the FBI field offices.

      The DEA’s Polygraph Support Unit has 27 examiners in its
headquarters and field offices. The Chief of the Polygraph Support Unit and
Polygraph Coordinators in the unit have authority over all technical issues
involving the administration of polygraph examinations. The three
Polygraph Coordinators conduct quality control reviews of all polygraph
examinations conducted by the field examiners. The DEA’s field examiners


U.S. Security Policy Board’s Polygraph Memorandum of Agreement (SPB 058-99). As a
result, procedurally OPM continues to follow the standards that were contained in the FPM.



U.S. Department of Justice                                                            ix
Office of the Inspector General
Evaluation and Inspections Division
work for the Special Agent in Charge (SAC) of the offices where they are
assigned, but function under the technical supervision of the Chief of the
Polygraph Support Unit.

      The ATF Polygraph Branch has a staffing level of 16 certified
polygraph examiners, including the SAC of the Polygraph Branch, 3 regional
team leaders, and 12 field examiners. ATF’s Polygraph Branch is located in
the Office of Field Operations, Special Operations Division. The Chief of the
Special Operations Division has overall responsibility for ATF’s polygraph
program. The SAC of the Polygraph Branch reports to the Chief of the
Special Operations Division and is responsible for establishing and
implementing policies and procedures for the Polygraph Branch.

       As of July 2006, the OIG had three field examiner positions whose
activities were coordinated by the SAC of the Special Operations Branch at
OIG Headquarters. The SAC serves as the OIG’s Polygraph Program
Manager and Coordinator, and is responsible for oversight of the polygraph
program as well as management of its day-to-day operations. All requests,
reports, and recommendations relating to polygraph activities are directed to
the SAC for action. The OIG examiners are Special Agent criminal
investigators as well as OIG-certified polygraph examiners.

Examiner Qualifications and Training

      Each component has established qualification and training
requirements for examiners. The FBI, DEA, ATF, and OIG require that
polygraph examiners be selected from Special Agent (GS-1811 series)
personnel. All components require that polygraph examiner candidates
complete training at a certified polygraph training facility. Since 1994, the
Department of Defense Polygraph Institute (DoDPI) has been the central
provider of training for federal polygraph examiners, research, and
monitoring of technical and scientific developments in polygraphy. The
DEA, ATF, and OIG policies specify that examiners receive their basic
examiner training at DoDPI, while the FBI accepts training either from
DoDPI or a school approved by the FBI or the American Polygraph
Association. Before they are certified, all examiner candidates must also
complete an internship, during which they work under the supervision of an
experienced polygraph examiner.

      Once certified, examiners must meet minimum training and
performance standards to maintain certification. Federal polygraph
continuing education standards require that examiners receive 80 hours of
polygraph-related training every 2 years. For examiners to remain certified,
the OIG requires that they conduct at least 12 examinations per year, the

U.S. Department of Justice                                                   x
Office of the Inspector General
Evaluation and Inspections Division
DEA requires that they conduct 25, ATF requires that they conduct 36 (a
minimum of 18 in each six month period), and the FBI requires that they
conduct at least 48. DoDPI has certified that all FBI, DEA, ATF, and OIG
examiners meet established federal qualifications and training
requirements.

Polygraph Program Workload

      From FY 2002 through 2005, the FBI, DEA, ATF, and OIG reported
conducting 49,197 polygraph examinations (Table 1). The FBI conducted
most of those examinations (over 77 percent), followed by the DEA
(17 percent), ATF (5 percent), and the OIG (under 1 percent). The number of
examinations conducted each year increased by about 38 percent during
the 4-year period, primarily due to a 45-percent increase in the number of
examinations conducted by the FBI.

                  Table 1: Department of Justice Polygraph Use
                             FY 2002 through 2005
             Fiscal
              Year        FBI            DEA     ATF    OIG    Total
             2002         7,754         1,804     654     32   10,244
             2003         7,420         2,270     712     52   10,454
             2004        11,567         2,048     710     44   14,369
             2005        11,276         2,185     624     45   14,130
               Total     38,017         8,307   2,700    173   49,197
           Source: FBI, DEA, ATF, OIG


      Overall, about 57 percent of the examinations were conducted during
pre-employment screening; 17 percent during criminal investigations;
10 percent during personnel security screening; 9 percent for vetting foreign
agents; 4 percent during counterterrorism or counterintelligence
investigations; and less than 1 percent during misconduct investigations.
The remaining examinations (about 3 percent) were conducted at the
request of other agencies and were not identified by these four components
by purpose. (See Figure 1.)




U.S. Department of Justice                                                 xi
Office of the Inspector General
Evaluation and Inspections Division
               Figure 1: Purposes of Polygraph Examinations


                 3.4%                         Pre-employment screening

               4.1%
                             8.9%             Personnel security screening
            0.3%                              and investigations
       17.0%                                  Criminal investigations


                                              Misconduct investigations

        9.6%
                                              Counterintelligence and
                                              counterterrorism investigations
                                      56.7%
                                              Requests by other
                                              organizations

                                              Foreign vetting




  Source: Component data


Quality Control, Quality Assurance, and Oversight

      The quality control, quality assurance, and oversight mechanisms for
the FBI, DEA, ATF, and OIG polygraph programs are described below.

       All of the components’ polygraph programs require that a supervisory
polygraph official conduct an internal quality control review of all
examination records and examiner opinions before rendering a final opinion
on the results of a polygraph examination. The quality control reviews are
intended to ensure satisfactory quality and the correctness of examiner
opinions on the results of polygraphs. Each program has procedures for
referring cases, in which the reviewer does not agree with the examiner, to a
second reviewer before results are considered final. In addition, the
polygraph programs of the FBI, DEA, and ATF are subject to internal
oversight reviews conducted by the components’ internal inspection offices.
These reviews examine general administrative management, operations
management, and performance issues, but do not assess polygraph
examiner performance or compliance with federal polygraph standards.

      The FBI, DEA, ATF, and OIG polygraph programs and examination
records are reviewed under the DoDPI-administered federal Quality

U.S. Department of Justice                                                      xii
Office of the Inspector General
Evaluation and Inspections Division
Assurance Program. However, the DoDPI has not reviewed the polygraph
examinations conducted by a private contractor working for the USMS
WITSEC Program nor those conducted for the BOP’s SOTP. Since 1996,
inspectors working at DoDPI have conducted technical reviews of federal
polygraph programs to ensure that they are managed in compliance with
the standards in the Federal Examiner Handbook. The DEA and ATF began
participating in the program in 1997, the OIG in 2000, and the FBI in 2002.
After an inspection, agency officials are given a draft report and have 30
days to respond to any findings or recommendations. Once all issues are
resolved, DoDPI certifies that the agency’s polygraph program complies with
federal standards, a certification OPM requires for agencies seeking its
approval to polygraph competitive service personnel.

       The DoDPI inspection reports we reviewed generally stated that the
internal quality control process of each component provided independent
and objective reviews of all polygraph examinations. The programs of the
DEA, ATF, and OIG were consistently certified as being in compliance with
federal standards. However, the FBI’s program was not certified as
complying with federal standard after the three inspections DoDPI
conducted in FY 2003 through 2005 because of repeated instances of
noncompliance with federal polygraph standards during polygraph
examinations. The noncompliance included instances of improperly
constructed questions, opinions on results (i.e., Deception Indicated, No
Deception Indicated, or Inconclusive) that were not supported by standard
test scoring techniques, and the routine destruction of the score sheets that
examiners and supervisors prepared when examining polygraph test results.
Although not all issues were finally resolved, the issues were sufficiently
addressed so that in January 2006 DoDPI certified the FBI polygraph
program for the first time.

      The DEA and ATF must receive annual authorization from OPM
because those two agencies use polygraph examinations for pre-employment
screening of employees covered by the Civil Service Reform Act. For an
agency to receive OPM authorization, OPM must first certify that the
requesting agency has a national security mission and must approve the
agency’s polygraph policies and regulations. In addition, agencies must
demonstrate full compliance with federal polygraph standards, agree not to
deny a clearance or employment based on an inconclusive polygraph result,
and submit to a DoDPI quality assurance review at least every 2 years.
Both the DEA and ATF have routinely received annual OPM
reauthorizations to continue using polygraph examinations for pre-
employment screening. The most recent reauthorizations were granted by
OPM on May 12, 2006, for FY 2006. The FBI does not have to obtain OPM’s
approval for its program because most FBI employees are members of the

U.S. Department of Justice                                              xiii
Office of the Inspector General
Evaluation and Inspections Division
excepted service and are not covered by the Civil Service Reform Act. The
OIG does not have to obtain OPM approval for its program because it does
not use polygraph examinations for pre-employment or personnel security
screening.

Program Performance and Results

      In accord with federal polygraph standards, the FBI, DEA, ATF, and
OIG collect statistical data on the type, purpose, and results of polygraph
examinations they conduct. The data are used to identify trends, manage
the examination workload, monitor the work of individual examiners,
develop budget estimates, and track performance. Certain results data
serve as indicators of the performance of the polygraph examiners. For
example, the skill of examiners in using the polygraph technique can be
assessed by their rate of conclusive opinions (i.e., the percentage of
“Deception Indicated” or “No Deception Indicated” opinions versus
“Inconclusive” results). We examined the components’ data on the
outcomes of polygraph examinations from FY 2002 through 2005 and found
that all met an industry standard of 80-percent conclusive opinions for
screening examinations.

Seven Components that Do Not Conduct but Use Polygraph
Examinations

      Seven organizations in the Department reported using the results of
polygraph examinations conducted by other federal agencies (usually the
FBI) or by a private contractor. From FY 2002 through 2004, the Criminal
Division, JCC, ATR, NDIC, OPR, BOP, and USMS asked other agencies to
conduct a total of 1,728 polygraph examinations for various purposes, such
as witness security (WITSEC) screening; administrative investigations
(misconduct and internal affairs); criminal investigations; personnel security
screening; sex offender treatment; and vetting foreign witnesses,
prosecutors, and law enforcement personnel. 6

      There is no central review by the Department, and DoDPI has never
conducted a quality assurance review of the seven components’ uses of
polygraph examinations. DoDPI may have reviewed some of the
examination records as a part of its quality assurance reviews of the FBI
and OIG polygraph programs, as those offices conducted examinations for


       6 The same polygraph examinations reported in this section as requested by the

seven components were also reported by the FBI in its number of polygraph examinations
conducted for other agencies.



U.S. Department of Justice                                                         xiv
Office of the Inspector General
Evaluation and Inspections Division
the seven components. However, although the FBI conducted
approximately 96 percent of the examinations the seven users requested
from FY 2002 through 2004, the FBI has not provided many of the records
of those examinations for DoDPI review because of logistical problems with
retrieving the records of criminal specific-issue, pre-employment, and
personnel security polygraph examinations from the requesting agencies.
Further, the FBI does not provide DoDPI with examination records
associated with the WITSEC, Foreign Counterintelligence and
Counterterrorism, and OPR programs for DoDPI review, whether the
examinations were conducted for FBI purposes or for another agency, due to
the sensitive nature of those programs.

     Of the seven users, the BOP, JCC, and NDIC have internal policies
and procedures governing the use of polygraph examinations. 7 The seven
components’ uses of polygraph examinations are discussed below.

      Criminal Division. From FY 2002 through 2004, 4 of the 19
organizations within the Criminal Division requested that the FBI and other
law enforcement agencies conduct a total of 1,200 polygraph examinations:

       •   The Office of Enforcement Operations uses polygraph examinations
           to evaluate prisoner-witnesses seeking entry into the WITSEC
           Program.

       •   The Domestic Security Section occasionally uses polygraph
           examinations in its investigations of criminal organizations that
           smuggle aliens, including those with ties to terrorist organizations,
           into the United States.

       •   The Overseas Prosecutorial Development, Assistance, and Training
           (OPDAT) Section uses polygraph examinations in providing
           technical assistance to foreign counterparts as they establish their
           own investigative units. About 5 to 10 percent of the 50 to 60
           countries that receive OPDAT technical assistance each year use
           polygraphs (generally conducted by the FBI at the request of
           OPDAT) to determine, for example, whether the foreign prosecutors
           have taken bribes or violated human rights laws in their countries.



        7 As described in the Introduction section of the full report, the Department has

policies and procedures dealing with the use of polygraph examinations in criminal
investigations, prosecutions, and the Witness Security Program that apply to all of its
components.



U.S. Department of Justice                                                              xv
Office of the Inspector General
Evaluation and Inspections Division
       •   The Public Integrity Section uses polygraph examinations in
           connection with criminal cases involving public corruption to
           verify the truthfulness of cooperating witnesses, informants, and
           subjects of criminal investigations.

       Justice Command Center. The JCC, which serves as a crisis center
for the Department and functions as an around-the-clock contact point for
all Department operations worldwide, is a branch of the Justice
Management Division’s Security and Emergency Planning Staff. Because
the JCC handles highly classified intelligence information, it requires its
employees and job candidates to pass a narrowly focused,
counterintelligence-scope polygraph examination as part of the security
clearance process. The JCC has 15 positions subject to mandatory
polygraph examinations. The JCC is the only one of the seven users
discussed in this section that OPM has ever authorized to use polygraph
examinations for personnel security screening. Although OPM originally
authorized the JCC’s use of polygraph examinations in October 1987, and
reauthorized it annually through September 30, 1996, OPM officials said
they had no record of any reauthorization requests from the Department
from FY 1997 through 2004. On November 23, 2005, after we asked to
review JCC records of reauthorization requests, the Department applied for
reauthorization to use polygraph examinations for JCC personnel. On
May 12, 2006, OPM officials granted the JCC’s reauthorization request to
use pre-employment and personnel security screening polygraphs in
FY 2006.

      Antitrust Division. The ATR uses polygraph examinations
infrequently in connection with criminal investigations related to its
enforcement of antitrust laws. From FY 2002 through 2004, the Division
used polygraph examinations only twice.

      National Drug Intelligence Center. The NDIC’s Office of Security
and Classified Programs uses polygraph examinations for pre-employment
screening. From FY 2002 through 2004, the office asked the FBI to conduct
72 polygraph examinations for its use in screening job applicants who had
received conditional offers of NDIC employment. The NDIC’s use of
polygraph examinations does not require OPM’s approval because the
NDIC’s employees are in the excepted service.

       Office of Professional Responsibility. OPR has jurisdiction to
investigate allegations of misconduct by Department of Justice attorneys
that relate to the exercise of their authority to investigate, litigate, or provide
legal advice. OPR also has jurisdiction to investigate allegations of
misconduct by law enforcement personnel when they are related to

U.S. Department of Justice                                                    xvi
Office of the Inspector General
Evaluation and Inspections Division
allegations of misconduct by attorneys within the jurisdiction of OPR. OPR
officials reported that it uses polygraph examinations as an investigative
tool in criminal and administrative misconduct investigations. However,
OPR officials told us that they had not requested a polygraph examination
since before FY 2001. An OPR official told us that, in the past, polygraph
examinations have only been conducted when the proposed test subject has
consented to the examination.

      Federal Bureau of Prisons. The BOP uses polygraph examinations
as an investigative tool in administrative investigations of BOP employees,
as a condition for inmates’ entry into the WITSEC Program, and as a
condition for participation in the BOP’s Sex Offender Treatment Program.
The following sections within the BOP used polygraph examinations in
FY 2002 through 2004.

       •   The BOP’s Office of Internal Affairs (OIA) used polygraph
           examinations of subjects, witnesses, and complainants in
           administrative investigations into alleged misconduct by BOP
           employees. The OIA requested 21 polygraph examinations during
           administrative investigations from FY 2002 through 2004. The
           OIG conducted 17 of the examinations, and the FBI conducted 4.
           Fifteen of the examinations were administered to subjects of
           investigations, four to victims, and two to complainants. According
           to BOP internal policy, neither BOP staff nor inmates can be
           compelled to take a polygraph examination. Both inmates and
           staff must sign consent forms before they take a polygraph
           examination.

       •   BOP institutions use the results of polygraph examinations in
           determining whether prisoners can be placed in a Protective
           Custody Unit and before leaving a BOP facility. The Criminal
           Division, working through the BOP, uses these polygraph
           examinations as a tool for maintaining the security of prisoner-
           witnesses and to help determine whether an inmate seeking
           admission to the WITSEC Program intends to harm another inmate
           in the program. From FY 2002 through 2004, the FBI and the OIG
           conducted a total of 338 polygraph examinations of WITSEC
           inmates in BOP institutions.

       •   The BOP’s Sex Offender Treatment Program (SOTP) at the Butner
           Federal Correctional Institution in North Carolina houses up to
           112 federal inmates who are convicted sex offenders. All SOTP
           participants must agree to undergo and pass polygraph
           examinations when entering the program, upon release, and

U.S. Department of Justice                                               xvii
Office of the Inspector General
Evaluation and Inspections Division
          during probation after their release. From FY 2002 through 2004,
          the SOTP examiner conducted a total of 76 polygraph
          examinations. 8 The SOTP uses polygraph examinations as an aid
          in managing the potential risks inmates pose to the community
          after they are released from prison. They are used for clinical, not
          investigative, purposes.

      U.S. Marshals Service. The USMS reported that it uses polygraph
examinations for administrative investigations involving USMS personnel
and for individuals in the WITSEC Program who are not incarcerated and
claim their security has been breached. From FY 2002 through 2004, the
USMS requested 16 polygraph examinations of witnesses in the WITSEC
Program, but none for administrative investigations. The examinations were
conducted by either ATF or a private contractor.

New Requirements for Federal Personnel Security Programs

       In December 2004, the President signed into law the Intelligence
Reform and Terrorism Prevention Act of 2004 (Pub. L. No. 108-458).
Certain provisions of this Act may require the Department to examine its
components’ use of polygraph examinations in conducting background
investigations for personnel security clearances. Specifically, to facilitate
reciprocal acceptance of security clearances among federal agencies, Title III
of the Act directs the federal government to improve the security clearance
process by establishing central oversight and uniform policies for
investigating and adjudicating personnel security clearances. The Act states
that the federal government must begin:

       developing and implementing uniform and consistent
       policies and procedures to ensure the effective, efficient, and
       timely completion of security clearances and determinations
       for access to highly sensitive programs, including
       standardization of security questionnaires, financial
       disclosure requirements for security clearance applicants,
       and polygraph policies and procedures.

      As described in this report, each of the components establishes its
own policy and procedures for conducting and using the results of
polygraph examinations. With the exception of the polygraph examinations
conducted by a private contractor for the USMS’s WITSEC Program and

       8 The SOTP polygraph examiner is a psychologist who was trained to conduct

criminal investigative and national security screening examinations at DoDPI.



U.S. Department of Justice                                                          xviii
Office of the Inspector General
Evaluation and Inspections Division
those conducted for the BOP’s SOTP, we found that the other polygraph
programs in the Department comply with federal standards; however, the
components are not consistent in whom they require to take polygraph
examinations in order to receive a security clearance, how frequently the
examinations are administered, or what happens in the event of an
unfavorable or inconclusive result. There is no comprehensive Department-
wide polygraph policy addressing those issues and no government-wide
policy establishing standard policies and procedures for all polygraph
programs.

       As the provisions of the Intelligence Reform Act are implemented over
the next year, the Department may need to resolve any differences in its
components’ policies and procedures that could impede full reciprocity in
personnel security clearances. In Executive Order 13381, issued on
June 27, 2005, the President assigned the Office of Management and
Budget (OMB) to direct the implementation of the Act’s provisions, including
those that require a system to support reciprocity in the investigation and
adjudication of personnel security clearances. In May 2006, OPM officials
told us that OMB had not yet designated an agency to lead government
efforts to develop and implement standard polygraph policy and procedures.
In July 2006, the President extended the provisions of the Executive Order
13381 for a year.




U.S. Department of Justice                                             xix
Office of the Inspector General
Evaluation and Inspections Division
                                    TABLE OF CONTENTS



LIST OF ACRONYMS

INTRODUCTION ................................................................................... 1

  Background ............................................................................................ 1
  Purpose, Scope, and Methodology.......................................................... 33

RESULTS ........................................................................................... 35

  SECTION I: Polygraph Programs in the Department of Justice ....... 35

     THE    FBI POLYGRAPH PROGRAM ...................................................... 35
     THE    DEA POLYGRAPH PROGRAM ..................................................... 67
     THE    ATF POLYGRAPH PROGRAM ...................................................... 83
     THE    OIG POLYGRAPH PROGRAM ...................................................... 98

  SECTION II: Polygraph Users in the Department of Justice .......... 108

     Background ..................................................................................... 108
     Criminal Division ............................................................................. 109
     Justice Command Center ................................................................. 114
     Antitrust Division............................................................................. 116
     National Drug Intelligence Center..................................................... 117
     Office of Professional Responsibility.................................................. 119
     Federal Bureau of Prisons ................................................................ 120
     United States Marshals Service ........................................................ 125




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                               LIST OF ACRONYMS


AIG           Assistant Inspector General
AO            Administrative Opinion
ASAC          Assistant Special Agent in Charge
ASCLAD        American Society of Crime Laboratory Directors
ATF           Bureau of Alcohol, Tobacco, Firearms and Explosives
ATR           Antitrust Division
BOP           Federal Bureau of Prisons
CIA           Central Intelligence Agency
DEA           Drug Enforcement Administration
DI            Deception Indicated
DoDPI         Department of Defense Polygraph Institute
DSS           Domestic Security Section
FBI           Federal Bureau of Investigation
FPM           Federal Personnel Manual
FY            Fiscal year
INC           Inconclusive
JCC           Justice Command Center
JMD           Justice Management Division
JTTF          Joint Terrorism Task Force
MAOP          FBI’s Manual of Administrative Operations and Procedures
MIOG          FBI’s Manual of Investigative Operations and Guidelines
MOA           Memorandum of Agreement
MSPB          Merit Systems Protection Board
NDI           No Deception Indicated
NDIC          National Drug Intelligence Center
NO            No Opinion
NSA           National Security Agency

U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
NSR           No Significant Response
OEO           Office of Enforcement Operations
OIA           Office of Internal Affairs
OIAP          Office of Investigative Agency Policies
OIG           Office of the Inspector General
OII           Operations Support Division, Office of Internal Investigations
OLC           Office of Legal Counsel
OMB           Office of Management and Budget
OPDAT         Overseas Prosecutorial Development, Assistance, and Training
OPR           Office of Professional Responsibility
OPM           Office of Personnel Management
PDD           Psychophysiological detection of deception
SAC           Special Agent in Charge
SCI           Sensitive Compartmented Information
SEPS          Security and Emergency Planning Staff
SIU           Sensitive Investigative Unit
SOTP          Sex Offender Treatment Program
SR            Significant Response
USMS          United States Marshals Service
WITSEC        Witness Security




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      INTRODUCTION


       The Office of the Inspector General (OIG) conducted this review of
polygraph programs in the Department of Justice (Department) to develop
an in-depth description of the regulatory requirements governing the use of
polygraph examinations, the components’ management and use of
polygraph examinations, the Department’s polygraph policy, and oversight
mechanisms for ensuring that the components conduct and use polygraph
examinations in accordance with professional and technical standards. In
this introductory section, we describe the history and current status of
federal policies regarding the use of polygraph examinations, polygraph
examiner training and quality standards, and recent legislation relevant to
polygraph examinations. We also describe efforts to develop policy within
the Department regarding polygraph usage. We next describe the types and
uses of polygraph examinations, provide general information on the use of
polygraph examinations in the Department, and describe how we conducted
our study of the Department’s operations.

      The results section of the review contains detailed descriptions of the
polygraph programs of the four Department components that administer
polygraphs: the (1) Federal Bureau of Investigation (FBI); (2) Drug
Enforcement Administration (DEA); (3) Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF); and (4) OIG. We also provide a summary
description of the uses of polygraph examinations by seven components that
do not directly administer their own polygraph programs but use polygraphs
conducted for them by other agencies or contractors. These components are
the Department’s Criminal Division, Justice Command Center, Antitrust
Division, National Drug Intelligence Center, Office of Professional
Responsibility, Federal Bureau of Prisons, and U.S. Marshals Service.

Background

       A polygraph is an examination process that uses a diagnostic
instrument capable of measuring and recording a subject’s respiratory,
electrodermal, and cardiovascular reactions. 9 The theory behind polygraph
testing is that physiological reactions exhibited by subjects as they are
responding to questions generally vary when subjects are telling the truth
and when they are being deceptive. By enabling an examiner to compare a
subject’s physiological reactions when responding to different questions, a

       9   Electrodermal reactions are related to the electrical properties of the skin.



U.S. Department of Justice                                                                 1
Office of the Inspector General
Evaluation and Inspections Division
polygraph examiner can detect reactions that may indicate deceptive
responses to specific questions. These indications can then be used to
either corroborate or challenge information provided by the subject or
developed during an investigation.

      As of July 2006, 24 federal agencies in 11 major departments of the
federal government had polygraph programs. Those agencies, which employ
approximately 600 federal polygraph examiners, use polygraph
examinations as a tool in making pre-employment and personnel security
decisions; investigating misconduct, criminal cases, and security violations;
and providing operational support such as vetting foreign sources and
validating intelligence sources. In addition, many agencies without a
polygraph program use the results of polygraph examinations conducted by
other agencies.

Historical Background of Federal Policy Governing the Use of Polygraph
Examinations

       Our review determined that the Executive Branch’s polygraph policy
originated with an undated memorandum signed by President Lyndon B.
Johnson (Johnson Memorandum). 10 In this memorandum, President
Johnson adopted the findings of an interagency committee established in
1965 to examine the use of polygraphs in the federal government. The
Johnson Memorandum prohibited the use of polygraphs by federal agencies
except for (1) pre-employment screening, personnel investigations, and
intelligence and counterintelligence operations; (2) criminal investigations;
and (3) research and development. 11

     Under the terms of the Johnson Memorandum, however, an Executive
Branch agency could not use polygraphs for employment screening,

         10 In 1964, a series of hearings was held by Congressman Moss of the House

Committee on Foreign Operations and Government Information on the use of polygraph
examinations. The hearings resulted from an attempt by the labor unions to have the use
of “lie detector tests” by federal agencies banned. As a result of the hearings, the Moss
Committee recommended that government polygraph programs be centralized, that quality
control reviews be implemented in government programs, that research continue, and that
federal examiners receive standardized education in the use of the polygraph technique.

       11  The Johnson Memorandum did not specifically address administrative
misconduct investigations. The section of the memorandum that addresses “personnel
investigations” has been interpreted by OPM as relating to investigations to “[e]nsure the
suitability of applicants for and appointees to Federal positions” (i.e., pre-employment and
security investigations), rather than to personnel misconduct investigations.



U.S. Department of Justice                                                                2
Office of the Inspector General
Evaluation and Inspections Division
personnel investigations, or intelligence and counterintelligence operations
unless the Chairman of the Civil Service Commission (now the Office of
Personnel Management (OPM)) certified that the agency had an intelligence
or counterintelligence mission directly affecting national security. If the
Chairman so certified, the agency had to prepare regulations governing the
use of polygraphs. The Johnson Memorandum also provided detailed
criteria for agency regulations governing polygraph use in the context of
employment screening and personnel investigations, and required that
those regulations be approved by the Chairman of the Civil Service
Commission. To gain approval, such regulations had to contain, at a
minimum:

       1. Specific purposes for which the polygraph could be used,
          the types of positions for which it would be used, and the
          officials authorized to approve such examinations.

       2. A directive that the person to be examined was to be
          informed as far in advance as possible of the intent to use
          the polygraph and of:

          a.    Other devices or aids to the interrogation that could
                be used simultaneously with the polygraph, such as
                voice recordings, etc.

          b.    The person’s privilege against self-incrimination and
                right to consult with legal counsel or to secure other
                professional assistance prior to the examination.

          c.    The effect of the polygraph examination or the
                subject’s refusal to take such examination on the
                subject’s eligibility for employment. The subject was
                to be informed that refusal to consent would not be
                made part of the subject’s personnel file.

          d.    The characteristics and nature of the polygraph
                device and examination, including an explanation of
                the physical operation of the device, the procedures
                to be followed during the examination, and the
                disposition of the information developed.

          e.    The general areas of all questions to be asked during an
                examination.



U.S. Department of Justice                                                 3
Office of the Inspector General
Evaluation and Inspections Division
       3. A directive that no polygraph examination would be given
          unless the person to be examined had voluntarily
          consented in writing to be examined after having been
          informed of the above.

       4. A directive that questions to be asked during a polygraph
          examination had to have specific relevance to the subject
          of the particular inquiry.

       5. Adequate standards for the selection and training of
          examiners, keeping in mind the government’s objective of
          ensuring protection for the subject of an examination and
          the accuracy of the polygraph results.

       The Johnson Memorandum’s criteria for regulations related to the use
of polygraphs for intelligence and counterintelligence operations were
considerably less detailed. The memorandum required that after the
Chairman of the Civil Service Commission certified that the agency had an
intelligence or counterintelligence mission directly affecting national
security, the agency prepare regulations and directives governing the use of
polygraphs in that context and that the agency head approve those
regulations.

      The Johnson Memorandum permitted Executive Branch departments
and agencies to use polygraphs in criminal investigations, as long as they
had promulgated regulations governing their use and had obtained approval
of those regulations from the Attorney General. According to the Johnson
Memorandum, those regulations were to contain, at a minimum:

       1. The range of criminal matters in which the polygraph
          would be used.

       2. A statement that no polygraph examination would be
          given unless the person to be examined had voluntarily
          consented in writing after being fully informed of:

          a. the subject’s privilege against self-incrimination,

          b. the subject’s right to consult a lawyer prior to the
             examination,

          c. the subject’s right to refuse to submit to the
             examination, and

U.S. Department of Justice                                               4
Office of the Inspector General
Evaluation and Inspections Division
            d. the characteristics and nature of the polygraph
               machine and examination, including an explanation of
               the physical operations of the machine, the procedures
               to be followed during the examination, and the
               disposition of information developed from an
               examination.

       3. An affirmation that in the case of an employee of the
          federal government refusal to consent to a polygraph
          examination would not lead to any adverse action against
          the employee and would not be made a part of the
          employee’s personnel file.

       4. Adequate standards for the selection and training of
          examiners, keeping in mind the government’s objective of
          ensuring protection for the subject of any examination
          and the accuracy of polygraph results.

       However, documents from the Johnson Library strongly suggest that
the Johnson Memorandum itself, while signed, was never issued. 12 Instead,
it appears that President Johnson accepted the advice of his staff that he
implement the interagency committee’s recommendations by requiring the
Civil Service Commission to issue a directive setting forth the policy.

      Consequently, the formal Executive Branch policy for polygraph
examinations was issued by the Civil Service Commission as Chapter 736,
Section 2-6 of the Federal Personnel Manual (FPM). 13 This section, entitled
“Use of the Polygraph in Personnel Investigations,” tracks much of the

       12 According to an archivist with the Johnson Library who investigated the status of
the Johnson Memorandum in some detail at our request, the memorandum was not
contained in the Library’s collection of memorandum to heads of departments and
agencies, nor was it located in the Weekly Compilation of Presidential Documents, which is
where issued memorandums should be found. He stated that the Johnson Library had
found no evidence that the memorandum was ever officially promulgated.

        13 In introducing the general requirements for the use of the polygraph in the

Executive Branch, the FPM stated: “With the concurrence of President Lyndon B. Johnson,
the following rules, incorporated in an interagency committee report dated July 29, 1966,
remain in effect.” FPM, Ch. 736, § 2-6(a). Similarly, in its 1996 proposed rule to replace
the FPM, OPM characterized the relationship between the Johnson Memorandum and the
FPM as follows: “Chapter 736 of the former FPM contained limitations upon using
polygraphs in personnel investigations based upon a July 29, 1966, interagency committee
report approved by former President Lyndon B. Johnson.” See Suitability, National
Security Positions, and Personnel Investigations, 61 Fed. Reg. 394, 396 (Jan. 5, 1996).



U.S. Department of Justice                                                             5
Office of the Inspector General
Evaluation and Inspections Division
language of the Johnson Memorandum, with some important changes. The
OPM regulations specifically excluded excepted service employees (such as
those in the FBI and the Central Intelligence Agency (CIA)) from its
oversight. We also found that in 1991, OPM reaffirmed that these
provisions of the FPM remained in effect.

      However, the FPM was withdrawn in 1995 as a part of an effort to
reduce government regulations. At that time, an OPM notice stated that
“the guidance it [the FPM] contained is no longer binding upon Federal
agencies.” 14 Since 1995, no comprehensive framework governing the
administration of polygraph examinations in the Executive Branch has been
issued to replace the provisions of the FPM.

      It appears that various agencies, including OPM and the Department,
continued to rely on the guidance contained in the FPM or the Johnson
Memorandum. 15 For example, in 2004, in response to inquiries from the
OIG about an ongoing investigation related to alleged misconduct by a
Department attorney, the Department’s Justice Management Division (JMD)
stated that the Johnson Memorandum was still in effect and therefore the
Department could not compel attorneys to take a polygraph examination.

       We also found that some agencies that used to seek OPM’s yearly
approval of their polygraph policies under the FPM, including the DEA and
ATF, continued to submit their policies for approval, even after the FPM was
retired in 1995. Moreover, OPM has advised these agencies that, although
the FPM has been abolished, it has not been superseded and the guidance
contained in the FPM provides a “safe harbor” from investigation by OPM for
those agencies that had been following the FPM in preparing and obtaining
approval for their polygraph policies.



       14   FPM Sunset Notice, www.opm.gov/rif/html/fpm.htm.

        15 For example, among the documents we uncovered is a September 17, 1999,

memorandum prepared by the Criminal Division’s Office of Enforcement Operations for the
Attorney General, forwarding a request from the Department of the Interior that the
Attorney General approve Interior’s policy governing the use of polygraph examinations in
its criminal investigations. The memorandum recommended that the Attorney General
approve the policy, citing the Johnson Memorandum as the source of the Attorney
General’s authority to do so. The memorandum did not probe the basis for Interior’s
request, but simply stated that the requisites of the Johnson Memorandum were met. This
was the only instance we identified in which an agency sought Attorney General approval of
its polygraph policy under the Johnson Memorandum.



U.S. Department of Justice                                                             6
Office of the Inspector General
Evaluation and Inspections Division
      Our reading of the law suggests that notwithstanding their continued
use by some agencies, neither the Johnson Memorandum nor the FPM still
governs the use of polygraphs in the Executive Branch. Instead, Executive
Branch polygraph policy today relies on a patchwork of Executive Orders
and other presidential policy statements, case law, regulations, and
administrative decisions, several of which we describe below.

Current Authorities and Guidelines for Pre-Employment and Personnel
Security Screening Polygraphs on Competitive Service Employees

      The following sections describe the current OPM guidance on its
oversight of polygraph programs; a 1999 Memorandum of Agreement
containing operating guidelines that was signed by most agencies that
conduct polygraph examinations; quality assurance and training standards
established by the Department of Defense’s Polygraph Institute; and
requirements related to polygraph programs contained in the Intelligence
Reform and Terrorism Prevention Act of 2004.

       Office of Personnel Management. In April 2006, OPM’s Office of
General Counsel told us that it had reviewed OPM authorities for overseeing
management of the competitive service and reaffirmed that OPM continues
to have the authority and responsibility under Civil Service Rules (Rule II
and Rule IV) to review executive agencies’ use of polygraph examinations for
pre-employment and personnel security screening for the competitive
service positions. 16 An OPM official who reviews agency requests to use pre-
employment and personnel security screening polygraphs for competitive
service employees told us that a requesting agency must still justify to OPM
its need to use polygraph examinations based on a mission that directly
affects the national security, submit its governing policies and regulations
for OPM review, and stipulate to several conditions, such as participation in
the federal quality assurance program, before OPM will approve the use of
polygraph examinations. He also said that OPM has never extended its
procedural requirements for using pre-employment and personnel security
polygraphs for competitive service employees to their use for excepted
service employees.



       16   Most federal government civilian employees are part of the competitive civil
service, which is governed by the Civil Service Rules in Title 5 of the Code of Federal
Regulations. However, some agencies, including the FBI, are exempt from the competitive
civil service procedures established in those rules. These agencies, called excepted service
agencies, establish their own personnel rules.



U.S. Department of Justice                                                                7
Office of the Inspector General
Evaluation and Inspections Division
      OPM does not conduct reviews of executive agencies to verify that they
are using polygraph examinations in compliance with OPM and Civil Service
rules. However, OPM’s Center for Merit System Compliance does conduct
reviews of agency compliance with federal requirements for managing
personnel security, suitability determination, and investigation programs.
As part of the OPM review, agencies are asked whether they use polygraph
examinations for pre-employment and personnel security and, if they do,
whether the agencies’ use of polygraphs has been approved by OPM. If OPM
does not approve an agency’s request, the agency is not authorized to use
polygraph examinations for pre-employment and personnel security
screening of competitive service employees. Also, since at least 2002, OPM
has required that agencies with OPM-certified polygraph programs submit
to biennial quality assurance inspections and provide copies of the
inspection reports as proof that they are compliant with federal polygraph
standards.

      Even though Chapter 736, Section 2.b, of the FPM was retired in
1995, OPM continued to follow the procedures it contained. In letters
approving the DEA’s, ATF’s, and JCC’s continued use of polygraph
examinations for pre-employment and personnel security screening for
FY 2006, OPM cited Executive Orders 10450 and 10577 as its authority for
overseeing these uses of polygraph examinations for competitive service
employees in the Executive Branch. OPM also cited the standards for
personnel security polygraphs contained in the U.S. Security Policy Board’s
Polygraph Memorandum of Agreement (SPB 058-99). OPM approval letters
further stated that “OPM follows the standards it formerly prescribed in
FPM Chapter 736, section 2-6, titled Use of the Polygraph in Personnel
Investigations.”

       1999 Interagency Memorandum of Agreement. Most of the federal
agencies that conduct polygraph examinations signed a Memorandum of
Agreement (MOA) in 1999 that contains operational requirements for
polygraph programs, such as participation in a federal quality assurance
program, access by federal inspectors to the records of personnel security
examinations, the applicability of federal technical standards, examiner
certification requirements, and the appropriate scope of certain questions.
The development of the MOA began in 1993 when the Secretary of Defense
and the Director of the CIA convened a Joint Security Commission to review
and recommend improvements to federal security programs. Part of the
review examined the use of polygraph testing in personnel screening as a
condition for employment and in personnel security evaluations. In its 1994




U.S. Department of Justice                                               8
Office of the Inspector General
Evaluation and Inspections Division
report, the Joint Security Commission stated that it found federal agencies’
personnel screening program practices were inconsistent. 17 For example,
agencies varied as to when or if a screening polygraph was required, where
or how it was administered, the subject areas covered during the test, how
questions were worded, and what techniques were to be employed in
administering the tests. The report recommended that the intelligence
community develop standards to ensure consistency in the administration,
application, and quality control of polygraph testing for personnel screening.

      In response to the Commission’s recommendation, the U.S. Security
Policy Board developed an MOA to promote standardization and reciprocity
in personnel security evaluation programs. 18 In 1999, 12 of the 13
members of the U.S. Security Policy Board Forum signed the MOA. 19 The
one agency that did not sign the MOA was the FBI. 20 The signatory
agencies agreed to participate in a federal quality assurance program for
polygraph examinations, to allow federal inspectors to review the records of
personnel security examinations, and to abide by federal technical
standards as outlined in the Federal Psychophysiological Detection of
Deception Examiner Handbook (Federal Examiner Handbook), among other
things. 21 They also agreed to certify the competency of their examiners
based on federal standards. They agreed to limit the scope of
counterintelligence questions and to minimize the intrusiveness of control

       17Joint Security Commission, Redefining Security, A Report to the Secretary of
Defense and the Director of Central Intelligence, Washington, D.C., February 29, 1994.

       18 The U.S. Security Policy Board was established by Presidential Decision
Directive/NSC-29, “Security Policy Coordination,” September 16, 1994. It has since been
disbanded.

       19  The 1999 MOA was signed by the U.S. Air Force, U.S. Army, CIA, DEA, Defense
Intelligence Agency, Department of Defense, Department of Defense Polygraph Institute,
Department of Energy, U.S. Navy, National Reconnaissance Organization, National Security
Agency, and the Department of the Treasury.

        20 The U.S. Security Policy Board’s July 1999 approval memorandum noted that

the FBI declined to sign the MOA because of unspecified “unique, on-going operational and
policy issues.” While our study was in progress, the FBI indicated to us and to the
Department of Defense Polygraph Institute that it was now interested in becoming a
signatory, but as of July 2006 no action had been taken on this issue. According to the
Institute, because the U.S. Security Policy Board has been abolished, the FBI would have to
sign a separate agreement containing the terms of the original MOA.

       21 Federal agencies have adopted the term psychophysiological detection of
deception (PDD) to describe the process known as a polygraph examination. PDD and
“polygraph examination” are synonymous.



U.S. Department of Justice                                                               9
Office of the Inspector General
Evaluation and Inspections Division
questions. According to the MOA, agencies would accept each others’
polygraph results.

       Federal Examiner Training, Standards, and Quality Assurance
Program. Also in its February 1994 report, the Joint Security Commission
recommended that the CIA and the Department of Defense consolidate the
CIA’s Polygraph School with the Department of Defense’s Polygraph
Institute (DoDPI) to form an institute that would conduct all polygraph
education and training of federal government polygraph examiners. The
recommendation was implemented, and since 1995, DoDPI has been the
central provider of training for federal polygraph examiners, research, and
monitoring of technical and scientific developments in polygraphy. Since
1996, DoDPI has also conducted quality assurance reviews of federal
polygraph programs. Today, most federal polygraph examiners (including
those who work for the FBI, DEA, ATF, and OIG) are trained at DoDPI. On
May 13, 1999, operational responsibilities for DoDPI were placed under the
Defense Security Service. 22 DoDPI was transferred from the Defense
Security Service to the Department of Defense, Counterintelligence Field
Activity on December 19, 2002, based upon a memorandum signed by the
Deputy Secretary of Defense. With the cooperation and assistance of other
federal agencies, DoDPI:

       •    Manages a continuing education program for federal polygraph
            examiners that requires a minimum of 80 hours of related
            instruction every 2 years,

       •    Provides for research in forensic psychophysiology and credibility
            assessment methods,

       •    Maintains federal polygraph standards as established in the
            Federal Examiner Handbook, and

       •    Administers the federal Quality Assurance Program for polygraph
            programs.

      DoDPI officials are assisted by an Executive Committee that is
composed of 24 federal polygraph program managers, including program
managers from the FBI, DEA, ATF, and OIG. The Executive Committee
reviews new research, training proposals, suggested changes to the Federal


       22   See Department of Defense Directive 5105.42, “Defense Security Service.”



U.S. Department of Justice                                                             10
Office of the Inspector General
Evaluation and Inspections Division
Examiner Handbook, and the quality assurance standards. 23 The
Federal Examiner Handbook contains technical standards, procedures, and
test formats. It was developed with input from all agencies of the federal
polygraph community, including federal law enforcement, intelligence, and
security agencies.

      Since the Quality Assurance Program began in 1996, inspectors
working at DoDPI have conducted technical reviews of federal polygraph
programs to ensure that they are managed in compliance with the
standards in the Federal Examiner Handbook. All federal agencies with
polygraph programs, except the BOP’s SOTP and the USMS’s Witness
Security (WITSEC) Program, participate in the Quality Assurance Program
and undergo biennial inspections. As a matter of policy, participation is
mandatory for Department of Defense polygraph programs and voluntary for
other executive agencies. All federal law enforcement and intelligence
agencies, except the FBI, agreed in the 1999 MOA to participate in the
program, to use the Federal Examiner Handbook, and to supplement its
instructions only when necessary to address unique requirements in their
respective missions. The FBI began participating in the program in 2002.

      A DoDPI inspection team consists of two or more certified polygraph
examiners who review a sample of between 50 and 100 of the agency’s
recent polygraph examination records as well as agency policies and
procedures to determine compliance with 118 criteria in 9 primary program
areas. The team evaluates all aspects of an agency’s polygraph program
and reviews the work of examiners to ensure compliance with the Federal
Examiner Handbook.

      For example, inspectors verify that examination records contain
consent forms signed by the examinees. They review questions asked
during each examination to determine whether the questions were
appropriate for the testing format used and the issue under inquiry.
Inspectors review polygraph test charts and examiners’ numerical score
sheets to determine whether the test data supported the examiners’ analysis
and conclusion. Inspectors also determine whether the reviewing

       23  The federal polygraph standards were developed based on the American Society
of Crime Laboratory Directors (ASCLAD) inspection process. The ASCLAD process is a
voluntary fee-for-service inspection process that certifies most federal, state, and local
crime laboratories. The original and all subsequent modifications to federal polygraph
standards as found in the Federal Examiner Handbook must be approved in writing by all
25 federal agencies that participate in the federal Quality Assurance Program administered
by DoDPI.



U.S. Department of Justice                                                            11
Office of the Inspector General
Evaluation and Inspections Division
supervisor’s score sheet for an examination agreed with the field examiner’s
score sheet and whether a test subject was retested. Inspectors analyze the
time taken between the polygraph examinations and the supervisory quality
control reviews to determine whether retests were conducted within a
reasonable time.

       After completing an inspection, the inspectors brief agency officials on
the results of the inspection and provide them with a draft inspection
report. When an inspected agency receives an inspection report, it has 30
days to respond to its findings and recommendations. If there are
outstanding issues, inspectors conduct a follow-up inspection the next year
to verify that changes necessary for compliance certification have been
implemented both in policy and in practice. After all issues have been
favorably resolved, DoDPI issues a letter to agency officials certifying that
the agency’s polygraph program is in compliance. OPM requires that
agencies present the DoDPI certification of compliance letter when they
apply yearly for OPM approval to polygraph competitive service personnel.
Since OPM does not conduct compliance reviews of the polygraph programs
it has approved, OPM stipulates participation in and compliance with
DoDPI’s quality assurance programs as a surrogate means of verifying that
agency programs meet minimum professional and technical standards.

       Intelligence Reform and Terrorism Prevention Act of 2004. In the
Intelligence Reform and Terrorism Prevention Act of 2004 (Pub. L. No. 108-
458), Congress directed the federal government to establish requirements
for improving the security clearance process. Specifically, Title III,
Section 3001 (b) (2) requires the selection of a single entity to be responsible
for

       developing and implementing uniform and consistent
       policies and procedures to ensure the effective, efficient and
       timely completion of security clearances and determinations
       for access to highly sensitive programs, including . . .
       polygraph policies and procedures . . . .

       On June 27, 2005, Executive Order 13381 gave the Office of
Management and Budget (OMB) responsibility for standardizing the federal
security clearance process and ensuring uniform standards of reciprocity in
the recognition of clearances across agencies. OMB issued a plan to
improve the personnel security process in November 2005. The plan called
for the development of the Clearance Verification System, a database of
individuals’ names and their clearance status. In December 2005, OMB
also issued a memorandum to all executive departments and agencies

U.S. Department of Justice                                                  12
Office of the Inspector General
Evaluation and Inspections Division
outlining issues inhibiting reciprocity of security clearances and actions
departments and agencies are required to take to address them. According
to the memorandum, federal agencies had until March 31, 2006, to report to
OPM which of their personnel received a polygraph examination as part of
their security clearance investigations as well as the agency that conducted
the examination.

       In May 2006, OPM officials told us that OMB had not yet designated
an agency to lead government efforts to develop and implement standard
polygraph policy and procedures. Hence, that work had not started. OPM
officials said that Executive Order 13381, which was scheduled to expire on
July 1, 2006, would probably be extended so that the work being done to
implement the requirements of the Intelligence Reform and Terrorism
Prevention Act could continue.

Department of Justice Polygraph Policy

      We found that the Department has no comprehensive policy regarding
the conduct and use of polygraph examinations. As described later in this
section, the U.S. Attorneys’ Manual contains limited policies regarding the
use of polygraph examinations in criminal investigations and for witness
security. 24 It is also Department policy to oppose attempts by defense
counsel to admit the results of polygraph examinations into evidence or to
have an examiner appointed by the court to conduct a polygraph
examination. 25

       24   Department policy requires that all Witness Security (WITSEC) Program
candidates who are incarcerated undergo a polygraph examination before acceptance into
the program. See U.S. Attorneys’ Manual, Chapter 9, Section 9-21.340, Polygraph
Examinations for Prisoner-Witness Candidates, and Section 9-21.600, Prisoner-Witnesses.
The WITSEC Program provides for the security, health, and safety of government witnesses,
incarcerated or not, and their immediate dependents whose lives are in danger as a result
of their testimony against drug traffickers, terrorists, organized crime members, and other
major criminals.

       25 The U.S. Attorneys’ Manual, Subsection 9-13.300, provides that the “Department

opposes all attempts by defense counsel to admit polygraph evidence or to have an
examiner appointed by the court to conduct a polygraph test. . . . On the other hand, the
Department recognizes that in certain situations, as in testing the reliability of an informer,
a polygraph can be of some value. Department policy therefore supports the limited use of
the polygraph during investigations.” Chapter 9, Criminal Division, Section 9-13,
Obtaining Evidence, Subsection 9-13.300, Polygraphs – Department Policy. The U.S.
Attorneys’ Manual contains general policies and procedures relevant to the work of the
United States Attorneys' Offices and to their relations with the legal divisions, investigative
agencies, and other components within the Department of Justice.



U.S. Department of Justice                                                                13
Office of the Inspector General
Evaluation and Inspections Division
       The Department has periodically considered establishing policies
governing the use of polygraph examinations for pre-employment and
personnel security screening of Department employees after the FPM was
made non-binding, but such policies have not been adopted. For example,
in an October 21, 1996, report on the results of a Department-wide survey
of pre-employment polygraph testing, the Attorney General asked the FBI’s
Office of Investigative Agency Policies (OIAP) to study and provide advice on
the need for Department policy on the use of pre-employment polygraph
examinations. The survey showed that only three organizations – the FBI,
DEA, and JMD – used pre-employment polygraph testing for some of their
employees. The Attorney General asked the OIAP to answer a number of
questions concerning the FBI’s and other components’ use of pre-
employment polygraphs and to advise the Attorney General as to whether
the Department should establish a standardized set of guidelines for
applicant and employee testing. However, the OIAP’s response in 1997
provided an analysis only of the FBI’s policy of testing all applicants and not
the broader analysis of Department policy that the Attorney General
requested.

      On August 1, 2001, JMD presented to the Deputy Attorney General
three options for a Department-wide policy on the use of polygraph
examinations in personnel security evaluations that would have been
applicable to all Department components except the FBI. 26 The options
provided alternatives for Department policy (applicable to all Department
components except the FBI) on the use of counterintelligence-scope
polygraph examinations in personnel security investigations. 27 The first

       26  JMD based the proposed policy on the Johnson Memorandum, assuming that
the memorandum had been issued. In discussing the FPM (which had, by then, been
retired), JMD noted that “OPM continues to exercise its oversight over agency polygraph
use despite the lack of formal regulations in effect at this time.” Even though a
Departmental polygraph policy would affect both excepted service and competitive service
personnel, JMD opined that “it would be advisable to comply with OPM guidance and seek
OPM approval of any proposed regulations. Having OPM approval for Department
regulations would also afford greater protection against any legal challenges to the
Department’s policy.”

       27    Executive Order 12968, “Access to Classified Information,” August 2, 1995,
established a uniform personnel security program for employees who are to be considered
for initial or continuing access to classified information. According to the Executive Order,
eligibility for initial access is based on a personnel security investigation of an individual’s
background. Employees who are eligible for access to classified information must undergo
periodic reinvestigations and may also be reinvestigated if, at any time, there is reason to
believe that they may no longer meet the standards for access established by the Executive
Order.



U.S. Department of Justice                                                                 14
Office of the Inspector General
Evaluation and Inspections Division
option was to maintain the status quo, which would continue to allow the
components to establish component-level policies. At the time, the DEA had
policy for pre-employment screening for Special Agent applicants, and the
FBI had policy for pre-employment and personnel security screening. The
second option was that the Department would require periodic polygraph
examinations for those employees with regular access to the highest levels
of classified information. The third option was to require polygraph
examinations for all employees with access to any level of classified
information.

       JMD recommended that the Deputy Attorney General raise the issue
of polygraph examinations for personnel screening with affected components
to determine whether the Department should adopt a policy. In its
memorandum to the Deputy Attorney General, JMD said that, if the
components subsequently decided that the Department needed to adopt a
polygraph policy, JMD recommended the second option (require periodic
examinations for those employees with regular access to the highest levels
of classified information) over the third option (require polygraph
examinations for all employees with access to classified information).
However, the Department did not act on JMD’s recommendations.

      In 2004, during an OIG investigation of potential misconduct by a
Department attorney, the OIG asked JMD for the Department’s position on
whether Department employees could be compelled to submit to a
polygraph examination. JMD informed the OIG that it believed, in the
absence of a Department polygraph policy, the Department could not
compel Department employees. JMD also stated that it was unlikely that
disciplinary action against an employee based on information gained
through a compelled polygraph examination would be sustained on appeal.

      In July 2004, JMD’s Security and Emergency Planning Staff (SEPS)
proposed the formation of a working group to establish Department
polygraph policy for pre-employment and personnel screening. JMD
proposed this initiative after determining that it did not have the authority
to conduct a polygraph examination of a competitive service employee, even
with the employee’s consent. This issue arose when, during an adjudication
of a background investigation, an employee volunteered to submit to a
polygraph examination to resolve an issue. JMD proposed a working group
to develop a policy to govern the Department’s use of polygraph
examinations for pre-employment and personnel screening that would be
submitted for OPM’s review and approval. As of July 2006, the Department
had not formed such a working group.



U.S. Department of Justice                                               15
Office of the Inspector General
Evaluation and Inspections Division
       Another proposal regarding the use of polygraphs in the Department
was made in September 2004, when the FBI submitted a request to the
Office of the Deputy Attorney General for approval to polygraph employees
of other Department components who had regular access to sensitive FBI
information. This request would have affected Department attorneys and
other personnel who had access to the FBI’s most sensitive national security
information. The proposal specifically identified Department employees
assigned to the offices of the Attorney General and the Deputy Attorney
General, Office of Intelligence Policy and Review, Criminal Division, OIG,
and U.S. Attorneys’ Offices. Under the proposal, employees in those
components who had regular access to FBI information would have
undergone counterintelligence-scoped polygraph examinations as a
condition of access eligibility. On July 12, 2005, the Deputy Attorney
General met with the FBI Director and advised him that he would not
require Department attorneys to undergo polygraph examinations.

      As part of this review, in June 2006 the OIG met with JMD officials to
discuss whether the Department’s position on compelled polygraphs had
changed since 2004. After discussing JMD’s 2004 position, JMD officials
informed the OIG that they intended to ask JMD’s Office of General Counsel
to reexamine whether the Department has the legal authority to compel
employees to submit to polygraph examinations during investigations of
administrative misconduct and, if so, what procedural steps would be
required to exercise that authority.

Requirements and Process of Polygraph Examinations

       Polygraph Examination Requirements. All subjects of polygraph
examinations must consent to be tested. However, there may be
consequences when a subject refuses to take a polygraph examination or
when an examination indicates deception. As described in this section, the
consequences of polygraph examinations vary, depending on whether the
examination is considered voluntary, mandatory, or compelled; the reason
for the examination; and the examination results.

      Voluntary Examinations. Some polygraph examinations given to
federal employees or other individuals may be voluntary, meaning that the
examinee may refuse to take the examination with no adverse
consequences. For example, a witness or subject in a criminal investigation
may be asked to take a voluntary polygraph examination to resolve
discrepancies or confirm the veracity of his or her information. Because
such witnesses and subjects are protected by the Fifth Amendment right
against self-incrimination (discussed further below), they can refuse to

U.S. Department of Justice                                              16
Office of the Inspector General
Evaluation and Inspections Division
speak with investigators or to take a polygraph examination and are not to
suffer negative consequences for the refusal.

      Mandatory Examinations. Mandatory polygraph examinations are
those in which a successful examination is required for an individual to, for
example, be considered for employment, become a member of a foreign
investigative unit, or receive a security clearance. Generally, the
consequences of refusing to take a mandatory polygraph examination are
related to the administrative purpose for which the examination was
required. As described in the following examples, applicants who refuse to
take mandatory examinations may be denied employment, and employees
who refuse to take mandatory polygraph examinations for a security
clearance may be denied access to national security information.

       •   All applicants for employment in the FBI must undergo and pass a
           pre-employment polygraph examination. Applicants who refuse to
           take a polygraph examination are ineligible for employment.
           Applicants who fail their polygraph examinations and
           subsequently admit to deceptive or disqualifying behavior are
           normally barred from FBI employment. Applicants found to be
           deceptive, but who make no admission or confession during the
           examination process, may appeal the results of their examinations
           and may or may not be retested.

           The FBI also requires selected employees and non-FBI personnel
           with access to sensitive FBI information to undergo periodic and
           random personnel security polygraphs as a deterrent to espionage.
           Employees who refuse to submit to mandatory polygraph
           examinations, such as during periodic security reinvestigations or
           investigations of national security matters, may face transfer to a
           position with no access to sensitive information, denial or re-
           evaluation of their security clearances, or disciplinary action for
           insubordination. Since holding a security clearance is a condition
           of employment at the FBI, revocation of an FBI employee’s
           clearance would also lead to dismissal.

       •   In the DEA, polygraph examinations are mandatory for applicants
           for Special Agent and Intelligence Research Specialist positions,
           and foreign candidates for membership in Sensitive Investigative
           Units. Applicants for Special Agent and Intelligence Research
           Specialist positions who refuse to take a polygraph examination
           are not eligible for DEA employment. When an applicant’s
           polygraph results indicate deception and the applicant

U.S. Department of Justice                                                17
Office of the Inspector General
Evaluation and Inspections Division
           subsequently confesses or admits deception, they are not hired.
           When the results indicate deception, but there is no subsequent
           confession, the DEA may retest the individual or try to resolve the
           issue by conducting a background investigation. However,
           membership in a foreign investigative unit is contingent on taking
           and passing a polygraph examination.

       •   ATF requires all applicants for Special Agent positions to undergo a
           mandatory pre-employment polygraph examination. Those who
           refuse are not eligible for employment. If an applicant’s
           examination results in indications of deceptiveness or an
           admission of deception or disqualifying behavior, the individual
           may be ineligible for hire. Other positions in ATF do not require a
           pre-employment polygraph examination.

      Compelled Examinations. Compelled polygraph examinations are
those in which an employee is ordered to submit to the examination under
threat of adverse action (including suspension or dismissal) if they do not
comply. Information gained through a compelled polygraph examination
cannot be used in criminal proceedings against the subject, although it may
be used for administrative purposes. Whether an agency can take adverse
action against an employee for refusing to take a polygraph examination
when compelled during an investigation of administrative misconduct or a
security investigation depends on whether the employee is in the
competitive service or excepted service, and whether the agency has
implemented OPM-approved polygraph policies, among other things. Within
the Department, only the FBI has issued policies outlining when employees
can be compelled to submit to polygraph examinations.

       Federal courts have reviewed a number of cases in which public
employees were dismissed for refusing to take compelled polygraphs during
an investigation into administrative misconduct issues. As described below,
these courts held that public employees can be compelled to submit to
polygraph examinations in investigations into the performance of their
official duties, so long as they are not also required to relinquish their
privilege against self-incrimination. Thus, for example, the Eighth Circuit
rejected the Fifth Amendment and due process claims of a police officer who
was terminated after refusing to take a polygraph examination regarding the
disappearance of a photograph of a beaten detainee:

       The [Fifth] Amendment is violated when public employees
       are compelled to testify by employers who require the
       employees to either incriminate themselves or to forfeit their

U.S. Department of Justice                                                 18
Office of the Inspector General
Evaluation and Inspections Division
       jobs. As long as a public employer does not demand that the
       public employee relinquish the employee’s constitutional
       immunity from prosecution, however, the employee can be
       required to either testify about performance of official duties
       or to forfeit employment. 28

       Other cases that do not specifically involve polygraphs affirm the right
of the government to compel public employees – regardless of whether they
are law enforcement officers or not – to answer questions about the
performance of their official duties. 29

      However, many Department employees compelled to answer questions
(including questions asked as part of a polygraph examination) have
procedural protections from adverse employment actions under the Civil
Service Reform Act, 5 U.S.C. § 1101 et seq. Since 1990, Department
attorneys have been among that group. Id. § 7511(a)(1)(C). Before the Civil
Service Due Process Amendments were enacted, the Department’s Office of
Legal Counsel (OLC) had opined that a Department attorney could be




         28 See Hill v. Johnson, 160 F.3d 469, 471 (8th Cir. 1998) (citations omitted).

Because of “the important public interest in securing from public employees an accounting
of their public trust,” id., only “the combined risks of both compelling the employee to
answer incriminating questions and compelling the employee to waive immunity from the
use of those answers” violate the employee’s privilege against self-incrimination. Id. See
also Wiley v. Doory, 48 F.3d 773 (4th Cir. 1995) (rejecting Fifth Amendment claims of police
officers who were compelled to take polygraphs in connection with an investigation into a
shooting and who were threatened with job loss, when none of the officers was compelled to
waive his Fifth Amendment rights); Hester v. Milledgeville, 777 F.2d 1492 (11th Cir. 1985)
(rejecting Fifth Amendment claims of firefighters who were fired for refusing to take
polygraphs in connection with an investigation into illegal drug activity, where none of the
firefighters was compelled to waive his Fifth Amendment rights); Gulden v. McCorkle, 680
F.2d 1070 (5th Cir. 1982) (rejecting Fifth Amendment claims of Department of Public Works
employees who were fired for refusing to take polygraphs in connection with an
investigation into a bomb threat called in to a Department office, where none of the
employees was compelled to waive his Fifth Amendment rights). The Second Circuit has
upheld an FBI agent’s termination for cocaine use and lack of candor, holding that even if
the agent was terminated for refusing to take a polygraph examination, his termination was
not constitutionally impermissible because he “was explicitly promised throughout the
administrative investigation that any ‘information’ resulting therefrom . . . would not be
used against him in criminal proceedings.” Mack v. United States, 814 F.2d 120, 124 (2d
Cir. 1987).

        See Lefkowitz v. Turley, 414 U.S. 70 (1973); Uniformed Sanitation Men Assoc. v.
       29

Commissioner, 392 U.S. 280 (1968); Garrity v. New Jersey, 385 U.S. 493 (1967).



U.S. Department of Justice                                                             19
Office of the Inspector General
Evaluation and Inspections Division
removed for refusing to submit to a polygraph examination in connection
with an investigation into a leak in an ongoing criminal matter. 30

       Specifically, in its 1980 opinion, OLC stated that Department
attorneys had no procedural protections from summary removal under the
Civil Service Reform Act, other than a statement of reasons for the
discharge. The OLC opinion stated:

       Substantively, Department attorneys are provided no
       protections by Department regulations. And since they are
       not covered by the “for cause” standard of the civil service
       laws, attorneys apparently serve at the pleasure of the
       Attorney General.

OLC stated that failure to submit to a polygraph would amount to
insubordination, which is punishable by removal, and “arguably impedes
investigation of government misconduct.” OLC concluded, in accordance
with the Fifth Amendment discussion above, that as long as a Department
attorney was “warned that failure to submit to the test could lead to his or
her dismissal and that nothing obtained in the examination will be used
against the employee in a subsequent criminal proceeding,” the Attorney
General could dismiss a Department attorney for failing to submit to a
polygraph.

       After the Civil Service Due Process Amendments were enacted in
1990, it is no longer true that a Department attorney could be summarily
dismissed. A Department attorney is able to appeal certain disciplinary
decisions to the Merit Systems Protection Board (MSPB). It is unclear
whether the MSPB would uphold a dismissal for insubordination based on
an employee’s refusal to take a polygraph. 31 However, the MSPB has not
specifically addressed the question of whether an employee can be removed
for refusal to take a polygraph in connection with an investigation into
administrative misconduct.


       30
            4B Op. Off. Legal Counsel 421 (1980).

       31  In Meier v. Department of Interior, 3 M.S.P.R. 247 (1980), the Board declined to
draw an adverse inference against an employee who did not take a polygraph examination
in connection with an investigation into his alleged misconduct. Whether the agency had
ever actually requested that the employee take a polygraph is not clear. Because the FPM’s
restrictions on polygraph use would still have been in effect, the agency would not have
been able to compel the employee to submit to a polygraph.



U.S. Department of Justice                                                            20
Office of the Inspector General
Evaluation and Inspections Division
      As of June 2006, the FBI was the only component within the
Department that has issued policies and procedures for compelling its
employees to undergo polygraph examinations in misconduct or security
investigations. The FBI’s policy covers all FBI employees, including
attorneys. Employees of the FBI also can be ordered to take a polygraph
examination in an administrative investigation if the matter involves one or
more of seven specified violations of law or FBI policies, such as the
unauthorized release of sensitive information. 32 FBI employees who refuse
to take a polygraph examination under these circumstances face
administrative discipline, up to and including dismissal. FBI policy also
states that designated FBI officials can

       compel any Bureau or non-Bureau person with access to FBI
       information or facilities to submit to a polygraph examination
       to resolve specific issues which may impact a person’s
       trustworthiness for security matters.

The FBI policies appear consistent with the criteria established in court
cases for upholding dismissals when employees refuse to take compelled
polygraph examinations. 33

      While FBI employees can be compelled to submit to polygraph
examinations, it is not clear whether employees of other Department
components can be compelled to do so in the absence of a policy regarding
compelled polygraphs. As described previously, in 2004 JMD informed the
OIG of the Department’s position that, in the absence of approved
regulations, it does not have the authority to compel employees to take

       32   The seven violations are: (1) intentional and unauthorized release of sensitive,
protected information; (2) relationship with or allegiance to a foreign power; (3) illegal or
improper exercise of influence; (4) intentional and unauthorized destruction, alteration,
misplacement, taking, falsification, or other impairment of FBI documents or evidence;
(5) use of or unauthorized dealing in controlled substances; (6) false statements or the
failure to candidly disclose information; and (7) theft, fraud, and misuse of government
money and property.

        33 Those criteria were most clearly stated in Eshelman v. Blubaum, (App) 114 Ariz

376, 560 P2d 1283. Eshelman concerned a Deputy Sheriff who was dismissed for willful
disobedience of an order and insubordination for refusing to take a polygraph examination
during an internal investigation. The court stated that the criteria for demanding a
polygraph in the course of an internal investigation is that the employee be informed in
advance that (1) the questions to be asked during the polygraph examination will relate
specifically and narrowly to the performance of the employee’s duties, (2) the answers given
will not be used against the employee in any subsequent criminal prosecution, and (3) the
penalty for refusing can include dismissal.



U.S. Department of Justice                                                                 21
Office of the Inspector General
Evaluation and Inspections Division
polygraph examinations during administrative misconduct investigations.
The Department and Department components other than the FBI have not
issued such policies, and we found that several proposals to develop a
Department-wide polygraph policy have not been acted upon to date.
Consistent with the position expressed by JMD in 2004, we found no
instance in which an employee of a Department component, other than the
FBI, has been compelled to take a polygraph examination in an
administrative misconduct investigation. However, when the OIG met with
JMD officials in June 2006, the JMD officials stated that they intended to
ask JMD’s Office of General Counsel to reexamine whether the Department
has the legal authority to compel employees to submit to polygraph
examinations during investigations of administrative misconduct.

       General Polygraph Examination Process. As described in the
following paragraphs, the polygraph examination process typically includes
a pretest interview, collection of physiological data using a polygraph
instrument, analysis of the test data, and a post-test interview in which the
examiner questions the subject about answers that evoked a response. (See
Chart 1 on page 24.) Examinees are generally asked to give written consent
before they undergo a polygraph examination.

       Pretest Interview. The first step in the polygraph process is a pretest
interview. During the pretest interview, the examiner verifies information
that the subject provided previously and gathers information to formulate
the questions that will be asked during the physical test. 34 According to a
National Academy of Sciences report, a comprehensive and careful pretest is
critical to a successful examination. 35 During the pretest interview,
subjects are encouraged to correct prior statements (for example,
statements regarding the extent of prior drug use) and to reveal relevant
information not previously disclosed (such as criminal behavior or security
violations). In some cases, a subject may make an admission or confession
during the pretest interview that will obviate the need for further testing.

      Testing. During the testing phase, the examiner asks the examinee
questions while the examinee is connected to the polygraph instrument.

       34  Redefining Security, A Report to the Secretary of Defense and the Director of
Central Intelligence.

       35 The Committee to Review the Scientific Evidence on the Polygraph established by
the National Research Council of the National Academy of Sciences issued the study, The
Polygraph and Lie Detection, published in October 2003 by the National Academies Press.




U.S. Department of Justice                                                                 22
Office of the Inspector General
Evaluation and Inspections Division
The examinee is instructed to answer each question with either a “yes” or
“no,” and the polygraph instrument measures and records the examinee’s
physiological reactions as the examinee answers each question.

      In general, the format and scope of the questioning depends on the
purpose of the test. Questions follow one of two formats – specific issue and
non-specific issue (screening). Specific-issue examinations are conducted to
resolve questions related to specific factual issues or single known events
under investigation. 36

       Questions asked during specific-issue examinations relate to the
specific incident and generally have little ambiguity (for example, “Did you
see John Smith on Monday at 2 p.m.?”). In contrast, in non-specific
examinations, such as those conducted during pre-employment testing and
employee screening, there is no specific known event being investigated.
The questions asked during a non-specific examination may cover multiple
topics and may range across an entire lifetime (“Have you ever revealed
classified information to an unauthorized person?”).

      Among non-specific polygraph examinations, there are two general
scope categories: the counterintelligence-scope polygraph and the full-scope
polygraph. The counterintelligence-scope polygraph focuses on identifying
involvement in espionage, sabotage, terrorism, mishandling of classified
information, and unauthorized contacts with representatives of foreign
governments. The full-scope polygraph covers all of the counterintelligence-
scope questions and also includes questions pertaining to both security
issues and suitability for employment. Questions involving suitability asked
during an examination usually address criminal history, use of illegal drugs,
and falsification of information on the personal history statement.




       36   Joint Security Commission, Redefining Security.



U.S. Department of Justice                                               23
Office of the Inspector General
Evaluation and Inspections Division
                       Chart 1: Polygraph Examination Process

                                   Examinee Consents to Polygraph Examination



           Examinee:
           1. Admits/Confesses                  Pretest Interview
           2. Refuses Test
           3. Is Deemed Unfit by                                                     Examinee or Examiner
           the Examiner                                                              stops test before
                                                   Test Phase                        completing at least
                                                                                     two charts.


                                              Data Analysis Phase/
                                              Preliminary Opinion
    No Opinion/                                                                        No Opinion/
      No Test                                                                         Test Incomplete


                            No Deception          Deception           Inconclusive
                            Indicated             Indicated



                                               Post-test Interview




                                         Unresolved             Resolved



                                            Quality Control Review



                                              Final Opinion:
                                                 1. No Deception
                                                 2. Deception
                                                 3. Inconclusive
                                                 4. No Opinion



                                           Polygraph Process Concluded
                                                Final Report Issued



Source: OIG analysis




U.S. Department of Justice                                                                          24
Office of the Inspector General
Evaluation and Inspections Division
      Data Analysis. After completing the physical test, the examiner
analyzes the physiological reactions that the subject exhibited in response
to each question asked during the test. The examiner assigns a score to
each response. The standards for analyzing and scoring test results are
prescribed in the Federal Examiner Handbook. Once the analysis and
scoring are completed, the examiner issues one of four opinions: 37

   •   Deception Indicated – The subject’s physiological reactions when
       responding to one or more relevant questions were indicative of
       deception.

   •   No Deception Indicated – The subject had no physiological reactions
       indicative of deception when responding to relevant questions.

   •   Inconclusive – The examiner cannot reach a conclusion of Deception
       Indicated or No Deception Indicated.

   •   No Opinion – The examiner cannot render an opinion based on the
       physiological data on the charts. A result of No Opinion often
       indicates that the subject stopped the test before it was completed.

If the examination results in a finding of No Deception Indicated, Deception
Indicated, or Inconclusive, the polygraph process continues with a post-test
interview or additional testing.

     Post-Test Interview. To resolve inconclusive results or determine why
a subject exhibited indications of deceptiveness in response to specific
questions, the examiner may discuss the test results with the subject. In
some cases, the subject may give an acceptable explanation for why the
subject reacted to a particular question, or the subject may confess to
wrongdoing or undesirable behavior.

      After the polygraph examiner formulates a preliminary opinion on the
results of the examination, a supervisory examiner reviews the examination
record and the examiner’s opinion as a quality control measure. The
supervisory examiner issues the final opinion on the results. The
polygraph examination process essentially ends with the issuance of the



       37 There are variations in terminology used in different polygraph units, but in
general they are synonymous with these four basic opinions. Later sections of this report
discuss variations in terminology where they exist in the Department.



U.S. Department of Justice                                                            25
Office of the Inspector General
Evaluation and Inspections Division
final opinion and a referral of the findings to adjudicating or investigating
officers.

Polygraph Examinations in the Department of Justice

      Eleven components in the Department reported conducting or using
polygraph examinations since the beginning of fiscal year (FY) 2002. Four
of them, the FBI, DEA, ATF, and OIG, administer their own polygraph
programs and conduct examinations for their organization as well as for
other organizations. The other seven components do not conduct their own
polygraph examinations; instead, they use the services of other agencies.
Those seven components are the Department’s Criminal Division, Justice
Command Center (JCC), Antitrust Division (ATR), National Drug Intelligence
Center (NDIC), Office of Professional Responsibility (OPR), Federal Bureau of
Prisons (BOP), and U.S. Marshals Service (USMS).

      Purposes of Polygraph Examinations. Polygraph examinations are
used for several purposes, depending on the Department component’s
mission and requirements. Components use polygraph examinations
primarily for:

          •   Pre-employment screening,
          •   Personnel security screening,
          •   Criminal investigations,
          •   Counterintelligence and counterterrorism investigations,
          •   Misconduct and internal affairs investigations,
          •   Witness security, and
          •   Foreign vetting.

These uses of polygraph examinations are briefly described below.

       Pre-Employment Screening. Pre-employment polygraph examinations
are non-specific, full-scope examinations that are used to identify past
behavior (e.g., use of illegal drugs, involvement with foreign nationals) that
may indicate a lack of reliability in the potential employee. The FBI and the
JCC require all applicants to undergo a pre-employment polygraph
examination. The DEA, ATF, and NDIC require only applicants for certain
specified positions (such as GS-1811 criminal investigators) to be tested.
The OIG does not conduct pre-employment polygraph examinations.



U.S. Department of Justice                                                 26
Office of the Inspector General
Evaluation and Inspections Division
      Personnel Security Screening. Polygraph examinations are used in
personnel security programs to identify individuals that present serious
threats to national security and to deter and detect unwanted behaviors
such as espionage. Personnel security polygraphs are non-specific,
counterintelligence-scope examinations. The examiners ask questions
pertaining to the subject’s involvement in espionage, sabotage, terrorism,
unauthorized disclosure of classified information, and unauthorized foreign
contacts. Personnel security screening examinations can be conducted as a
condition of initial access to national security or sensitive information, as a
part of periodic security reinvestigations, or on randomly selected
individuals. The FBI is the primary user of personnel security polygraphs in
the Department and intends to require them of all personnel. The DEA
conducts personnel security polygraphs only on its polygraph examiner
trainees, who are required by DoDPI to undergo the examination before
being accepted for training. ATF and the OIG do not conduct personnel
security polygraphs.

       Criminal Investigations. Polygraph examinations used in criminal
investigations are specific-issue examinations that are administered to
subjects, witnesses, or informants to (1) detect and identify criminal
suspects; (2) verify information furnished by an informant or a witness to
establish or corroborate credibility; and (3) obtain additional information
leading to new evidence or identification of additional suspects, witnesses,
or locations. The FBI, DEA, ATF, and OIG conduct and use polygraph
examinations as a tool in criminal investigations. The FBI also conducts
criminal, specific-issue polygraph examinations for the Department’s ATR,
Criminal Division, and OPR when requested.

      Counterintelligence and Counterterrorism Investigations. During
investigations into suspected security breaches (espionage) or foreign or
domestic terrorist threats to national security, specific-issue polygraph
examinations may be administered to the subjects, witnesses, or informants
associated with the incident or threat under investigation. The FBI is the
only Department component that conducts and uses polygraph
examinations in counterintelligence and counterterrorism operations.

       Misconduct and Internal Affairs Investigations. Specific-issue
polygraph examinations may be given to employees who are subjects,
witnesses, or complainants in investigations of personal misconduct in the
performance of official duties. These examinations are used to substantiate
or refute allegations, verify information furnished by complainants or
subjects, establish or corroborate credibility, and obtain additional
information. The FBI, DEA, OIG, BOP, USMS, and OPR reported using

U.S. Department of Justice                                                 27
Office of the Inspector General
Evaluation and Inspections Division
polygraph examinations as a tool in misconduct investigations. (See
Tables 2 and 3 at the end of this section.) The FBI and the OIG also
conduct examinations when requested by the BOP, USMS, and OPR.

       WITSEC Program. “Prisoner-witnesses” who want to participate in the
WITSEC Program must undergo a specific-issue polygraph examination to
aid in assessing their truthfulness. According to the Department’s
U.S. Attorneys’ Manual, Title 9, Chapter 21, a polygraph examination is
required of all WITSEC Program candidates who are incarcerated in order to
maintain the security of individuals housed in a BOP Protective Custody
Unit. The USMS also uses polygraph examinations for witnesses that are
not incarcerated, but claim that their security has been breached and ask
the USMS to move them to a new location. The FBI, OIG, or the Secret
Service conducts polygraph examinations for the WITSEC Program when
requested by the Department’s Criminal Division, which oversees the
WITSEC Program. A private contractor working for the U.S. Marshals
Service conducts polygraph examinations of WITSEC participants who are
not incarcerated.

      Foreign Vetting. Foreign agents and law enforcement officials
assigned to joint law enforcement task forces or overseas operations
involving Department components are vetted using non-specific, full-scope
polygraph examinations. These examinations are conducted to help identify
potential security risks and to identify individuals whose past behavior
could indicate uncertain reliability. The DEA and ATF reported using
polygraph examinations to vet foreign participants of task forces and
overseas operations.

     Number of Polygraph Examinations Conducted by the
Department’s Four Polygraph Programs (FBI, DEA, ATF, and OIG).
From FY 2002 through 2005, the four Department components that
conduct polygraph examinations (the FBI, DEA, ATF, and OIG) performed
approximately 49,197 examinations. 38 The examinations conducted by the
components were used as follows:

       •    27,866 (56.7 percent ) for pre-employment screening (the FBI,
            DEA, and ATF),
       •    4,735 (9.6 percent) for personnel security screening and
            investigations (the FBI and DEA),

       38  The number is an approximation because the four components do not all track
their uses of polygraph examinations in the same way.



U.S. Department of Justice                                                         28
Office of the Inspector General
Evaluation and Inspections Division
       •   8,356 (17 percent) for criminal investigations (the FBI, DEA, ATF,
           and OIG),
       •   149 (0.3 percent) for misconduct investigations (the FBI and DEA),
       •   1,994 (4.1 percent) for counterintelligence and counterterrorism
           investigations (the FBI only),
       •   1,694 (3.4 percent) for requests by other organizations for a variety
           of uses (the FBI and OIG), and
       •   4,403 (8.9 percent) for foreign vetting (the DEA and ATF).

     Table 2 lists the number and type of polygraph examinations
conducted by each of the four components.




U.S. Department of Justice                                                  29
Office of the Inspector General
Evaluation and Inspections Division
                Table 2: Polygraph Examinations Conducted by Component
                                  FY 2002 through 2005

                                                                              Number             Percentage
Component              Polygraphs Conducted for                               Conducted          of Total
FBI                     •    Pre-employment screening                               23,310
                        •    Personnel security                                      4,721
                        •    Criminal investigation                                  6,203
                        •    Misconduct investigation                                  128
                        •    Foreign Counterintelligence and
                             Counterterrorism                                       1,994
                        •    As requested by other agenciesa                        1,661
                                                          Subtotal                 38,017                 77.3%
DEA                     •    Pre-employment screening                                3,218
                        •    Personnel securityb                                        14
                        •    Criminal investigations                                   733
                        •    Misconduct investigations                                  21
                        •    Foreign vetting                                         4,321
                                                                Subtotal             8,307                16.9%
ATF                     •    Pre-employment screening                                1,338
                        •    Criminal investigations                                 1,280
                        •    Foreign vetting for other agencies                         82
                                                           Subtotal                  2,700                 5.5%
OIG                     •    Criminal and misconduct                                    140
                             investigationsc
                        •    As requested by other agencies                             33
                                                         Subtotal                      173                 0.4%
                                                                   Totald          49,197              100.0%

a   Some of the examinations conducted by the FBI were for agencies outside of the Department.
b   While the DEA reported conducting 14 personnel security polygraphs, those were done only for polygraph
    examiner trainees who were seeking training at DoDPI, which requires that candidates undergo the
    examination as a pre-condition for acceptance.
c   The OIG does not distinguish between criminal and administrative investigations. We counted them as
    criminal investigations.
d   The total does not include limited numbers of examinations conducted by the BOP’s SOTP, Secret Service, CIA,
    and a contractor for the USMS’s WITSEC Program, which we roughly estimate at 89 examinations during the
    study period.
Source: FBI, DEA, ATF, and OIG




U.S. Department of Justice                                                                                   30
Office of the Inspector General
Evaluation and Inspections Division
      Number of Polygraph Examinations Used or Conducted by Seven
Other Department Components. From FY 2002 through 2004, the seven
Department components that use the results of polygraph examinations
reported using approximately 1,361, as shown in Table 3 on the next page.
Most of those examinations are included in the numbers that the FBI, DEA,
ATF, and OIG reported conducting, (shown in Table 2). However, some of
the examinations shown in Table 3 were conducted by the Secret Service,
CIA, BOP’s SOTP, and a contractor for the USMS’s WITSEC Program. The
BOP and USMS conduct limited numbers of polygraph examinations but do
not have polygraph programs like those of the FBI, DEA, ATF, and OIG.
Table 3, on the next page, lists these “user” components, the number and
purpose of the examinations requested or used, and the components that
conducted the examinations.




U.S. Department of Justice                                           31
Office of the Inspector General
Evaluation and Inspections Division
      Table 3: Number of Polygraph Examination Results Used By Seven Other
                      Components in FY 2002 through 2004

Component                    • Polygraphs’ Use                           Conducted by            Results Used

Antitrust Division           • Criminal investigations                   FBI                                      2
Bureau of Prisons            • Witness security a                        FBI, OIG                          (338)
                             • Internal affairs (misconduct) b           FBI, OIG                            21
                             • Sex offender assessments c                BOP                                 76


Criminal Division            • Foreign vetting                           FBI                                725
                             •                                           FBI, CIA                             4
                               National security
                             • Witness security                          FBI, OIG, Secret                   427
                                                                         Service
                             • Criminal investigations                   FBI, OIG                            15


Justice Command              • Pre-employment screening                  FBI                                      3
Center
National Drug                • Pre-employment screening                  FBI                                 72
Intelligence Center

Office of                    • Criminal investigations                   FBI                                      0
Professional                 • Misconduct investigations                 FBI                                      0
Responsibility
U.S. Marshals                • Misconduct investigations                 FBI                                      0
Service
                             • Witness security                          Contractor, ATF                     16
                                                                         OIG
                                                                                                 Total 1,361d

a   The Office of Enforcement Operations in the Criminal Division approves all polygraph examinations conducted
    for the Witness Security program. The 338 reported by the BOP are included in the 427 total WITSEC
    examinations reported by the Criminal Division in August 2006.
b   Some of these polygraphs were administered during the course of OIG investigations.
c   The BOP’s Director of the Sex Offender Treatment Program began conducting polygraphs in mid-2002.
d   Most of these examinations are included in the numbers reported in Table 2, page 30, for polygraph
    examinations conducted by the FBI, ATF, and OIG. They also include a number of examinations conducted by
    the Secret Service (unknown), CIA (2), BOP (76), or the USMS contractor (11 of 16). The examinations
    conducted by the USMS’s WITSEC contractor and the BOP’s SOTP are limited and represent anomalies in the
    Department.

Source: Components’ data




U.S. Department of Justice                                                                                 32
Office of the Inspector General
Evaluation and Inspections Division
Purpose, Scope, and Methodology

      The OIG conducted this study of polygraph programs in the
Department to develop detailed information concerning the use of polygraph
examinations in the Department, including trends in polygraph use as well
as common issues affecting the Department’s polygraph programs and uses.
We focused on identifying and describing:

   •   Legal and regulatory requirements governing the use of polygraph
       examinations in the federal government;

   •   Department policy and mechanisms for oversight of component use
       and administration of polygraph examinations; and

   •   Key characteristics of the Department’s polygraph programs, the
       various uses of polygraph examinations, and how the components
       manage their use of polygraph examinations in compliance with
       federal and professional standards.

       We studied the 11 Department components that used polygraph
examinations in FY 2002 through 2005. In conducting this examination, we
reviewed government and private studies, component policies and
regulations, federal and component polygraph manuals, and journal
articles. We also reviewed federal legislation, Presidential Memorandums
and Executive Orders, and security directives and guidelines to determine
the legal and regulatory requirements for using and conducting polygraph
examinations in the Department.

      In addition, we talked with officials in the criminal, intelligence,
counterintelligence, and personnel security divisions of the Department,
FBI, DEA, ATF, and OIG to determine their use and experience with
polygraphs. We talked with security officials, officials dealing with issues of
misconduct, adjudicators, and personnel specialists to identify policies and
procedures for requesting and approving polygraph examinations and the
pool of candidates subject to initial, periodic, random, and compelled
polygraphs. We also examined how the results of polygraphs examinations
were interpreted, adjudicated, managed, and stored.

      We talked with polygraph examiners and officials administering
polygraph programs and managing polygraph units for the FBI, DEA, ATF,
and OIG. We identified the key components in each polygraph program
and, when necessary, developed organizational charts showing both the
headquarters and field structures.

U.S. Department of Justice                                                 33
Office of the Inspector General
Evaluation and Inspections Division
       We analyzed budget data, polygraph statistics, performance
measures, and strategic plans regarding these polygraph programs. We also
reviewed the mission, policies, and procedures guiding each of the units as
well as their interaction with other polygraph units and professional
organizations. We talked with field supervisory examiners regarding the use
and conduct of polygraph examinations and examiner recruitment, training,
certification, performance, and oversight.

      We traveled to DoDPI, which is located at Fort Jackson, South
Carolina; interviewed DoDPI officials; and received a briefing on DoDPI’s
role. We identified federal training requirements and issues regarding
polygraph use in the federal government. We discussed federal technical
standards and requirements for the conduct of polygraphs.

      To gauge the performance of the Department’s polygraph units and
examiners, we reviewed quality assurance and internal inspection reports
on the FBI, DEA, ATF, and OIG polygraph programs. We used the
inspection results to evaluate the overall performance of the units in
complying with internal policies and procedures and in meeting established
standards for polygraph programs in the federal government.




U.S. Department of Justice                                              34
Office of the Inspector General
Evaluation and Inspections Division
                                      RESULTS


      SECTION I: Polygraph Programs in the Department of Justice

THE FBI POLYGRAPH PROGRAM

Background

      The FBI employed polygraph examiners as early as 1935. In the early
to mid-1970s, the FBI sent agents for polygraph training first at Quantico,
Virginia, and, in the late 1970s, to the U.S. Army Military Police School at
Fort Gordon, Georgia. The FBI centralized its polygraph program in 1978.

       Before the mid-1980s, the FBI used polygraph examinations as an
investigation tool in criminal cases. In the mid-1980s, the FBI began
conducting polygraph examinations of its own agents when they held
sensitive positions. FBI personnel already on duty, including Special
Agents, were not required to take polygraph examinations unless they had
access to certain sensitive programs or investigations coordinated through
outside intelligence agencies. A few Special Agents in sensitive positions
were tested when they were detailed to organizations outside the FBI (such
as the CIA) where counterintelligence-scope polygraphs were required for
authorization to access facilities and information. FBI personnel were also
subject to polygraph examinations if they were investigated by the FBI’s
Office of Professional Responsibility because of misconduct allegations. In
1985, the FBI began limited pre-employment testing and, by 1994, all
applicants for FBI employment were required to undergo pre-employment
polygraph examinations.

      The FBI’s Polygraph Program expanded greatly in the wake of the
arrest of FBI Special Agent Robert Hanssen for espionage in February 2001.
After Hanssen’s arrest, the FBI implemented a Personnel Security Polygraph
Program that requires specified personnel to undergo personnel security
polygraph examinations as a deterrent to those contemplating espionage or
engaging in espionage within the ranks of the FBI. Also, the numbers of
pre-employment screening polygraph examinations conducted by the FBI
have grown significantly since 2001 because of hiring initiatives following
the September 11, 2001, terrorist attacks. As shown in Figure 2 on the next
page, overall there has been a 30-percent decline in the numbers of




U.S. Department of Justice                                              35
Office of the Inspector General
Evaluation and Inspections Division
polygraphs conducted by the FBI for operations, 39 but a 78-percent increase
in the overall number of screening polygraphs (i.e., pre-employment and
personnel security screening) from FY 2002 to FY 2005.



     Figure 2: FBI Polygraph Examinations Conducted and Used for
              Operational and Pre-employment Screenings

                                              (FY 2002 – 2005)

                                  10,000
                                   9,000
                                   8,000
                                   7,000
                                   6,000
                                   5,000
                                   4,000
                                   3,000
                                   2,000
                                   1,000
                                        0
                                                 2002   2003     2004    2005
                Operations (criminal,           2,539   1,984    1,903   1,771
                foreign counterintelligence
                and counterrorism)
                Screenings (pre-                5,016   5,019    9,092   8,904
                employment and
                personnel security)


Source: FBI Polygraph Unit


     This shift in polygraph priorities was supported in part by a
recommendation in A Review of FBI Security Programs, published by the
Commission for the Review of the FBI Security Programs (the Webster
Commission), dated March 31, 2002. The Webster Commission
recommended that the FBI implement a counterintelligence polygraph
       39As shown in Table 5, on page 55 of this report, the decline in the use of polygraph
examinations in operations occurred in their use in criminal investigations not in foreign
counterintelligence and counterterrorism. Their use in criminal investigations decreased
43 percent, while their use in foreign counterintelligence and counterterrorism increased by
31 percent from FY 2002 to 2005.



U.S. Department of Justice                                                             36
Office of the Inspector General
Evaluation and Inspections Division
program for employees and non-FBI personnel with access to Sensitive
Compartmented Information (SCI) and special access clearance. Since that
time, the FBI has elevated the role of personnel security within the FBI,
brought personnel security expertise to the FBI from other intelligence
agencies, established a Security Division and appointed a Director of
Security, and shifted internal resources (including moving the Polygraph
Unit from the Laboratory Division to the Security Division) as part of an
ongoing restructuring plan. 40 In June 2002, the FBI Director approved the
expansion of the Personnel Security Polygraph Program to make it a
permanent part of the FBI security process.

      From March 2001 through February 2005, the FBI also expanded the
number of FBI positions for which it requires periodic and random
personnel security polygraphs for access to sensitive and national security
information from approximately 550 positions to 18,384 employees and
Joint Terrorism Task Forces (JTTF) members. All personnel assigned to FBI
counterintelligence, counter-terrorism, and security programs fall under the
requirement for personnel security polygraph examinations, including state
and local law enforcement personnel serving on JTTFs. Other FBI elements
that require personnel to undergo personnel security screening include the
Cyber Division, Records Management Division, Directorate of Intelligence,
and Information Technology Operations Division.

       According to the Chief of the Personnel Security Adjudication Section
and the Chief of the Polygraph Unit, the FBI is considering requiring all
personnel who have access to FBI space, information, and information
systems to undergo periodic and random counterintelligence-scope
polygraph examinations. Non-FBI personnel would also be included, among
them employees of other Department components, JTTF members, and FBI
contractor employees. Although no specific deadline has been set for
imposing this requirement, if implemented, it would raise the number of FBI
positions subject to this requirement to approximately 35,000. 41




       40  The FBI established “detail” assignments to the Security Division from the CIA
and NSA. For example, the FBI’s Assistant Director of the Security Division and the Chief
of the Personnel Security Adjudication Section are CIA employees on temporary assignment
to the FBI.

       41 This number is based on the FBI’s staffing level of 30,430 employees as of March
2006, an undetermined number of contractors that may be as high as 3,500, approximately
400 persons outside the FBI requiring initial special access, and 1,518 JTTF members.



U.S. Department of Justice                                                           37
Office of the Inspector General
Evaluation and Inspections Division
      To establish an infrastructure to support the expansion of the
polygraph program, the FBI Polygraph Unit Chief, in FY 2004, established
regional manager positions, which placed a supervisory polygraph examiner
in each of seven geographical regions to provide supervisory reviews of
polygraph examinations as part of the FBI’s quality control process. In
addition, the FBI increased its polygraph examiner workforce. In FY 2005,
the Polygraph Unit hired 21 new examiners, and all were expected to
complete DoDPI training by December 2005.

       Besides using polygraph examinations in criminal investigations and
personnel security and pre-employment screening, the FBI uses polygraph
examinations in counterintelligence and counterterrorism investigations and
in misconduct investigations involving FBI employees. The FBI also
conducts many of the polygraph examinations requested by Department
components that use the results of polygraph examinations but that do not
have their own polygraph capability. It also provides support to other
organizations such as the Department of State, the Department of the
Interior’s Bureau of Indian Affairs, and the Department of Defense.

      During FY 2005, FBI examiners conducted over 11,000 polygraph
examinations in the United States and abroad. The FBI’s Polygraph Unit
provides support to the FBI’s Administrative Services; Counterintelligence,
Counterterrorism, Criminal, and Security Divisions; Office of Professional
Responsibility, Legal Attaché Offices, and all FBI field offices.

Mission and Purpose

      The FBI’s Polygraph Unit is located within the FBI’s Security Division,
in the Personnel Security Adjudication Section. The stated mission of the
Personnel Security Adjudication Section is to protect FBI people, facilities,
and information by ensuring the trustworthiness of FBI employees and non-
FBI personnel through initial and continued vetting and counterintelligence
measures. The mission of the FBI Polygraph Unit is to provide polygraph
support to the FBI by conducting polygraph examinations in criminal,
counterintelligence and counterterrorism, and misconduct investigations;
pre-employment and personnel security screening; and as requested by
other agencies.

Policies and Regulations

      The FBI polygraph program is governed by the FBI Security Division’s
Security Policy Manual, the Polygraph Examiner Manual, the FBI’s Manual of



U.S. Department of Justice                                               38
Office of the Inspector General
Evaluation and Inspections Division
Administrative Operations and Procedures (MAOP), and the Manual of
Investigative Operations and Guidelines (MIOG).

      The Security Policy Manual was developed in response to
recommendations made in the 2002 Webster Commission report and the
FBI Director’s subsequent security program improvement initiatives. As
previously discussed, the Webster Commission was established in March
2001 to review FBI security programs in the aftermath of the Robert
Hanssen espionage case. The Security Policy Manual, which took effect on
December 1, 2005, consolidated FBI security policy regarding the use of
polygraph examinations that was previously contained in the MAOP, MIOG,
and other applicable security policy documents issued by the Security
Division. 42 However, the Security Policy Manual does not address the use of
polygraph examinations in criminal investigations. The MIOG continues to
be the primary source of FBI guidance for the use of polygraph
examinations in investigative operations.

       The Security Policy Manual contains FBI policies regarding the use of
polygraph in personnel security matters. Among other things, the Security
Policy Manual addresses approving authorities, identifies personnel subject to
routine polygraph examinations, those subject to specific-issue examinations,
the consequences of refusing to take a voluntary polygraph examination,
instances in which an FBI employee can be ordered to undergo an
examination, and the consequences of a Deception Indicated polygraph result.

       The Polygraph Examiner Manual, which was last revised in 2006,
contains technical guidance for examiners on conducting, evaluating, and
reporting the results of a polygraph examination. Its provisions largely
reflect those found in the Federal Examiner Handbook.

      The MIOG, Part 2, is still the primary source of general polygraph
policy and procedures and of policy and procedures for the use of polygraph
examinations as a tool in criminal investigations. However, the MIOG has
not been revised to reflect changes resulting from the reorganization of the
FBI’s Polygraph Unit, which moved from the Laboratory Division to the
Security Division.




       42 The FBI’s Security Policy Manual, Section 1.1, Polygraph Program, replaced
polygraph policy contained in Part 2 of the FBI’s MIOG.



U.S. Department of Justice                                                             39
Office of the Inspector General
Evaluation and Inspections Division
Organization and Staffing

      The FBI’s polygraph program comprises the Polygraph Unit at FBI
Headquarters and a field structure comprised of a total of 119 personnel.
Chart 2 shows the FBI’s polygraph program organizational structure.

                                Chart 2: FBI Polygraph Organization Structure

                                                                                   Security Division


                                                                                      Personnel Security
                                                                                     Adjudication Section


                                                                                     Unit Chief - Polygraph




 Department of      Department of
    Defense            Defense                                                                                                                        Contractor      Contractor       Contractor
   Polygraph          Polygraph                                                                    Program          Program         Management        Personnel       Personnel
                                                                                                                                                       Security        Security
                                                                                                                                                                                      Information
    Institute          Institute                                                                   Analyst          Analyst          Assistant
                                                                                                                                                      Specialist      Specialist      Technology
  Supervisory        Supervisory
 Special Agent      Special Agent




   Budget         Training                                                                                                                                       Personnel           Personnel
                                     Information Technology          Foreign Counter                 Applicant         Applicant
                                                                                                                                                                  Security            Security
 Supervisory     Supervisory             Witness Security         Intelligence Terrorism            Supervisory       Supervisory      Contractor Quality
                                                                                                                                                                 Polygraph           Polygraph
   Special         Special            Polygraph Supervisory     International Supervisory             Special           Special        Control Applicant        Supervisory         Supervisory
   Agent            Agent                 Special Agent               Special Agent                    Agent            Agent
                                                                                                                                                               Special Agent       Special Agent




                                   Northeast                  Southeast                    Midwest                    Mountain                    Pacific
                               Regional Polygraph         Regional Polygraph          Regional Polygraph          Regional Polygraph         Regional Polygraph
                               Program Manager            Program Manager             Program Manager             Program Manager            Program Manager


                                  Special Agent              Special Agent              Special Agent                Special Agent             Special Agent
                                    Polygraph                  Polygraph                  Polygraph                    Polygraph                 Polygraph
                               Examiners Assigned         Examiners Assigned         Examiners Assigned           Examiners Assigned        Examiners Assigned
                                 to Field Offices           to Field Offices           to Field Offices             to Field Offices          to Field Offices



Source: Organization chart provided by the FBI, with field examiners added by the OIG


Headquarters Structure and Staff

       The FBI polygraph program is managed by the Polygraph Unit, which
is responsible for:

      •        establishing technical standards,
      •        supervising the work of the Regional Polygraph Program Managers
               and polygraph work by field examiners,




U.S. Department of Justice                                                                                                                                                                     40
Office of the Inspector General
Evaluation and Inspections Division
   •   conducting quality control reviews of all FBI polygraph examinations,
       administering polygraph examinations in high-profile and sensitive
       investigations,
   •   equipping and supplying examiners,
   •   coordinating examiner assignments,
   •   responding to requests for services from other federal agencies,
   •   providing technical assistance to FBI Headquarters personnel and
       field managers, and
   •   conducting training.

As of August 24, 2006, the Polygraph Unit Headquarters had a staff of 18,
which included a GS-15 Unit Chief, 2 Supervisory Special Agent Examiners
assigned to DoDPI as trainers, 1 management assistant, 2 program
analysts, 4 contractor personnel, and 8 Supervisory Special Agent
Examiners. Polygraph examinations for pre-employment screening,
personnel security, and Inspection Division inquiries that are conducted in
the field are primarily initiated and requested by FBI Headquarters staff
through the Polygraph Unit.

Field Structure and Staff

       As of August 24, 2006, the FBI polygraph program’s field organization
comprised 5 Regional Polygraph Program Managers (regional managers) who
were responsible for overseeing the polygraph work of 96 field examiners.
Each of the 5 regional managers supervises the polygraph work of between
18 to 20 field examiners who are special agents and conduct polygraph
examinations as a collateral duty. They are under the operational
supervision of the SAC of their assigned field offices. The field examiner
positions include a number that were added in 2005 in preparation for the
expansion of the FBI’s Personnel Security Polygraph Program.

       The FBI created the regional manager positions in 2004 by realigning
eight GS-14 supervisory positions from Headquarters to five regions that
provide coverage of the field offices. The regional managers are physically
located in field division offices and are responsible for providing oversight of
all polygraph operations in their assigned geographic regions. The field staff
report directly to the Special Agent in Charge (SAC) of their field offices, but
receive their administrative direction, quality control reviews, and work
performance assessments from the Polygraph Unit. The regional managers
conduct quality control reviews of the results of specific-issue polygraph


U.S. Department of Justice                                                  41
Office of the Inspector General
Evaluation and Inspections Division
examinations conducted in field offices assigned to their region. They also
provide direction, training, and assistance to field examiners in their regions
and coordinate personnel security polygraph testing of individuals in their
region as identified by FBI Headquarters.

Polygraph Examination Uses and Procedures

      The FBI uses polygraph examinations for five primary purposes: pre-
employment screening, personnel security screening, counterintelligence
and counterterrorism investigations, criminal investigations, and
administrative investigations. The FBI also conducts polygraph
examinations at the request of other federal agencies.

Refusing to Take a Polygraph Examination

      According to the FBI’s Security Policy Manual, all polygraph
examinations are “voluntary” – any individual can refuse to submit to an
examination. Individuals that consent to undergo a polygraph examination
must do so in writing. However, although consent is required, a refusal may
have negative consequences, including an employee’s dismissal from the
FBI. Even though an individual may only agree to a polygraph examination
to avoid negative consequences, the decision to submit to a polygraph
examination is still considered voluntary by the FBI.

      The Chief of the Personnel Security Adjudication Section told us that
sanctions are decided on an individual basis. The specific consequences of
a refusal depend on the purpose for which the polygraph examination would
be used (i.e., pre-employment screening, personnel security screening,
misconduct investigations, witness security, etc.). For example:

   •   All applicants for employment with the FBI must consent in writing to
       submit to and pass a mandatory pre-employment polygraph
       examination as a condition of eligibility for employment consideration.

   •   The Fifth Amendment right against self-incrimination protects
       criminal defendants from being compelled to take polygraph
       examinations, and the results of a polygraph examination are, by and
       large, inadmissible in a criminal prosecution. However, some
       defendants may agree to take a polygraph as part of a pre-sentencing
       agreement.

   •   Employees who refuse to submit to mandatory or compelled polygraph
       examinations, such as during periodic security reinvestigations, or

U.S. Department of Justice                                                 42
Office of the Inspector General
Evaluation and Inspections Division
       investigations of national security matters, may face negative
       consequences, such as transfer to a position with no access to
       sensitive information, denial or re-evaluation of their security
       clearance, or disciplinary action for misconduct (insubordination).
       Since holding a security clearance is a condition of employment,
       revocation of an employee’s clearance could also lead to dismissal.

   •   For employees asked to take a polygraph examination related to an
       administrative matter, the consequences of refusal depend on the
       circumstances of the request. For example, employees who are
       subjects or witnesses in routine administrative investigations may
       decline to take a polygraph examination without adverse
       administrative consequences.

       Only specific senior FBI officials are authorized to compel FBI
employees and certain others to submit to polygraph examinations under
specific circumstances, according to the Security Policy Manual. The
Assistant Director, Security Division, is authorized to compel any FBI
employee or a non-FBI person with access to FBI information or facilities to
submit to a polygraph examination to resolve specific issues that may have
an impact on a person’s trustworthiness. 43 The Assistant Director,
Inspection Division, can compel an employee to submit to a polygraph
examination to resolve an issue during the investigative phase of a
disciplinary matter if the employee first refuses voluntarily to take a
polygraph and if the matter involves one or more of the following seven
serious violations:

       •    Intentional and unauthorized release of sensitive, protected
            information;
       •    Relationship with or allegiance to a foreign power;
       •    Illegal or improper exercise of influence;
       •    Intentional and unauthorized destruction, alteration,
            misplacement, taking, falsification or other impairment of FBI
            documents or evidence;
       •    Use of or unauthorized dealing in controlled substances;
       •    False statements or the failure to candidly disclose information;
            and


       43   As defined by Executive Order 12968 and related Adjudication Guidelines.



U.S. Department of Justice                                                             43
Office of the Inspector General
Evaluation and Inspections Division
       •   Theft, fraud, and misuse of government money and property.

       When an FBI official orders an employee to submit to a polygraph
during an administrative investigation, the Security Policy Manual requires
the official to first inform the employee of the consequences of a refusal and
that failure to cooperate during the requested examination will be
considered a refusal. If an employee refuses to take an examination when
compelled during the adjudication process, the FBI’s Office of Professional
Responsibility can treat the refusal as if the subject had failed the
examination. However, the FBI policy also states that an employee’s refusal
to take a polygraph when compelled will not by itself substantiate the
original misconduct charge.

Inconclusive or Deception Indicated Results

       The FBI also has policy concerning actions that may be taken based
on the results of polygraph examinations. For pre-employment polygraph
examinations, if the examination results are Deception Indicated, or if the
examiner cannot render an opinion, then the applicant normally is not
hired. The FBI policy allows an applicant to appeal the results of a
polygraph examination, in which case the FBI may grant the applicant a
retest.

       For polygraph examinations administered to employees, if the results
are Inconclusive, Deception Indicated, or No Opinion, and the employee
makes no admission, then the test result is considered “unexplained” or
referred to as an “examination pending resolution.” The FBI policy states
that no adverse action will be taken based solely on the results of a
polygraph examination. In October 2005, the Chief of the FBI’s Personnel
Security Adjudication Section told us that the FBI had not taken adverse
action against any employee based solely on the results of a polygraph
examination. Instead, the FBI may retest the employee or initiate an
investigation to resolve the issues raised by the examination.

       In the case of a personnel security polygraph, the Polygraph Unit
reports “unexplained” results to the Assistant Director, Security Division,
who functions as the FBI’s Security Program Manager. The Assistant
Director, Security Division, in conjunction with the employee’s division
head, the Counterintelligence Division, and other appropriate management
officials, initiates (1) a security risk assessment of the employee’s continued
access to sensitive information and (2) an investigation to resolve the
unexplained results. An employee working in a sensitive area may be
reassigned until the investigation is completed. If derogatory information is

U.S. Department of Justice                                                 44
Office of the Inspector General
Evaluation and Inspections Division
uncovered during the investigation, the employee may be suspended or the
employee’s security clearance may be revoked. However, if no information is
developed that indicates the examinee has engaged in a prohibited activity,
the Security Division conducts an assessment of the security risk of
allowing the person continued access to sensitive or national security
information. According to the Chief of the Personnel Security Adjudication
Section, the FBI has employees whose polygraph examinations resulted in
an Inconclusive or Deception Indicated opinion, but the results were not
corroborated by a follow-on investigation, and those employees have been
cleared to continue working.

     The policy and processes for conducting each type of polygraph
examination vary slightly. In the following sections, we discuss each use.

Pre-Employment Polygraphs

      Under FBI security policy, all job applicants must undergo a pre-
employment polygraph examination on issues that relate to their
trustworthiness. 44 The process begins when an applicant receives a
“Conditional Job Offer” for a position at the FBI and completes a Personnel
Security Interview, which may be conducted by an FBI agent. The Security
Division’s Personnel Security Investigations Section makes a request to the
Polygraph Unit to conduct polygraph examinations of applicants for both
FBI Headquarters and field office positions. From FY 2002 through 2005,
the FBI performed 23,310 pre-employment polygraph examinations.

       For applicants for Special Agent positions, the FBI conducts the
polygraph examination before beginning the background investigation. That
enables the FBI to limit the costs of conducting a background investigation
when applicants are determined to be ineligible for employment based on
their polygraph examination results, e.g., they admitted to disqualifying
behavior during the examination process. The FBI investigators are also
able to use information gathered during the polygraph examination to focus
background investigations. FBI Security officials said that, before 2005, all
applicants were given polygraph examinations before their background
investigations were initiated, but in 2005 the FBI decided to begin the
background investigation process for non-agent applicants before
conducting their polygraph examinations as a time-saving measure.


       44Some FBI agents were administered pre-employment polygraph examination
examinations in the mid-1980s. The FBI’s requirement for pre-employment polygraph
examinations was extended to all prospective applicants in 1994.



U.S. Department of Justice                                                          45
Office of the Inspector General
Evaluation and Inspections Division
       Pre-employment polygraph examinations are generally conducted by
field office examiners working directly with the field office applicant
coordinators and the Polygraph Unit. The examiners use information
gathered during the Personnel Security Interview in formulating test
questions during the pretest phase of the examination. The applicants are
then given non-specific, full-scope polygraph examinations. Once an
examination is completed, the examiner forwards the records and the
examiner’s initial opinion on the results to the Polygraph Unit at FBI
Headquarters for an independent quality review. For completed pre-
employment polygraph examinations, there are three potential outcomes –
No Deception Indicated, Deception Indicated, and Inconclusive –
Inconclusive – based on the final opinion:

       •   When the final opinion is No Deception Indicated, the applicant’s
           employment processing continues. The applicant may be hired
           after successfully completing the remaining requirements, such as
           a successful background investigation.

       •   When the final opinion is Deception Indicated, the results are
           reported to adjudication officials who decide whether to disqualify
           the applicant or, based on other information available to the
           adjudicators, request that the applicant be retested. According to
           FBI Security officials, the Personnel Security Adjudications Unit
           makes all hiring decisions. FBI officials reported that test results
           in which an applicants have been determined to have been
           deceptive have been validated by confessions or admissions in over
           50 percent of all cases.

       •   FBI officials said that when an applicant’s test result is
           Inconclusive, the applicant is automatically retested. However, if
           an examiner suspects that an applicant is attempting to use
           countermeasures and the examiner’s suspicion is confirmed
           during the quality control review, or the supervisory reviewer
           detects the use of countermeasures during their review, the
           Polygraph Unit usually recommends that the applicant receive no
           further testing.

       The FBI does not have written policy or procedures that require FBI
officials to report the results of a failed polygraph examination to an
applicant’s employing agency when the applicant is already a federal
employee who is applying for an FBI law enforcement position. According to
an FBI official in the Security Division, Adjudication Section, each case
“would be examined and particular attention would be given to foreign

U.S. Department of Justice                                                 46
Office of the Inspector General
Evaluation and Inspections Division
counterintelligence issues.” The official said that the FBI would have an
obligation to report an Inconclusive or Deception Indicated result that the
FBI could not resolve to the employee’s home agency. She said that, should
the polygraph examination raise a foreign counterintelligence issue, the FBI
would refer the matter to its Counterintelligence Division for follow-up. The
applicant’s information would also be entered into an FBI database that is
used to alert other agencies of an applicant who might go from agency to
agency trying to get hired. She said the FBI would also contact an
appropriate security official in the Department’s Security and Emergency
Planning Staff (SEPS). 45 However, she was not aware of any instances in
which the FBI had reported such information on a Department employee to
SEPS. She said there had been instances in which polygraph results of
employees from other departments were referred to the employing agency.

Personnel Security Polygraphs

      As of January 24, 2006, all FBI and non-FBI personnel assigned to
the FBI’s Directorate of Intelligence, Counterintelligence Division,
Counterterrorism Division, Cyber Division, Security Division, Office of the
Chief Information Officer, and the Information Technology Operations
Division were required to undergo random and periodic polygraph
examinations. 46 In addition, selected personnel with access to FBI
information or facilities who are identified by the Assistant Director,
Security Division, as persons whose circumstances suggest that they are or
could be subjected to coercive influences also may be asked to submit to a
polygraph examination on a periodic basis. 47 The personnel security
polygraph program is intended to serve as an investigative tool and as a
deterrent to espionage. The FBI Director has delegated to the Assistant
Director of the Security Division the authority to approve polygraph

       45 Department security officials with SEPS told us that SEPS does not have a

process for receiving notifications when a Department employee’s polygraph results in an
Inconclusive or Deception Indicated. They also told us they were not aware of a
requirement for Department agencies such as the FBI, DEA, or ATF to notify SEPS when a
Department employee fails or has an inconclusive polygraph. The SEPS official did recall
being notified by the FBI in at least one instance in which a Department employee’s
polygraph examination raised security issues.

       46  Examples of these non-FBI personnel include JTTF members, contractors, and
others who are covered by FBI policy and who perform functions requiring access to
“sensitive” FBI information, systems, or space in the specified FBI offices and divisions.

       47Coercive influences include extortion, blackmail, and situations where a relative
may be held hostage.



U.S. Department of Justice                                                             47
Office of the Inspector General
Evaluation and Inspections Division
examinations relating to security clearance adjudication and to compel any
FBI or non-FBI personnel with access to FBI information or facilities to
submit to a polygraph examination to resolve specific security issues.

      Between 2001 and 2005, the number of FBI and non-FBI personnel
subject to mandatory random and periodic testing under the Personnel
Security Polygraph Program increased from 550 to 18,384. The FBI
conducted a total of 4,721 personnel security polygraph examinations from
FY 2002 through 2005.

       The FBI’s Security Policy Manual contains a provision concerning a
potential future expansion of the FBI’s Personnel Security Polygraph
Program, “This policy will expand to apply to other FBI divisions over time.”
The Chief of the Personnel Security Adjudication Section explained that this
provision reflects the FBI’s consideration of a plan to expand the
requirement for periodic and random counterintelligence-scope polygraph
examinations to all of the FBI’s approximately 35,000 employees,
contractors, task force members, and a number of non-FBI personnel with
special access. According to the Chief of the Personnel Security
Adjudication Section, the FBI’s plan is meant to improve personnel security,
deter and detect espionage, and counter criticisms of the FBI’s security
program in the wake of the Hanssen spy case. The Section Chief said that
the FBI’s program was being expanded in response to recommendations
contained in the Webster Commission’s report and because the FBI wants to
strengthen its security program in awareness of insider threats to
security. 48 FBI officials began implementing this program in 2001 and have
since increased the number of affected positions from 550 in 2001 to
approximately 18,000 in 2005, with approximately 400 non-FBI personnel
also being polygraphed each year. 49


        48 The Webster Commission report actually recommended restricting the FBI’s use

of personnel security polygraphs. Citing the experience of the CIA when it implemented a
similar plan, the Webster Commission cautioned the FBI concerning the potential risks to
innocent individuals’ careers in terms of delays in assignments and promotions and
damage to employee morale. The Commission also cautioned the FBI against an over-
reliance on polygraph examinations for personnel security and recommended the FBI
“adopt a counterintelligence test in reinvestigations of employees and non-FBI personnel
with SCI and special access clearances. This approach focuses on personnel who may pose
the greatest risk to national security and minimizes the risk of false positives.”

       49  Non-FBI personnel include local law enforcement agency personnel assigned to
counterterrorism task forces. The FBI’s Personnel Security Polygraph Program has been
expanded to include all Joint Terrorism Task Force officers, contract linguists, and
industrial security contractors with SCI access.



U.S. Department of Justice                                                          48
Office of the Inspector General
Evaluation and Inspections Division
       According to the Chief of the Personnel Security Adjudication Section,
that office, in conjunction with a Field or Division Security Officer, notifies
employees when they have been randomly selected for a polygraph
examination or when they will be required to undergo a polygraph as part of
a periodic security reinvestigation. If the employee refuses to take a
polygraph examination, the employee may be transferred to a less sensitive
position, referred to the FBI’s Office of Professional Responsibility, subjected
to a security risk assessment, or have his or her security clearance
reevaluated. Employees who consent to polygraph examinations first
undergo Personnel Security Interviews with their Security Officers. The
employees are then given polygraph examinations by examiners who are
personally unfamiliar with the subjects. Individuals who are subject to
personnel security polygraph examinations receive non-specific,
counterintelligence-scope security polygraphs. According to FBI officials,
test questions are limited to security issues raised by federal adjudication
guidelines.

      After the examination is completed, the examiner forwards an
examination report to the Polygraph Unit at FBI Headquarters, where it
undergoes a quality review by a supervisory examiner who issues a final
opinion on the results of the examination and forwards a report to the
Security Division. According to the Chief of the FBI’s Personnel Security
Adjudication Section, the potential outcome for a completed personnel
security examination is based on the final opinion:

       •   When the final opinion is No Deception Indicated, the Polygraph
           Unit notifies the Security Program Manager that the employee
           “passed” the examination.

       •   When the final opinion is Inconclusive or No Opinion, the
           Personnel Security Adjudication Section usually orders a retest to
           see whether the examiner can reach a conclusive, final opinion –
           that is, a finding of Deception Indicated or No Deception Indicated.
           If the retest does not result in a conclusive opinion of No Deception
           Indicated, the FBI will conduct a security risk assessment or an
           investigation to resolve the issues.

       •   When the final opinion is Deception Indicated, the FBI will attempt
           to determine whether the employee poses a security risk. The
           Analysis and Investigations Unit may conduct a more focused
           background investigation of the employee, including a thorough
           interview in an attempt to resolve the issues. The Security
           Program Manager can also recommend a range of other actions

U.S. Department of Justice                                                  49
Office of the Inspector General
Evaluation and Inspections Division
          such as another retest, reassignment to a less sensitive position, or
          the initiation of a criminal investigation. According to FBI officials,
          an agent in a sensitive position will be reassigned until issues
          stemming from the examination can be resolved. If the individual
          is not in a sensitive position, he or she may be allowed to remain in
          the position. If the Analysis and Investigations Unit finds no
          evidence to corroborate an issue of potential deception, the
          Security Program Manager may wait to act until the employee
          undergoes another periodic security examination. According to
          FBI Security officials, the FBI has never discharged an FBI
          employee solely on the basis of a personnel security polygraph
          examination.

       In 2004, the Security Division initiated a process for compelling
personnel to undergo a polygraph examination to resolve specific issues
regarding their trustworthiness. In such cases, the Assistant Director of the
Security Division is authorized to compel any FBI or non-FBI personnel with
access to FBI information or facilities to take a polygraph examination if the
employee is suspected of unauthorized contact with or providing sensitive or
classified information to a foreign intelligence service or if the employee
poses a security risk to the FBI in some capacity.

Foreign Counterintelligence and Counterterrorism Investigations

       The FBI uses polygraph examinations during counterintelligence and
counterterrorism investigations to resolve specific issues related to
espionage, sabotage, or validation of information sources, as well as to make
resource decisions such as whether to conduct surveillance. FBI officials
told us that the process for initiating, approving, and conducting polygraph
examinations and using their results in counterintelligence and
counterterrorism investigations is similar to that for criminal investigations.
As with polygraphs conducted for criminal investigations, which will be
discussed in the next section, the FBI Director has delegated approving
authority for polygraph examinations used in connection with non-
administrative investigations to the Assistant Director in Charge, SAC, or
person acting in that capacity on a specific investigation. Consistent with
that policy, polygraph examinations conducted in counterintelligence and
counterterrorism investigations require the written approval of the Assistant
Director in Charge or the SAC of the relevant field office. The FBI conducted
a total of 1,994 counterintelligence and counterterrorism polygraph
examinations from FY 2002 through 2005.




U.S. Department of Justice                                                  50
Office of the Inspector General
Evaluation and Inspections Division
      Polygraphs conducted for counterintelligence investigations are
overseen by the Counterintelligence Division, which provides centralized
management and oversight of all foreign counterintelligence investigations.
Any government agency can refer a case for investigation by the
Counterintelligence Division, including requesting a polygraph examination.
As with polygraph examinations used in other FBI investigations, the case
agent requests authorization to conduct a polygraph examination from the
SAC of the field division. 50 The Counterintelligence Division also has to give
permission before a field office can interview a case subject, including
conducting a polygraph examination. The Section Chief, Counterespionage
Section (part of the Counterintelligence Division), said that the decision on
whether to use a polygraph examination depends on the specifics of each
case. According to the Chief of the Counterespionage Section, between 65
and 85 percent of the subjects in espionage cases undergo polygraph
examinations.

       The conduct of a polygraph examination in a counterintelligence
investigation depends on the purpose for the test. Polygraph examinations
are also used during counterintelligence investigations to validate sources in
high-risk investigations and at the end of investigations as a final check of
case facts. The results obtained through polygraph examinations during
counterintelligence investigations may be used several ways. If the case
began as a referral from another agency, the results would be provided to
the referring agency, and that agency would take the appropriate action. If
the subject was an FBI employee and they did not pass the foreign
counterintelligence elements of the polygraph test, further investigation
would be conducted. 51 If that investigation confirmed the results of the
polygraph, and no foreign government was involved, the case would be
referred to the FBI’s Office of Professional Responsibility for adjudication. If
a foreign government was involved, and a crime was detected, the case
would be referred to the Criminal Investigative Unit for prosecution.




       50 The Assistant Section Chief of International Terrorism Section I of the

Counterterrorism Division said that all counterterrorism investigations are criminal in
nature and are based in one of the FBI’s 56 field offices.

       51 A counterintelligence or counterterrorism investigation can sometimes involve an
FBI employee. The FBI has had approximately 15 espionage cases in the past 10 years that
involved FBI employees, including the case of former Special Agent Robert Hanssen and,
more recently, analyst Leandro Aragoncillo. These are categorized as personnel security
cases and handled by the FBI’s Security Division.



U.S. Department of Justice                                                                51
Office of the Inspector General
Evaluation and Inspections Division
Criminal Investigations

      The FBI uses polygraph examinations during criminal investigations
to resolve specific issues related to developing investigative leads and
information; to verify information provided by subjects, witnesses, and
informants; and to elicit confessions. The FBI Director has delegated
approving authority for polygraph examinations used in connection with
non-administrative investigations to the Assistant Director in Charge, SAC,
or person acting in that capacity on a specific investigation. In field offices,
the SAC can authorize polygraph examinations in connection with ongoing
cases. From FY 2002 through 2005, the FBI performed 6,203 polygraph
examinations related to criminal investigations.

      Requests for specific-issue polygraph examinations that originate in
the FBI’s field offices are handled and scheduled by the polygraph examiner
assigned to that field office. The case agent usually talks with an examiner
to determine whether a polygraph examination should be conducted. The
case agent obtains the SAC’s approval for conducting the test, and the
examiner and the case agent set a mutually agreeable date for conducting
the test.

       Prior to an examination, the examiner discusses with the case agent
the facts and issues of the case and why a polygraph examination is needed.
All examinees must voluntarily consent in writing to undergo a polygraph
examination. After the FBI issues a final opinion on the results of a
polygraph, a copy of the polygraph report and test charts are provided to the
case agent for inclusion in the investigative file. If the examination was
requested by an Assistant United States Attorney, the case agent or the
agent’s supervisor is responsible for providing the attorney with a copy of
the polygraph examination report.

        In general, the results of polygraph examinations in criminal
investigations are used as a tool to focus and direct the investigation and to
elicit information and confessions. According to Department policy, the
results of polygraph examinations are generally not used in court
proceedings. However, voluntary admissions and statements made by
individuals during examinations may be used in testimony. 52


       52See U.S. Attorneys’ Manual, Title 9 – Criminal Division, Chapter 9-13.300
Polygraphs – Department Policy; 9-21.340, Polygraph Examinations for Prisoner-Witness
Candidates; and 9-21.600 Prisoner-Witnesses, October 1999. See also the Criminal
Resource Manual, at 259 et seq., for a discussion of case law on polygraph examinations.



U.S. Department of Justice                                                            52
Office of the Inspector General
Evaluation and Inspections Division
Misconduct Investigations

      The FBI conducts polygraph examinations to resolve allegations
against FBI employees or to confirm the veracity of a complainant in an
administrative investigation involving potential disciplinary action. The FBI
conducted a total of 128 polygraph examinations related to misconduct
investigations from FY 2002 through 2005. The FBI Director has delegated
the authority to approve polygraph examinations concerning employee
disciplinary matters to the Assistant Director, Inspection Division. FBI
regulations identify two types of administrative polygraph examinations – a
voluntary examination and a compelled examination an employee is ordered
to take. The FBI’s Inspection Division decides whether or not to conduct an
investigation and, if so, whether it will request an employee to volunteer to
take a polygraph or order an employee to submit to a polygraph when
needed. The results of these polygraph examinations are used to make
investigative or adjudicative decisions.

Other Agency Requests

       The Polygraph Unit has provided services for the DEA and BOP and
also for other federal agencies, including the Department of Defense,
Department of State, and the Department of the Interior’s Bureau of Indian
Affairs. It has routinely conducted polygraph examinations for the
Department’s ATR, Criminal Division, JCC, NDIC, OPR, and USMS. The
unit has also provided foreign governments with support – primarily the
governments of Mexico and Colombia – by conducting polygraph
examinations of their investigation units. Between FY 2002 and 2005, the
FBI’s Polygraph Unit reported that FBI examiners conducted 1,661
polygraph examinations at the request of other federal agencies and foreign
governments.

        An outside federal agency or foreign government must provide a
written request for services. A polygraph examination will be conducted in
response only after the Assistant Director, Security Division has approved
the request and the Polygraph Unit has determined that resources are
available and that FBI priorities will not be affected by responding to the
request. When a polygraph examination is done in response to one of these
requests, the Polygraph Unit is responsible for arranging and scheduling the
examination if it is to be conducted by an examiner at FBI Headquarters. If
it is to be done in the field, the SAC of the field office must also approve the
request, and an examiner in the field office schedules and conducts the
examination. The requesting agency receives a copy of the examination



U.S. Department of Justice                                                 53
Office of the Inspector General
Evaluation and Inspections Division
report and a copy of the report is also retained for 2 years in the examiner’s
file.

Examiner Qualifications and Training

       The FBI selects polygraph examiners from among its Special Agent
workforce. Candidates must have at least 5 years of FBI investigative
experience and demonstrated success as an interviewer, interrogator, and
case agent in complex investigations. Candidates must also have the ability
to perform well under stress and in confrontational situations. Prior to
selection, examiner candidates must undergo a personnel security
polygraph examination.

       Candidates with prior experience at conducting polygraph
examinations must have completed a basic polygraph course at a polygraph
school approved by the FBI or certified by the American Polygraph
Association. Candidates who are not experienced examiners or do not have
training from an approved school are sent to DoDPI’s 14-week course for
examiner trainees. After graduation from the DoDPI course, new examiners
are mentored by a senior examiner during a supervised internship. New
examiners receive 1 week of specialized training in the Polygraph Unit, and
their first 12 examinations are monitored by a senior examiner. Examiners
who successfully complete all required training and a 1-year internship,
during which they complete at least 48 polygraph examinations, are
certified by the FBI. FBI examiners are required to complete at least 48
polygraph examinations a year to maintain their certification. They also
must complete a minimum of 80 hours of polygraph-related training every 2
years as part of their continuing education. Because of the extensive
training provided to new FBI examiners, they are expected to serve for a
minimum of 3 years.

       As of December 2005, the FBI Polygraph Unit’s supervisory personnel
had an average of 18 years of investigative experience and an average of 9
years of polygraph experience. Field examiners had an average of 17 years
of investigative experience and 9 years of polygraph experience.

Workload and Program Costs

      The FBI’s polygraph program is the largest in the Department, both in
the number of polygraph examinations conducted each year and the
financial resources dedicated to the program. From FY 2002 through 2005,
the FBI conducted 38,017 polygraph examinations (Table 4). The number of
examinations conducted annually increased by approximately 45 percent

U.S. Department of Justice                                                54
Office of the Inspector General
Evaluation and Inspections Division
from FY 2002 to 2005. Most of the increase resulted from increases in the
number of pre-employment and personnel security polygraph examinations,
which by FY 2005 accounted for approximately 79 percent of the polygraph
examinations conducted by the FBI. At the same time, the FBI’s use of
polygraph examinations in criminal investigations dropped by over
40 percent, from almost 2,100 to about 1,200.

                          Table 4: FBI Polygraph Unit Workload by Use
                                     FY 2002 through 2005

                Pre-                      Personnel                              For Other
             Employment       Criminal     Security       FCI/CTa   Misconduct    Agency      Total
2002                4,685        2,098           331          441           33        166      7,754
2003                4,354        1,562           665          422           39        378      7,420
2004                7,848        1,351         1,244          552           35        537     11,567
2005                6,423        1,192         2,481          579           21        580     11,276
Total              23,310        6,203         4,721        1,994          128      1,661     38,017
a   Counterintelligence (CI) and Counterterrorism (CT).

Source: FBI Polygraph Unit

      As previously discussed, the FBI is considering policy changes that
could increase the number of FBI and non-FBI personnel required to
undergo periodic or random personnel security polygraph examinations to
approximately 35,000 individuals. If the FBI requires all 35,000 employees
to undergo personnel security polygraph examinations, the number of
personnel security examinations would increase from 2,481 conducted in
FY 2005 to over 7,000.

Polygraph Program Costs

       At our request, the FBI’s Polygraph Unit and budget and finance
offices provided us with estimates of polygraph program budget and cost
data for FY 2003, 2004, and 2005. In FY 2002, the Polygraph Unit did not
have a separate budget because it was part of the FBI’s Laboratory Division,
and funding for the polygraph program was not separately identified within
that Division’s budget. Subsequently, the Polygraph Unit was transferred to
the FBI’s Security Division. Although records of the funding dedicated to
the polygraph program were not maintained, the FBI estimated for us that it
spent approximately $6 million in FY 2002 to establish the polygraph




U.S. Department of Justice                                                                   55
Office of the Inspector General
Evaluation and Inspections Division
program as part of the Security Division and to cover the salaries of its full-
time examiners. 53

       The FBI requested additional funding for FY 2003 to expand its
polygraph program to conduct an additional 7,100 personnel security
polygraph examinations annually. For FY 2003, Congress provided an
additional $6.8 million, which included $4.5 million for Polygraph Unit
operations and $2.3 million for hiring 15 new examiners and 2 new program
analysts. These additions raised the authorized number of examiners from
73 to 88. The money requested for hiring new examiners included only the
costs for new examiner training and equipment, not the cost of salaries. In
the FBI, all personnel costs are centrally funded and managed. The FBI
estimated for us that its FY 2003 expenditures for Polygraph Unit
operations, authorized new hires, and full-time examiner salaries was
approximately $7.5 million. 54

      In its FY 2004 budget request, the FBI sought another budget
enhancement of $5.7 million for hiring, training, and equipping 32
additional examiners and 5 support personnel, and $1.4 million for non-
personnel costs. The FBI planned to increase the number of examiners
from 88 to 120 to handle its projected polygraph workload. Congress
provided $6.4 million, which included approximately $1.4 million for non-
personnel costs and $5 million for hiring 32 additional examiners and 5
additional support staff. The FBI estimated for us that its expenditures for
FY 2004 were approximately $8.9 million for Polygraph Unit operations, new
examiner training, equipment, and full-time examiner salaries.

       In FY 2005, the FBI did not request or receive a budget enhancement
for its polygraph program. At the beginning of FY 2005, the Polygraph Unit,
working with the Security Division Program and Plans Unit, estimated
$5.8 million in recurring funding needs and developed an annual spending
plan that designated funds for operational and training travel, conference
expenses, education, supplies, consulting services, and equipment. During
the course of the fiscal year, the Security Division received approximately
$3.3 million in various budget cuts for the polygraph program.
Consequently, the FBI’s polygraph program had a net authorization of
approximately $2.5 million in FY 2005.

       53   The FBI’s estimated expenditures do not include the costs for facilities build-out,
General Services Administration rent, and field office costs for part-time examiners.
        54 The FBI’s Personnel Security Adjudication Section Chief said that the Security

Division does not have the ability to estimate the costs of the hours that examiners devote
to activities other than polygraph examinations.



U.S. Department of Justice                                                                56
Office of the Inspector General
Evaluation and Inspections Division
Quality Control and Oversight

      The quality control and oversight mechanisms for the FBI’s polygraph
program include quality control provided by the FBI’s Polygraph Unit,
internal oversight by the FBI’s Inspection Division, and external quality
assurance provided by the DoDPI Quality Assurance Program. Each of
these efforts is described below.

Quality Control

       The FBI’s Polygraph Unit implements the FBI’s internal quality control
review process. According to the Federal Examiner Handbook, each agency
within the federal government with a polygraph examination capability must
maintain a program and procedures for conducting independent and
objective quality control reviews of all polygraph reports, technical
documents, and polygraph charts. The reviews are intended to ensure
satisfactory quality and the correctness of examiner opinions on the results
of polygraphs. Under the FBI’s procedures, all polygraph examination
records undergo a supervisory review before final opinions on the results are
rendered. For each specific-issue polygraph examination, the field examiner
forwards the original and one copy of the polygraph report, test data, and all
other related documents to the Regional Polygraph Program Manager for a
quality control review. All other polygraph examinations are forwarded to
the FBI Polygraph Unit for a quality control review.

      Following a quality control review, the polygraph materials for a
criminal or foreign counterintelligence or counterterrorism polygraph
examination are returned to the examiner. Polygraph materials for other
matters are forwarded to the proper unit or outside agency for review and
storage.

      The Polygraph Unit’s quality control process consists of a supervisory
review of the test data from each examination. The supervisory review must
be completed before the examination result is considered final. If the
reviewing supervisor disagrees with the examiner’s conclusion, the
supervisor may request a second review by another supervisor. In some
cases, the Unit Chief may be asked to review the data and provide the final
decision. If the reviewing supervisor agrees with the examiner’s initial
conclusion, the examination record is returned to the examiner. The DoDPI
inspection reports on the FBI’s Polygraph Unit that we reviewed consistently
stated that the FBI’s internal quality control process resulted in a
thoroughly independent and objective review of all polygraph examinations
conducted by FBI examiners.

U.S. Department of Justice                                               57
Office of the Inspector General
Evaluation and Inspections Division
Internal Oversight

       The FBI Inspection Division provides internal oversight of all FBI
divisions through triennial reviews. The Polygraph Unit was last inspected
in August 2004 as part of a review of the productivity of each unit in the
Security Division. The inspection examined the unit’s administrative
management, operations management, and performance. The inspection
did not report any management deficiencies and concluded that the
Polygraph Unit was effectively and efficiently managed. The inspection did
not include any specific assessment of polygraph examiner performance or
compliance with federal polygraph standards.

External Quality Assurance

       In January 2006, the FBI polygraph program was certified by DoDPI
for the first time since the FBI agreed, in 2002, to allow a limited quality
assurance review by the DoDPI Quality Assurance Program. DoDPI
conducted four inspections during FY 2002 through 2006. During each of
the inspections, DoDPI reviewed 118 criteria in 9 primary areas specified in
the Quality Assurance Program, Inspection Manual Standards and Criteria
(1999). In the 3 inspections conducted in FY 2002 through 2005, DoDPI
inspectors reviewed a total of 318 criminal, specific-issue, and pre-
employment polygraph examination records, or approximately 100 records
during each inspection. During those years, the FBI allowed DoDPI
inspectors to review only records of examinations conducted for criminal
investigations and pre-employment screenings. DoDPI was not allowed to
review the records of examinations conducted for the WITSEC Program,
Personnel Security, Office of Professional Responsibility, or Foreign
Counterintelligence and Counterterrorism programs. 55 Although limited in
scope, the DoDPI inspections resulted in a number of findings and
recommendations that, had they been implemented, would have brought the
FBI into full compliance with federal standards found in the Federal
Examiner Handbook and resulted in DoDPI’s certification of FBI compliance.
However, some of the issues DoDPI raised involved repeat findings that were
not resolved until January 2006. In DoDPI’s FY 2006 inspection report, the
results of a review of 100 polygraph examination records resulted in four

       55 According to DoDPI inspection reports, the FBI requested that polygraph records
from these programs not be reviewed because of the sensitive nature of the programs. In
FY 2006, the FBI allowed DoDPI inspectors to review the results of personnel security
polygraph examinations but, as it had previously, requested that polygraphs conducted for
the Witness Security, Office of Professional Responsibility, and Foreign Counterintelligence
and Counterterrorism programs not be included as part of the inspection.



U.S. Department of Justice                                                              58
Office of the Inspector General
Evaluation and Inspections Division
recommendations that were resolved within the resolution period. DoDPI
then certified the FBI polygraph program for the first time.

      DoDPI inspection reports for FY 2002 through 2004 noted repeated
instances of noncompliance with the federal polygraph standards. For
example, DoDPI found that the FBI was using nonstandard techniques and
practices during polygraph examinations, and noted that FBI examiners:

       •    Used improperly constructed polygraph test questions. DoDPI
            criticized the FBI for using “sensitive norm” comparison questions,
            which are a type of irrelevant question that mentions the relevant
            issue. 56 The FBI was also using probable-lie comparison questions
            that were not clearly separated from the relevant issue. 57 Federal
            standards do not allow for the use of sensitive norm questions, and
            probable-lie questions are allowed under federal standards only if
            they are constructed so that they are clearly separated from the
            relevant issue by time, place, or category. The FBI’s Polygraph
            Unit Chief told us that in May 2005 he instructed FBI examiners to
            stop using sensitive norm questions. In response to DoDPI’s
            concerns over improperly constructed probable-lie questions, the
            FBI agreed to issue instructions to the field examiners to create a
            clear dichotomy between relevant and comparison questions.

       •    Rarely conducted known-solution acquaintance tests. The Federal
            Examiner Handbook recommends as a best practice that subjects
            receive a known-solution acquaintance test before they are given a
            polygraph examination to familiarize the examinee with the basic
            concepts of the examination and to demonstrate the reliability of


         56 According to the FBI Polygraph Unit Chief, although sensitive norm questions

address the relevant issue, they do not encompass the relevant area for which the
examination is being conducted. For example, an FBI examiner inquiring about the use of
illegal drugs may ask, “Have you ever been around friends or relatives who have used illegal
drugs?” to overcome examinee concerns about their response to a relevant question (i.e., if
the examinee used drugs themselves). The examinee may not use drugs, but a member of
his or her family may and the fact of the family member’s drug use may cause a “false”
reaction to a relevant question about the examinee’s own drug use. The Chief of the DoDPI
Quality Assurance Program said that there has been no research to support the use of
sensitive norm questions or to determine what effect(s), if any, their use might have on the
outcome of the polygraph examination.

       57 Probable-lie comparison questions are constructed so that most people who
answer “no” will be lying. An example of a probable-lie question would be, “Have you ever
stolen anything?”



U.S. Department of Justice                                                             59
Office of the Inspector General
Evaluation and Inspections Division
            the polygraph. However, DoDPI reported that few subjects were
            given this type of acquaintance test (2 of 55 in 2002; and 3 of 48
            applicant examinations and 24 of 57 specific-issue examinations in
            2004). After the 2004 inspection, the FBI agreed to revise its policy
            to require examiners to conduct appropriate acquaintance tests for
            subjects that had not previously undergone a polygraph
            examination. In all other cases, FBI field examiners’ use of the
            acquaintance test would be discretionary. Nevertheless, FBI
            polygraph policies still allowed examiners to conduct unknown
            solution acquaintance tests – a test for which there is no empirical
            research and that all other federal agencies have discontinued
            using.

       •    Rendered opinions not supported by standard test data analysis
            techniques. In 2004, DoDPI reported three issues related to the
            opinions rendered by FBI examiners. DoDPI reported that in 9 of
            48 pre-employment polygraph records it reviewed, the FBI field
            examiners had rendered conclusive opinions that were not in
            accordance with standard numerical evaluation procedures and
            cutoff scores. In these cases, the FBI examiners rendered an
            opinion of No Deception Indicated or Deception Indicated when
            standard scoring techniques would have resulted in an opinion of
            Inconclusive. DoDPI also reported that FBI examiners did not
            always follow federal standards that require them to evaluate all
            the test results (such as respiration, heart rate, and skin reactions)
            before rendering an opinion. In six of the nine cases that DoDPI
            questioned, the FBI examiners had rendered their opinions based
            on only two components of the test. Finally, DoDPI found that FBI
            examiners used a “global evaluation technique” in which a
            subjective conclusion is rendered on the overall polygraph test,
            rather than by a systematic numerical comparison among
            questions. 58

       •    Destroyed score sheets. In the inspections conducted in FY 2002
            through 2004, DoDPI reported that the FBI routinely destroyed the

       58  In October 2005, the Chief of the FBI Polygraph Unit told us that the FBI used
global scoring in these instances because he believed the use of standard cutoff scores
would have resulted in too many Inconclusive results and subsequent retests. He said that
global scoring allows the examiner to use his experience and judgment in assessing the test
subject’s responses when the scoring is close. He also said that polygraph schools other
than DoDPI use different scoring formats and different numerical scales and that examiner
experience is important in evaluating physiological indicators of deception.



U.S. Department of Justice                                                            60
Office of the Inspector General
Evaluation and Inspections Division
            score sheets that examiners and supervisors prepared when
            examining polygraph test results. Under federal standards, the
            score sheets are part of the permanent examination record.
            However, according to the FBI’s polygraph procedures, quality
            control personnel in the FBI’s Polygraph Unit destroy the score
            sheets after rendering a final opinion on the test results. 59 After
            DoDPI raised this issue for the third time in 2004, the FBI’s
            Polygraph Unit responded that the score sheets are meaningless
            because only the determination of the quality control supervisor at
            Headquarters is final. The Chief of the FBI Polygraph Unit also
            asserted that the score sheets could be used to raise questions in
            court concerning the credibility of the FBI’s polygraph results,
            especially when there are differences between the field examiner’s
            scoring and that of the quality control supervisor.

       According to DoDPI, using nonstandard questions and evaluation
techniques may reduce the reliability of polygraph examination results,
which has both security and personnel implications. For example, making a
determination of No Deception Indicated when standard test scoring
techniques should have resulted in an Inconclusive result and a retest has
the potential to allow a security risk to pass undetected. Also, law
enforcement agencies often ask applicants whether they have previously
taken a polygraph and whether they passed or failed. Therefore, making a
determination of Deception Indicated when standard test scoring techniques
should have resulted in an Inconclusive result could have a significant
impact on a subject, particularly if the subject is seeking employment in law
enforcement. Although the results of FBI polygraphs are now readily
accepted by other federal agencies, DoDPI officials warned that continued
failure to adhere to standardized numerical scoring techniques could impact
the FBI’s future reciprocity agreements.

       Because of the continuing unresolved issues, in 2004 DoDPI
concluded that the FBI’s internal quality control process did not ensure that
its examiners followed federal technical standards in conducting polygraph
examinations. According to the DoDPI Quality Assurance Program Chief,
subsequent to the March 2003 DoDPI inspection, the FBI Polygraph Unit
Chief developed policies for the FBI that almost fully complied with federal



       59  After the FBI is notified that a DoDPI inspection is planned, the FBI retains score
sheets for 90 days to enable DoDPI to evaluate examiner and supervisor performance. FBI
examiners can keep personal copies of their score sheets, at their discretion.



U.S. Department of Justice                                                               61
Office of the Inspector General
Evaluation and Inspections Division
standards. 60 However, after the January 2004 inspection, FBI polygraph
officials advised the DoDPI Quality Assurance Program Chief that they were
unable to implement these policies because they lacked adequate quality
control staff. In August 2005, DoDPI officials told the OIG team that, even
where the FBI had revised its policy to conform to federal standards, the FBI
supervisory staff had not implemented the policy. Because the FBI did not
revise its operations to address the outstanding issues, DoDPI would not
certify that the FBI polygraph program was operating in compliance with
federal standards.

       In FY 2006, DoDPI inspectors reviewed 100 examination records,
which for the first time included records of personnel security polygraphs as
well as those conducted for criminal, specific-issue investigations, and pre-
employment screening. The scope of the FY 2006 DoDPI inspection,
completed in December 2005, was still limited because it did not include
records of examinations conducted for the WITSEC Program, Office of
Professional Responsibility, and Foreign Counterintelligence and
Counterterrorism programs. 61 DoDPI inspectors told us that the FBI is one
of only two federal agencies that exclude any examination records from
review. 62 FBI officials stated that they did not allow DoDPI to review those
records because of the sensitive nature of those elements of the polygraph
program.

     The results of the FY 2006 DoDPI inspection indicated that the FBI
was more responsive to DoDPI’s inspection findings than in previous years.
The DoDPI report contained a total of four recommendations that the:

            1. FBI policy changed to discontinue the use of the unknown-
               solution acquaintance test.

            2. Enforce existing policy and discontinue use of the sensitive
               norm question in all FBI testing formats.

       60 The revised policies would not have resolved the issues involving the removal of

score sheets and the use of the known-solution acquaintance test.

       61   We also found that DoDPI has never reviewed the records of polygraph
examinations the FBI conducted for other components. We were told by FBI and DoDPI
officials that logistical problems prevented the FBI from gathering some of those records
from the requesting components for inspection.

       62 The CIA is the only other agency that restricts DoDPI review of polygraph
examination records. The CIA does not allow DoDPI to review its foreign intelligence
operations examination records.



U.S. Department of Justice                                                              62
Office of the Inspector General
Evaluation and Inspections Division
            3. Maintain the original test data analysis score sheets of field
               examiners and quality control personnel.

            4. FBI use movement sensor devices during the conduct of all
               (polygraph) examinations.

According to the DoDPI Quality Assurance Program Chief and the FBI
Polygraph Unit Chief, only two recurring issues from previous inspections
were still at issue: (1) the continued destruction of score sheets and (2) the
continued use of the unknown-solution acquaintance test.

      In response to DoDPI recommendations to address these issues, the
FBI Polygraph Unit Chief reported that the FBI will continue to destroy score
sheets and that the FBI’s Polygraph Examiner Manual was revised to
partially implement DoDPI’s recommendation to discontinue the use of the
unknown-solution acquaintance test. 63 In response to DoDPI’s two other
recommendations for the FBI polygraph program, the FBI Polygraph Unit
Chief reported that all examiners were reminded to stop using “sensitive
norm” questions and that the FBI planned to ensure that all examiners use
movement sensor devices when conducting polygraph examinations. 64 On
January 31, 2006, DoDPI certified the FBI’s polygraph for the first time
since the FBI agreed to allow DoDPI inspectors to review its polygraph
results in 2002.




       63  On January 18, 2006, the Polygraph Unit Chief responded to DoDPI’s
recommendations contained in the FBI’s December 2005 quality assurance report that the
FBI would not comply with DoDPI’s recommendation to retain the original data analysis
score sheets because “we [the FBI] continue to believe that it is not the agency’s best
interest to maintain original score sheets.” Regarding the continued use of the unknown-
solution acquaintance test, the Polygraph Unit Chief reported to DoDPI that, “In May 2005,
the FBI’s Polygraph Examiner Manual was revised to reflect that the examiner should utilize
either the known-solution acquaintance test or a blind-stimulation test for those
examinations wherein the examinee has not previously taken a polygraph examination. Its
use in examinations wherein the examinee has previously undergone an FBI or other
agency examination is at the discretion of the examiner.” The FBI did not give a specific
reason as to why it would continue to use the unknown solution acquaintance test in some
cases.

       64 The Chief reported that approximately 70 percent of all FBI examiners were in
compliance with DoDPI’s recommendation that movement sensors – which detect physical
countermeasures – be used in all polygraph examinations and stated that he anticipated
procuring all of the necessary equipment by December 2006.



U.S. Department of Justice                                                            63
Office of the Inspector General
Evaluation and Inspections Division
OPM Oversight

      As noted in the Background section of this report, OPM does not
require that organizations whose employees are in the excepted service
receive OPM certification of their polygraph programs in order to conduct
pre-employment and personnel security polygraphs. Consequently, the
FBI’s polygraph program has never been reviewed or certified by OPM.
However, we noted that, although FBI employees are in the excepted service,
the FBI is polygraphing employees of other agencies who are not in the
excepted service. These examinations may be conducted at the request of
the employee’s parent agency or because the employee has been assigned to
work with the FBI. In some cases, the parent agency also conducts
polygraphs and has a polygraph program that is certified by OPM (for
example, the DEA).

      As detailed in the Workload and Program Costs section above, the FBI
conducted 1,661 examinations for other agencies from FY 2002 through
2005. In a few cases involving requests by Department components, such
as those requested by the Justice Command Center, the examinations were
of competitive service employees and required OPM oversight of the FBI’s
polygraph program to ensure it was managed in compliance with federal
standards. Early in the review, we discussed this issue with the OPM
Program Manager, Center for Federal Investigative Services, who said that
OPM was unaware that competitive service employees were being examined
by the FBI.

       In 2006, for the first time, OPM required that the FBI provide OPM
with copies of its DoDPI quality assurance report and subsequent DoDPI
certification letter stating that the FBI polygraph program was compliant
with federal polygraph standards. OPM’s requirement occurred after a
request by the Justice Command Center for reauthorization to continuing
using the results of polygraph examinations for its competitive service
employees. The FBI complied with OPM’s requests in May 2006 (see full
discussion in Section II, under JCC), and OPM reauthorized JCC to
continue using polygraph examinations for FY 2006.

Program Performance and Results

       In accordance with federal polygraph standards, the FBI collects
statistical data on its polygraph program operations. The FBI’s Polygraph
Unit collects the data using a dedicated database that can extract a wide
range of statistical analyses related to the polygraph program. It uses
information on the type, purpose, and results of examinations to identify

U.S. Department of Justice                                             64
Office of the Inspector General
Evaluation and Inspections Division
trends, manage its examination workload, monitor the work of individual
examiners, develop budget estimates, characterize its productivity, and
measure its performance.

      According to the Deputy Director, DoDPI, the interrogation skills of
examiners can be gauged by the confession rate they achieve, but their skill
in using the polygraph technique for assessing truthfulness is better judged
by how well they follow professional standards of conduct. He also said that
the performance of federal polygraph programs is now being assessed to
some degree by their achieved rate of conclusive opinions (the percentage of
Deception Indicated or No Deception Indicated opinions). As shown in
Table 5, the FBI compiles data on the results of all polygraph examinations.

       We examined the FBI’s data on the outcomes of polygraph
examinations from FY 2002 through 2005 and found that FBI examiners
issued conclusive opinions (No Deception Indicated or Deception Indicated)
in 92.2 percent (34,468) of all examinations (37,336), which is well above
the industry standard of 80 percent. For that same time period, the results
of 7.8 percent (2,898) of all completed examinations were inconclusive.

      The FBI also uses the “confession rate” as a measure of its polygraph
performance. The confession rate is calculated by dividing the number of
times examinees with a final opinion of Deception Indicated ended up
making an admission or confession that confirmed the polygraph result. In
2006, the FBI’s Polygraph Unit reported to DoDPI that 61 percent of
individuals with final opinions of Deception Indicated made an admission or
confession, a rate that is considered high within the polygraph community.




U.S. Department of Justice                                              65
Office of the Inspector General
Evaluation and Inspections Division
                       Table 5: FBI Polygraph Examination Results
                                 FY 2002 through 2005
         Examinations                               Examination Result
                                      No
                                   Deception   Deception                    No
         Use            Number     Indicated   Indicated   Inconclusive   Opinion   Total
Non Specific-Issue (Screening) Polygraph Examinations
Pre-Employment           23,310         67%         24%             8%        1%    100%
Personnel Security        4,721         95%          2%             3%        0%    100%
Specific-Issue Polygraph Examinations
Criminal                  6,203         37%         47%            11%        5%    100%
CI/CT                     1,994         50%         35%            13%        3%    100%
Misconduct                   128        48%         41%             5%        6%    100%
        FBI requests     36,356         N/A         N/A            N/A       N/A
   Outside agency
                          1,661         78%         18%             3%        2%    100%
         requests
               Total     38,017         N/A         N/A            N/A       N/A      N/A

Source: FBI Polygraph Unit




  U.S. Department of Justice                                                          66
  Office of the Inspector General
  Evaluation and Inspections Division
THE DEA POLYGRAPH PROGRAM

Background

      The DEA uses polygraph examinations in criminal and misconduct
investigations, pre-employment and personnel security screenings, and
screening foreign personnel assigned to investigative units overseas. The
DEA began administering specific-issue polygraph examinations in drug
and internal integrity (misconduct) investigations in the early 1970s. In
1995, the DEA began requiring applicants for Special Agent positions to
pass a polygraph examination as a condition for employment. Also in 1995,
the DEA began requiring foreign nationals seeking assignment to Sensitive
Investigative Units overseas to pass a polygraph examination as a condition
of membership in the unit. In 1996, the DEA extended the polygraph
requirement to applicants for DEA intelligence research specialist positions.

Mission and Purpose

      The mission of the DEA Polygraph Support Unit is to provide
polygraph support for DEA investigations on a worldwide basis. The unit
also provides polygraph assistance to federal, state, foreign, and local law
enforcement agencies in anti-drug operations. 65 In addition, it provides
applicant screening for designated DEA employees and supports the
polygraph requirements of the DEA’s Office of Professional Responsibility.

Policies and Regulations

       The DEA’s polygraph program policy is contained in its Office of
Investigative Technology’s Technical Operations Manual, Chapter 6, Section
6.5, “Polygraph Program.” Specific DEA policy, for the use of polygraph
examinations as a tool for corroborating or disproving allegations of
misconduct, is found in the DEA’s Planning and Inspections Manual, Section
8313.5, “Use of the Polygraph Examination.” The DEA’s policy regarding
polygraph requirements for members of Sensitive Investigative Units is
contained in the Sensitive Investigative Unit Program’s Standard Operating
Policies and Procedures. 66



       65 The unit provides polygraph support to the counter-narcotics enforcement
agencies of various allied governments.

       66   All of these documents are marked “DEA Sensitive.”



U.S. Department of Justice                                                           67
Office of the Inspector General
Evaluation and Inspections Division
       The DEA’s Technical Operations Manual provides general information
concerning the use of polygraph examinations and requires the
administration of all polygraph examinations in a manner consistent with
policies and procedures taught at DoDPI and all applicable DEA rules and
regulations. Among other things, the Technical Operations Manual describes
why the polygraph program was established, its mission, and the purposes
for which the polygraph may be used. According to the manual, the DEA
must notify the appropriate U.S. Attorney’s Office when a polygraph
examination is conducted as part of a DEA investigation. All requests for
polygraph examinations are to be made through either the DEA division
examiner in one of the field division offices or directly to the Chief of the
Polygraph Support Unit. If the Chief approves a request for polygraph
examinations, he arranges for an examiner, in coordination with the
examiner’s divisional office, to conduct the examination. The Technical
Operations Manual also provides policy for examiner selection, training,
continuing education, certification, supervision, and performance
monitoring. It establishes quality control and assurance policy, and details
procedures for reviewing all polygraph examinations and for resolving
differences of opinion regarding the results of an examination.

      The DEA previously maintained a polygraph procedures handbook.
However, as of March 2006, the Chief of the Polygraph Unit said that the
DEA handbook was no longer in force. Instead, DEA examiners have been
instructed to use the Federal Examiner Handbook for procedural and
technical guidance.

       As discussed in the following sections, DEA polygraph policies
describe when an individual may refuse to take a polygraph examination
and the potential consequences. The DEA policies and procedures also
establish the consequences for an individual whose polygraph results
indicate deception. The DEA does not retest individuals whose test results
indicate deception, but the results of a polygraph examination are just one
factor in the overall hiring decision. If the test result is inconclusive, no
determination can be made as to the person’s truthfulness. The DEA does
not require employees to take a polygraph examination to receive access to
sensitive or national security information and does not conduct random or
periodic personnel security polygraph examinations of its employees or
other personnel working for the DEA. 67


       67  Although not a primary program purpose, the DEA has conducted 14 personnel
security screening polygraphs of examiner trainees before they entered DoDPI because
DoDPI requires that trainees pass a screening polygraph as a condition for admission to its
                                                                                (Continued)

U.S. Department of Justice                                                            68
Office of the Inspector General
Evaluation and Inspections Division
Organization and Staffing

       The DEA’s polygraph program is administered by the DEA’s
Operational Support Division. The Deputy Assistant Administrator, Office
of Investigative Technology, has overall responsibility for the polygraph
program and certifies DEA examiners to conduct polygraph examinations.
The Chief of the Communications and Polygraph Support Section is
responsible for establishing and implementing the policies and procedures
that govern the DEA polygraph program. The Chief of the Polygraph
Support Unit reports to the Chief of the Communications and Polygraph
Support Section. Polygraph program operations are coordinated by the
Polygraph Support Unit.

       The Polygraph Support Unit is staffed with a Unit Chief and three
polygraph coordinators. Polygraph coordinators are senior polygraph
examiners (GS-1811-14) who have at least 2 years of experience as a DEA-
certified polygraph examiner. The Chief of the Polygraph Support Unit and
the polygraph coordinators have authority over all technical issues involving
the administration of polygraph examinations. The three polygraph
coordinators conduct quality control reviews of all polygraph examination
records.

       Most polygraph examinations are conducted at field offices by 24
GS-1811-13 Special Agents who are certified polygraph examiners. The
DEA field office polygraph examiners work for the SAC of the office, but
function under the technical supervision of the Chief of the Polygraph
Support Unit. Special Agents in Charge of the field offices are responsible
for logistics and supervision of the Special Agent examiners assigned to
their offices (see Chart 3).




basic examiner training program. These are personnel security polygraphs that include
counterintelligence-scope questioning.



U.S. Department of Justice                                                          69
Office of the Inspector General
Evaluation and Inspections Division
                         Chart 3: DEA Polygraph Program

                                                     Operational
                                                   Support Division
                                                        (SC)

                                                        Office of
                                                      Investigative
                                                       Technology
                                                          (ST)


                                                  Communications &
                                                  Polygraph Support
                                                    Section (STC)



                                                  Polygraph Support
                                                  Unit Chief (STCP)



                                         Polygraph
                      Polygraph                                        Polygraph
                                        Coordinator
                     Coordinator                                      Coordinator
                                          (Vacant)



                             24 Polygraph Officers (with 4 Vacancies)
                         in 21 Field Division Offices and 2 Foreign Offices


Source: DEA Operational Support Division


Polygraph Examination Uses and Procedures

      The DEA uses polygraph examinations primarily for pre-employment
suitability screening of Special Agent and intelligence research specialist job
applicants; investigating misconduct and criminal allegations; and vetting
foreign nationals seeking assignment to Sensitive Investigative Units
overseas. The policies and processes for conducting polygraph
examinations vary with each use. The DEA does not routinely require its
employees to take periodic or random personnel security polygraph
examinations.




U.S. Department of Justice                                                          70
Office of the Inspector General
Evaluation and Inspections Division
Pre-Employment Screening

       All applicants for Special Agent and Intelligence Research Specialist
positions in the DEA must take pre-employment polygraph examinations to
be hired. 68 Because the DEA hiring process is lengthy, the background
investigation may begin prior to the polygraph. The applicants are given
non-specific, full-scope
examinations that include                     DEA Test Result Designations
questions related to national
security issues, past drug               The DEA differs slightly from the other
use, serious criminal activity,      components    in how it labels pre-employment
                                     polygraph test results. Like other components,
and truthfulness on the
                                     DEA examiners render conclusions of No
application form. All test           Deception Indicated (NDI), Deception Indicated
results are reviewed by              (DI), Inconclusive (INC), and No Opinion (NO).
Polygraph Support Unit               However, for pre-employment polygraph
personnel who make the final         screening only, the DEA uses the terms “No
determination on test results.       Significant Response” (NSR) and “Significant
According to the Deputy              Response” (SR) instead of NDI and DI.
Assistant Administrator,             According to DoDPI officials, the alternative
                                     terms are synonymous with DI and NDI, but
Office of Investigative
                                     carry a less negative connotation in the law
Technology, the results of a         enforcement community. For consistency, in
polygraph are never the sole         this report we use the decision terms DI and
factor in determining an             NDI instead of SR and NSR. In addition, DEA
applicant’s suitability for          examiners use the term “No Test” to indicate
employment.                          that a full test cycle was not completed. This
                                         can occur for a number of reasons such as
      When the results of a              that the examiner determined the examinee
                                         was unfit for an examination or the examinee
DEA polygraph examination
                                         made a pretest admission or confession.
show no indication of
deceptiveness, the DEA
proceeds with the background investigation and the hiring process. If a
DEA examiner finds indications of deceptiveness and the applicant
subsequently makes a disqualifying admission, the DEA stops both the
background investigation and the hiring process. The DEA does not retest
individuals whose polygraph results indicate deception; however,

       68  Because each DEA field division office handles its own recruiting of Special
Agents, the pre-employment polygraph process for these applicants is initiated by a request
from the DEA recruiter in a division office to the division polygraph examiner. The division
polygraph examiner then requests authorization from the Polygraph Support Unit staff at
DEA Headquarters to conduct the examination. Examination requests for Intelligence
Research Specialist candidates are submitted directly to the DEA Polygraph Support Unit
by the Intelligence Division at DEA Headquarters.



U.S. Department of Justice                                                              71
Office of the Inspector General
Evaluation and Inspections Division
individuals whose results are inconclusive are retested. The hiring
recommendation is based on all factors, including the polygraph results.
DEA does not disqualify an applicant solely on the basis of an inconclusive
polygraph examination result. 69

Criminal Investigations

      The DEA’s polygraph program was initially established as an
investigative tool in criminal cases. Criminal defendants, suspects, or
witnesses in an investigation may voluntarily undergo a polygraph
examination. According to DEA policy and the Deputy Assistant
Administrator, Office of Investigative Technology, a subject or witness in a
criminal investigation can refuse to take a polygraph examination, with one
exception. The exception is when a defendant consents to undergo a
polygraph examination as part of a plea agreement and subsequently
reneges. In that case, the refusal may violate the terms of the plea
agreement.

       DEA officials evaluate each case to determine whether it involves an
investigative issue that could be aided by a polygraph examination. When a
DEA field agent or an Assistant U.S. Attorney identifies a need to polygraph
an individual associated with a criminal investigation, the DEA field agent
submits a request for an examination to the polygraph examiner assigned to
the agent’s field office. The field agent and examiner review the case file for
an investigative issue that lends itself to the use of a polygraph examination
and, if so, discuss and formulate the questions to be asked during the
examination. The examiner reviews the questions with the examiner’s
supervisor at the Polygraph Support Unit and obtains authorization from
the Polygraph Support Unit before conducting the examination.

      Once the examination is conducted, a quality control review is
completed (described in the Quality Assurance section below), and a final
opinion is issued, the examiner forwards a copy of the polygraph report to
the requesting DEA agent, who then notifies the Assistant U.S. Attorney
assigned to the case. The agent maintains a copy of the polygraph report in

       69  Derogatory information obtained from a pre-employment polygraph examination
of a current Department employee (including a DEA employee seeking to move from a
position that does not require a polygraph to one that does) is referred to the DEA’s Office
of Professional Responsibility (OPR), which determines if the information warrants further
action and how it should be disseminated. OPR officials said that they were not aware of
any such information ever being referred back to an employing Department agency or to
SEPS.



U.S. Department of Justice                                                              72
Office of the Inspector General
Evaluation and Inspections Division
the criminal case file. The polygraph subject is then notified of the final
results of the examination. If the subject or subject’s attorney requests a
copy of the polygraph report, the Assistant U.S. Attorney may provide one.

Misconduct Investigations

       The DEA’s OPR receives allegations of misconduct from DEA
employees and from external sources such as law enforcement officials,
confidential informants, cooperating witnesses, other governmental
agencies, and the public. According to the DEA’s Planning and Inspection
Manual, OPR is responsible for deciding whether a polygraph examination
will be used as an investigative tool in a misconduct investigation.
Specifically, the OPR Assistant Administrator for Planning and Inspection
and the OPR Deputy Assistant Administrator may authorize a polygraph
examination in an integrity, misconduct, or internal security matter. The
DEA policy also states that a polygraph examination should be offered and
used as a matter of course for an individual who makes an allegation
against a DEA employee.

       When a DEA OPR investigation is initiated, an OPR Associate Deputy
Chief Inspector determines whether the investigation will be conducted by
an OPR investigator or delegated to a SAC of a division field office or other
office head at DEA Headquarters. Less serious administrative cases, such
as those that do not appear to involve a criminal or integrity issue, generally
are delegated for investigation. An OPR investigator monitors delegated
cases for quality and timeliness.

       The OPR investigator typically interviews the subject, complainant,
witnesses, and other pertinent individuals, and gathers relevant documents
and other evidence. The investigator may ask the subject or witnesses in a
misconduct investigation to voluntarily consent to undergo a polygraph
examination. A request for an employee to take a polygraph examination is
made off the record and, if refused, nothing is reflected in the investigative
file unless the employee at first agreed, but later reneged. Employees or
individuals must voluntarily consent to undergo a polygraph examination.
The DEA does not compel its employees to undergo polygraph examinations
in misconduct investigations.

      When an individual agrees to take a polygraph examination, the OPR
inspector or case agent submits a request for a polygraph examination to
the DEA’s Polygraph Support Unit, and Unit officials assign an examiner to
conduct the examination. The examiner reviews the examination questions
with Unit officials and the inspector before the examination and obtains

U.S. Department of Justice                                                 73
Office of the Inspector General
Evaluation and Inspections Division
authorization from Unit officials to proceed with the examination. Once the
polygraph examination is completed, the examiner analyzes the test data
and renders a preliminary opinion on the results. A Polygraph Coordinator
at the Polygraph Support Unit conducts a quality control review of the
examination record, renders a final opinion on the results of the
examination, and notifies the examiner of the results via electronic mail.
The Polygraph Coordinator or the examiner gives OPR the results of the
examinations. OPR forwards the final investigation record, including the
results of a polygraph examination, to the DEA’s Board of Professional
Conduct.

       The Board of Professional Conduct reviews investigative and
polygraph evidence in reaching a decision on disciplinary or adverse action.
The Board weighs all of the evidence gathered during the misconduct
investigation (a polygraph examination is only one piece of evidence) and
cannot base recommendations solely on polygraph results. The Chairman
of the Board of Professional Conduct said that polygraph examination
results have not figured prominently in any decision that he has made for
proposed action as the result of an integrity investigation. Once all of the
evidence has been evaluated, the Board recommends clearing, disciplining,
or removing the employee, and a final decision is made by the Deciding
Official.

Foreign Agent Vetting

       In the Department’s FY 1997 Appropriations Act, Congress authorized
and approved funding for the DEA to create, train, and support Sensitive
Investigative Units (SIU), or foreign vetted units, to work in sensitive
bilateral investigations in key countries critical to the counter-narcotics
objectives of the United States. The personnel selected by their respective
countries to participate in the SIU program undergo a strict security
screening. The vetting process includes drug testing, medical and
psychological screening, and a background investigation. All foreign
nationals who volunteer to become members of an SIU do so with the
knowledge that the vetting process includes a polygraph examination. The
polygraph examination is the final step in the vetting process, and
acceptance into an SIU is contingent on the results.

      A DEA Country Office sends a request for a foreign vetting polygraph
examination to the DEA’s Office of Investigative Technology. The request is
forwarded to the DEA’s Polygraph Support Unit. The Polygraph Unit sends
a team of polygraph examiners to the requesting country to conduct the
examination. A Polygraph Coordinator from the Polygraph Support Unit

U.S. Department of Justice                                               74
Office of the Inspector General
Evaluation and Inspections Division
frequently accompanies the examiners to manage the assignment, conduct
a quality control review of the examination record, and make a final decision
as to the results of the examination. The DEA sends a notification of the
official results to the Country Attaché in the DEA Country Office. Foreign
candidates for SIU membership whose polygraph examination results
indicate deception are not accepted into the unit.

      Foreign law enforcement officers who pass the vetting process attend
a 5-week SIU special training program at the DEA Training Academy in
Virginia and, later, in-service training. SIU support personnel, such as
accountants, maintenance personnel, and translators, undergo the required
background, drug test, and polygraph portion of the vetting process, but do
not attend the training.

       After 24 months in an SIU, members are subject to random polygraph
examinations. In general, 25 percent of the SIU members are subjected to
random polygraphs each year. To accomplish this, DEA polygraph
examiner teams travel to SIU locations and conduct these examinations at
the same time. A finding of Deception Indicated results in the expulsion of
the SIU member. In cases where mitigating or extenuating circumstances
exist, the Country Attaché may request a retest of the SIU member.

      Along with initial and random polygraphs, members of an SIU are
subject to polygraph examinations at any time questions arise concerning
the member’s integrity. If a Special Agent Advisor believes that there may
be an integrity issue, the Advisor can send a request for a polygraph
examination to the Office of Investigative Technology.

Examiner Qualifications and Training

        Candidates for DEA polygraph examiner positions are selected from
among the DEA’s career Special Agent workforce. When there is a vacancy
for a polygraph examiner, any career Special Agent who meets the DEA’s
requirements for the position may be considered. To qualify, an agent must
meet minimum federal standards that include being: (1) a U.S. citizen,
(2) at least 25 years old, (3) a graduate of an accredited 4-year college (or
equivalent), (4) an experienced investigator with a recognized federal
government or other law enforcement agency, (5) of high moral character
and sound emotional temperament based on a background investigation,
and (6) judged suitable for the position after taking a polygraph
examination.




U.S. Department of Justice                                               75
Office of the Inspector General
Evaluation and Inspections Division
       Each field division handles its own recruiting, and candidates apply
through their division chain of command to Headquarters. The selection is
coordinated between the SAC and the Deputy Assistant Administrator,
Office of Investigative Technology.

       The DEA’s examiner candidates must complete basic training and an
internship to be certified to conduct polygraph examinations. For training,
the DEA requires examiners to complete a basic examiner’s course at
DoDPI. After successfully completing their basic training at DoDPI, DEA
examiners also must complete an internship under the supervision of a
certified senior examiner who is assigned by the Chief of the Polygraph
Support Unit. During the internship, the examiner must conduct at least
25 examinations that have been monitored, reviewed, and approved by a
certified examiner. Interns must demonstrate to the senior examiner that
they have the ability to conduct examinations independently and in
accordance with federal standards and DEA policy. On the successful
completion of the internship, an examiner receives a written certification of
proficiency. Certified examiners are required to conduct at least 25
polygraph examinations per fiscal year to demonstrate continued proficiency
in the use of the polygraph technique. They must also complete 80 hours of
continuing education every 2 years.

       As of January 2005, the DEA reported that its Chief of the Polygraph
Support Unit had over 16 years of investigative experience including 4 years
of polygraph experience. The Unit’s 3 Polygraph Coordinators had an
average of 13.5 years of investigative experience and 8 years of polygraph
experience. 70 The field examiners had an average of 13.5 years of
investigative experience and 5 years of polygraph experience. Field
examiners conducted an average of 79 examinations each in FY 2004.

Workload and Program Costs

       From FY 2002 through 2005, DEA Office of Investigative Technology
records show that DEA examiners conducted a total of 8,307 polygraph
examinations. Of the 8,307 polygraph examinations, 52 percent were used
for vetting foreign agents, 38.7 percent were used for pre-employment
screening, and 8.8 percent were used in criminal investigations (Table 6).
Less than one-half of 1 percent of the examinations was used for personnel
security screening and misconduct investigations.


        DEA policy requires GS-14 Special Agents with 3 years in a polygraph
       70

management position to rotate out of the DEA polygraph program.



U.S. Department of Justice                                                     76
Office of the Inspector General
Evaluation and Inspections Division
               Table 6: DEA Polygraph Support Unit’s Workload by Use
                              FY 2002 through 2005
Fiscal        Foreign      Pre-          Criminal        Misconduct      Personnel
 Year         Vetting   Employment     Investigation    Investigation     Security     Total
 2002           995        552              248               5              4         1,804

 2003          1,112       947              205               4              2         2,270

 2004           987        889              159               8              5         2,048

 2005          1,227       830              121               4              3         2,185

 Total        4,321       3,218             733               21             14        8,307

Source: DEA Polygraph Support Unit


Polygraph Program Costs

        The DEA does not track or request specific funding through the
budget process for the polygraph program. In response to our request for
information on the costs of the DEA polygraph program, the DEA provided
estimates of polygraph-related expenditures for FY 2002 through 2004 for
its Headquarters component only. The figures in Table 7 include only the
direct costs (personnel, travel, training and equipment, and polygraph
services) for the polygraph program at Headquarters. It does not include the
costs of obligated expenditures and overhead costs such as rent and
utilities. The DEA could not provide cost estimates for polygraph work done
at field offices. 71




         71 The DEA manages its polygraph program centrally for matters such as training,
policy, and quality control. However, most DEA polygraph examiners are assigned to DEA
field offices. The majority of polygraph work involves cases and applicants under the field
offices’ areas of responsibilities, and DEA officials said they do not capture or centrally
track those expenditures under the polygraph program initiative code. Consequently, the
costs shown in Table 8 do not reflect field costs such as travel-related expenses or salaries
and benefits for field examiners, which are funded and recorded at the field level.



U.S. Department of Justice                                                               77
Office of the Inspector General
Evaluation and Inspections Division
         Table 7: DEA Polygraph Program Headquarters Cost Estimates
                            FY 2000 through 2004
Fiscal                                                        Polygraph
 Year     Personnel          Travel    Training   Equipment    Services      Total
2002       $3,792,752    $120,053       $98,965     $69,540     $24,502    $4,105,812
2003       $3,959,264        $95,107    $97,227     $98,872     $11,262    $4,261,732
2004       $4,132,855        $99,420    $94,336     $74,102     $10,726    $4,411,439
Total    $11,884,871     $314,580      $290,528    $242,514    $46,490    $12,778,984
Source: DEA Polygraph Unit


Quality Control and Oversight

       The DEA’s quality control and oversight mechanisms to ensure the
integrity of its polygraph program include quality control provided by the
DEA’s Polygraph Support Unit and external quality assurance provided by
the DoDPI Quality Assurance Program. In addition, the DEA’s polygraph
program is also subject to the oversight of OPM. Each of these mechanisms
is described below.

Quality Control

       Internal quality control for the DEA polygraph program is provided
primarily through technical reviews conducted by the DEA’s Polygraph
Support Unit. At the conclusion of each polygraph examination, the DEA
field examiner conducts a numerical test data analysis of the polygraph
charts and forwards the examination record, including all charts, forms,
worksheets, and electronic media to a Polygraph Coordinator in the
Polygraph Support Unit. The Polygraph Coordinator reviews the field
examiner’s notes and then conducts an independent test data analysis. The
Polygraph Coordinator compares his or her analysis of test results with the
analysis of the field examiner. If the Polygraph Coordinator disagrees with
the field examiner’s original conclusion, another Polygraph Coordinator
conducts a second review. If both coordinators disagree with the field
examiner’s conclusion, the examination record is returned to the field
examiner for correction or retest. If all aspects of the examination are
approved, the Polygraph Coordinator sends a confirmation of the results to
the field examiner. The final results of all examinations conducted by field
examiners are filed at the Polygraph Support Unit, which is located in
Lorton, Virginia, and are accessible only to the unit’s personnel.



U.S. Department of Justice                                                       78
Office of the Inspector General
Evaluation and Inspections Division
External Quality Assurance

      The DEA agreed to participate in the DoDPI Quality Assurance
Program in 1997. Since then, DoDPI has conducted reviews of the DEA’s
polygraph program in FY 2001, 2003, and 2005. DoDPI reviewed a total of
189 polygraph examination files during the 3 inspections. Each DoDPI
review encompassed a sample of all DEA pre-employment and specific-issue
polygraph examination records and resulted in the following
recommendations:

   •   The DEA’s first DoDPI inspection in January 2001 resulted in
       recommendations that the DEA: (1) reconsider its policy of limiting
       the tenure of polygraph examiners in management positions to
       3 years because the policy resulted in a loss of experienced
       examiners, and (2) stop its examiners from using comparison
       questions that encompassed relevant issues because the questions
       did not comply with federal standards.

   •   A January 2003 DoDPI review resulted in only one finding, which was
       that the DEA follow its own policy of requiring that the Chief of the
       Polygraph Support Unit provide input into the examiner selection
       process. The inspection revealed that the DEA policy was not being
       followed in many cases. DoDPI inspectors believed that, by including
       input from its polygraph experts in the selection process, the DEA
       could reduce the number of DEA students failing to complete DoDPI
       basic examiner training (22 percent in FY 1991 through 2002). In
       comparison, DoDPI had found that federal law enforcement agencies
       that included expert input in the selection process only had a
       1-percent dropout rate during the same period.

   •   In January 2005, DoDPI inspectors found that two DEA examiners
       had not completed their continuing education requirement of 80
       hours every 2 years. Therefore, the DEA was out of compliance with
       the requirements of the Federal Polygraph Continuing Education
       Certification Program. DoDPI recommended that the DEA comply
       with the requirements in all cases.

      Each of the three DoDPI inspection reports on the DEA polygraph
program concluded that the DEA’s internal quality control program met or
exceeded federal quality control standards for federal polygraph programs,
that the program included an independent and objective review of all
examinations, and that the process was free of undue influence. After each


U.S. Department of Justice                                               79
Office of the Inspector General
Evaluation and Inspections Division
inspection, DoDPI certified the DEA program as compliant with DEA policies
and procedures as well as with federal standards for polygraph programs.

       After receiving the DoDPI reports, the DEA implemented corrective
action for all but one of DoDPI’s recommendations. The DEA did not change
its procedures concerning the tenure of polygraph managers, which was not
a compliance issue. 72

OPM Oversight

       Because the DEA uses polygraph examinations for pre-employment
screening and personnel security screening for competitive service
employees, the DEA polygraph program falls within the purview of OPM’s
oversight responsibilities. OPM requires the DEA to apply to OPM each year
for re-authorization to continue using polygraph examinations in its pre-
employment screening program for Special Agent and Intelligence Research
Specialist positions. For the DEA to receive OPM authorization, OPM must
first have certified the DEA’s national security mission and approved the
DEA’s policy and regulations for conducting pre-employment screening and
personnel investigations. In addition, the DEA must meet three
requirements stipulated by OPM as follows:

   •   The DEA must demonstrate full compliance with polygraph
       community standards for the use of polygraph examinations,
       including those contained in the Federal Examiner Handbook. The
       DEA meets this requirement by citing its most recent DoDPI
       inspection report and letter of compliance certification.

   •   The DEA’s Chief of the Security Office must review proposed denials of
       employment or security clearances when results of polygraph
       examinations are inconclusive, and he must review and approve any
       denials that involve uncorroborated information gleaned from
       polygraph examinations. The DEA meets this requirement by
       agreeing to continue its policy of not denying a clearance or
       employment based on an inconclusive polygraph result.



       72  In its report, DoDPI noted that DEA policy requires GS-14 Special Agents with
3 years in a management position to leave the DEA polygraph program. DoDPI noted that
other federal polygraph programs maintain experienced personnel in order to retain their
technical expertise and recommended that the DEA review its policy regarding polygraph
program managers.



U.S. Department of Justice                                                           80
Office of the Inspector General
Evaluation and Inspections Division
   •   The DEA must schedule and submit to a quality assurance review of
       the DEA’s polygraph program by DoDPI at least every 2 years and ask
       DoDPI to forward a copy of the results of these reviews to OPM’s
       Federal Investigative Services and to the Department’s Security and
       Emergency Planning Staff. To satisfy this requirement, the DEA
       informs OPM of the date of its next DoDPI review and agrees to
       provide the results of the review as required.

The DEA has routinely received OPM authorization to continue its use of
polygraph examinations for screening DEA employees. 73

Program Performance and Results

       The DEA collects and maintains statistical data on its polygraph
program in its Polygraph Information Tracking System. The DEA uses the
data to analyze its polygraph program, characterize polygraph productivity,
and measure program performance. DoDPI, in February 2005, certified that
the DEA’s polygraph program met federal standards for maintaining
statistical reports regarding polygraph examination activity. The results of
the DEA’s polygraph examinations are shown in Table 8.

      We examined the data on the outcomes of polygraph examinations
from FY 2002 through 2005 and found that DEA examiners reached
conclusive opinions (No Deception Indicated/No Significant Response and
Deception Indicated/Significant Response) in 91.2 percent (7,154) of all
examinations that were completed (7,843), which is well above the standard
of 80 percent. For that same period, 8.8 percent (689) resulted in
Inconclusive or No Opinion. The remaining 464 polygraph tests were not
completed and are not included in the calculation of the DEA’s Conclusive
Opinion rate. The DEA does not routinely track its polygraph examiners’
confession and admission rate.




       73On May 12, 2006, OPM officials granted the DEA authorization to use polygraph
examinations for pre-employment and personnel security screening in FY 2006.



U.S. Department of Justice                                                        81
Office of the Inspector General
Evaluation and Inspections Division
                     Table 8: DEA Polygraph Examination Results,
                                FY 2002 through 2005
            Examinations                        Examination Result (Percentage)
           Use             Number         NDI (NSR)   DI (SR)    INC      NO      Total
Non-Specific Issue (Screening) Polygraph Examinations
Pre-Employment                 3,218          67.2%    16.6%     12.1%    4.2%    100%
Personnel Security                   14       85.7%     7.1%      0.0%    7.1%    100%
Foreign Vetting                4,321          78.8%    13.9%      4.7%    2.5%    100%
Specific-Issue Polygraph Examinations
Criminal                         733          26.6%    31.2%     12.8%   29.3%    100%
Misconduct                           21       42.9%    23.8%      9.5%   23.8%    100%
             DEA total         8,307            N/A      N/A      N/A      N/A     N/A
Source: DEA Polygraph Support Unit




U.S. Department of Justice                                                        82
Office of the Inspector General
Evaluation and Inspections Division
THE ATF POLYGRAPH PROGRAM

Background

      ATF’s mission is to conduct criminal investigations, regulate the
firearms and explosives industries, and assist other law enforcement
agencies as part of the federal government’s effort to counter terrorism,
reduce violent crime, and protect the public. ATF, which was part of the
Department of the Treasury until January 24, 2003, began using polygraph
examinations as an investigative aid in the resolution of criminal
investigations under its jurisdiction in 1978. In September 1998, OPM
allowed Treasury to expand its polygraph program to include pre-
employment polygraph examinations for applicants for ATF GS-1811 Special
Agent positions. On October 27, 2003, OPM granted approval for the
transfer of Treasury’s authority for the ATF polygraph program to the
Department of Justice.

Mission and Purpose

      ATF’s Polygraph Branch provides technical support for ATF’s law
enforcement mission and the applicant screening process. The Polygraph
Branch also develops and presents training at the Federal Law Enforcement
Training Center; coordinates with other federal, state, and local agencies;
and provides intelligence support to Special Agents related to the specific
use of the polygraph technique.

Policies and Regulations

      ATF’s policies and regulations regarding the use of polygraph
examinations are contained in several ATF orders and an examiners’
handbook. 74 ATF’s draft handbook for examiners, Standard Operating
Procedures: Polygraph, provides guidelines for the use of polygraph testing.
The draft handbook is designed to serve as an examiners’ field reference on

        74 As of March 2006, ATF’s policies and regulations were under revision. The

revisions were required because the documents were written while the agency was still part
of Treasury and included some references and office names that were outdated as the
result of reorganization in 2005. A proposed substantive change in the ATF polygraph
policy, according to ATF officials, involves ATF’s hiring decisions related to “significant
responses.” Currently, applicants for ATF positions are told that they will not be hired if
there is an unresolved “significant response” during their pre-employment polygraph
examination. The draft handbook proposes that applicants be told that they may not be
hired if there is an unresolved response.



U.S. Department of Justice                                                            83
Office of the Inspector General
Evaluation and Inspections Division
recommended procedures and to supplement examiners’ DoDPI training.
According to the draft handbook, all polygraph examinees are to be tested
with the presumption that they are being truthful. ATF examiners are
charged with ensuring that the ATF polygraph program is conducted within
the guidelines of the American Polygraph Association’s Code of Ethics and
the technical parameters established by DoDPI. Examiners are instructed
to use polygraph testing only as an investigative tool and not as a
replacement for a proper and thorough investigative effort.

       The draft handbook provides guidance for scheduling polygraph
examinations and establishes a scheduling priority based on the nature and
immediacy of the investigation. It also encourages examiners to conduct no
more than two examinations in a single day and to provide for the presence
of a second examiner in complex cases.

      Along with the draft handbook, ATF has policy and guidance dealing
with specific uses of polygraph examinations in criminal investigations and
pre-employment screening. A 1999 order is currently being rewritten, but,
according to the SAC of the Polygraph Branch, it still provides applicable
ATF policy for the use of polygraph examinations in criminal
investigations. 75

       An August 2005 ATF policy document updated ATF’s policies and
procedures for the pre-employment screening and reflects several ATF office
name changes that resulted from ATF’s reorganization as a bureau within
the Department of Justice. 76 As previously discussed, OPM has authorized
ATF to administer polygraph examinations only to Special Agent applicants.
ATF does not compel its employees to take polygraph examinations or to
undergo personnel security polygraph examinations on a routine or random
basis.

Organization and Staffing

      ATF’s polygraph program is carried out by the Polygraph Branch,
located in the Office of Field Operations, Special Operations Division. The
Chief of the Special Operations Division has overall responsibility for ATF’s

       75The order being rewritten is ATF Order 3210.7C, Investigative Priorities,
Procedures and Techniques, Chapter J, Investigative Resources, Section 122, Polygraph;
February 25, 1999.

       76 ATF Brief 2123.4, Pre-employment Polygraph Screening Program, August 25,
2005 (expires August 25, 2007).



U.S. Department of Justice                                                          84
Office of the Inspector General
Evaluation and Inspections Division
polygraph program. The SAC of the Polygraph Branch reports to the Chief
of the Special Operations Division and is responsible for establishing and
implementing policies and procedures for the Polygraph Branch.

      The ATF Polygraph Branch comprises 16 certified polygraph
examiners, including the SAC of the branch, 3 regional team leaders
(currently 1 vacancy), and 12 field examiners (currently 1 vacancy). All
polygraph examiners are Special Agents.

      The SAC of the Polygraph Branch coordinates polygraph services at
both the ATF Headquarters and Field Division levels. The SAC is
responsible for training new examiners, ensuring the proper use of
polygraph examinations, serving as technical advisor for field examiners,
and monitoring the overall activities of the polygraph program.

       Three regional team leaders report to the SAC of the Polygraph
Branch but are physically located in field offices. Currently, the three team
leader positions are located in division field offices in Massachusetts, North
Carolina, and Illinois. Each of the team leaders is a lead criminal
investigator. The team leaders, while having the same responsibility for
conducting polygraph examinations as field examiners, also have additional
duties. When requested, they conduct polygraph examinations for ATF’s
Office of Professional Responsibility and Security Operations on issues of
employee integrity or conduct. They also conduct quality control reviews for
and provide technical supervision over field examiners who carry out
polygraph examinations in a designated geographical area.

       The 12 field examiners serve as Special Agent criminal investigators.
They are assigned to the Special Operations Division organizationally, but
are physically located in 12 of ATF’s 23 division field offices. While most of
the field examiners’ time is spent conducting GS-13 level investigations, a
portion of their time is spent conducting polygraph examinations as a
collateral duty. The SAC of the Polygraph Branch and the team leaders may
assign any field examiner to conduct any polygraph examination that falls
within ATF’s purview regardless of the issue or the geographical location of
the examination. The examiners’ respective Field Division SAC and the SAC
of the Polygraph Branch can approve requests for polygraph examinations,
but the final decision on whether to conduct a polygraph examination rests
with the polygraph examiner. (See Chart 4.)




U.S. Department of Justice                                                 85
Office of the Inspector General
Evaluation and Inspections Division
                        Chart 4: ATF Polygraph Program


                                       Office of Field
                                        Operations


                                          Special
                                         Operation
                                          Division


                                         Polygraph
                                          Branch




                Team Leader             Team Leader            Team Leader
                    MA                      NC                     IL




              Field Examiners         Field Examiners        Field Examiners
              Assigned to Field       Assigned to Field      Assigned to Field
              Division Offices*       Division Offices*      Division Offices*




                        * Twelve Special Agent Polygraph Examiners in
                           AZ, CA, FL, GA, IL, MI, PA, TN, TX, VA, WA

       Source: ATF Polygraph Unit


Polygraph Examination Uses and Procedures

      ATF uses polygraph examinations for two primary reasons: specific-
issue examinations as a tool in criminal investigations and pre-employment
screening to verify the truthfulness of Special Agent applicants. Before
transferring to the Department, ATF’s Polygraph Branch also supported the
DEA, USMS, and the U.S. Secret Service by conducting polygraph
examinations to vet foreign candidates seeking membership in sensitive
investigative units in other countries. ATF has not conducted foreign
vetting polygraphs since transferring to the Department in 2003.

      The SAC of the Polygraph Branch told us that she must approve the
use of polygraph examinations in an administrative misconduct
investigation, but that the Polygraph Branch had not conducted any

U.S. Department of Justice                                                       86
Office of the Inspector General
Evaluation and Inspections Division
examinations for that purpose in the past 3 years. She said that some
employees were asked during that time to volunteer for polygraph
examinations for administrative investigations, but they had declined
without consequences to the employees for their declinations.

      ATF’s processes for conducting polygraph examinations vary with
each distinct use in terms of who requests, authorizes, conducts, analyzes,
reviews, and issues the final opinion on examination results. Different
results or outcomes of polygraph examinations also trigger specific actions.
In the following sections, we discuss each use.

Criminal Investigations

      ATF uses polygraph examinations during criminal investigations to
achieve its law enforcement objectives, including:

          •   detecting and identifying criminals;

          •   verifying information from informants or witnesses to establish
              or corroborate credibility; and

          •   obtaining additional information leading to new evidence or
              identification of additional suspects, witnesses, or locations.

      According to ATF Order 3210.7C, ATF Special Agents or an attorney
with a U.S. Attorney’s Office can request a polygraph examination in
support of a criminal investigation. Such requests must first be reviewed
and approved by the local SAC and then authorized by the ATF Division
Director. Authorized agents can request polygraph services from the
examiner who serves the agent’s geographic area, the SAC of the Polygraph
Branch, or the Chief of the Special Operations Division. All such polygraph
examinations in criminal investigations are taken voluntarily without
repercussions from declining to undergo one, unless the polygraph
examination is required as a part of a plea agreement. In that case, refusing
to take the examination may invalidate the agreement.

      Prior to beginning the examination, the examiner must determine
whether the proposed test subject is mentally and physically fit to undergo
the examination. If the test subject is deemed fit, a Special Agent (usually
the examiner) advises the subject of his or her rights and asks the subject to
consent, in writing, to take the examination. If the subject does not formally
consent, the examination process stops.


U.S. Department of Justice                                                      87
Office of the Inspector General
Evaluation and Inspections Division
      If the examination goes forward, a Special Agent familiar with the case
assists the examiner during the pretest interview, the actual examination,
and the post-test interview. All polygraph examinations used in criminal
investigations are specific-issue examinations.

       After the examination, the field examiner sends the examination
records to a regional team leader or to the Polygraph Branch at ATF
Headquarters for a quality review. The reviewer issues the final opinion on
the results of the examination, and the results are then transmitted back to
the field examiner. The examiner verbally informs the test subject and the
subject’s attorney of the results.

Pre-Employment Screening

      ATF uses pre-employment screening polygraph examinations as a tool
to assist in verifying information provided by job candidates and to evaluate
applicants’ eligibility for employment. ATF Brief 2123.4 provides guidance
on the role of polygraph testing in pre-employment screening, examiner
responsibilities, and the consequences of either an admission made during
the examination or the discovery of a discrepancy in information previously
provided by the examinee.

       When an applicant receives a tentative job offer and submits an
application for a security clearance, ATF’s Human Resources Division or the
Chief of the Recruitment and Hiring Center forwards a formal request for a
security investigation and a copy of the application materials to the
Personnel Security Branch, Security and Emergency Programs Division,
Office of Professional Responsibility and Security Operations. The Personnel
Security Branch forwards the application materials, background
information, and a written polygraph authorization to the SAC of the
Polygraph Branch. The applicant’s name is entered into a control log and a
polygraph examiner is assigned. The assigned examiner is responsible for
scheduling and conducting the examination, obtaining the applicant’s
consent to be polygraphed, and advising the applicant of the applicant’s
constitutional rights concerning self-incrimination and seeking the advice of
counsel.

      The polygraph examination begins with the pretest interview and
documentation of any significant pretest admissions or discrepancies in
information previously provided by the applicant that could affect the
results of the polygraph examination and prevent the completion of the
examination. If significant admissions occur or discrepancies in
information previously provided by the applicant are found during the

U.S. Department of Justice                                                88
Office of the Inspector General
Evaluation and Inspections Division
pretest, in-test, or post-test phases, the examiner forwards that information
through the SAC of the Polygraph Branch to the Chief of the Special
Operations Division. The Chief of the Special Operations Division reviews
the results and forwards them through the Office of Professional
Responsibility and Security Operations, which sends them on to the Chief of
the Recruitment and Hiring Center for disposition.

       An exception to this process occurs when an applicant’s admission
concerns ongoing criminal behavior. If an applicant who is not an ATF
employee makes an admission concerning ongoing criminal behavior that
warrants prompt attention, the information is forwarded to the local SAC for
referral to the appropriate authorities. The polygraph consent form signed
by an applicant makes clear that any derogatory information that is
developed as a result of the polygraph examination could be disqualifying
and lead to disciplinary action, including dismissal from the applicant’s
current job.

       If a Department employee applies for an ATF position and fails the
polygraph examination, ATF officials in the Security and Emergency
Programs Division reported that, to their knowledge, there is no ATF or
Department policy requiring or ensuring that such information is provided
to the employing agency in the Department. However, they told us that, if a
Department employee failed the national security portion of the polygraph
examination, they would probably seek approval to provide the information
to the employing agency or office. They could not recall a case in which that
happened.

      If an applicant is an ATF employee who takes a pre-employment
polygraph examination in order to change positions within ATF, the
information is forwarded to the Office of Professional Responsibility and
Security Operations. Admissions of past criminal behavior by an ATF
employee are included in the polygraph report and forwarded through the
Chief of the Special Operations Division to the Personnel Security Branch in
the Office of Professional Responsibility and Security Operations, where the
information is evaluated and, if necessary, referred to the appropriate
authorities.

      If an applicant’s pre-employment polygraph examination results in
unresolved, significant responses indicative of deception, the applicant may
be ineligible for hire. The applicant may also be ineligible if the examiner
detects any attempt by the applicant to manipulate the results of the
examination. If the examination results in a No Opinion determination
because the examiner cannot render a conclusive opinion based on the test

U.S. Department of Justice                                               89
Office of the Inspector General
Evaluation and Inspections Division
charts, the Polygraph Branch will, when appropriate, retest the applicant in
an attempt to obtain a conclusive determination. If a conclusive
determination cannot be made, the results are documented and sent
through the SAC of the Polygraph Branch to the Chief of the Special
Operations Division who sends the results on to Office of Professional
Responsibility and Security Operations. In accordance with OPM
requirements, ATF does not deny employment on the basis of an
Inconclusive polygraph examination without a review of the decision by
ATF’s Office of Chief Counsel.

Foreign Vetting

       Although ATF has not conducted a polygraph examination for foreign
vetting since 2002, when ATF conducted those examinations, they were
governed by an agreement with the host country and the requesting agency
(the DEA, USMS, or U.S. Secret Service). All the examinations were
conducted in the host country, and the requesting agency made
arrangements with the host country for authorization to conduct the tests.
ATF conducted the polygraph examinations, performed quality control on
site, and reported the results to the requesting agency. The examinations
were all personnel security screening polygraph examinations. They were
used to detect security risks and to assess the suitability of candidates for
membership in Sensitive Investigative Units overseas. The requesting
agency and the host country decided how the results of those examinations
were used. ATF was not involved in deciding how to use the results and
tracked only the number of examinations conducted for reporting purposes.

Examiner Qualifications and Training

      The ATF draft examiners’ handbook establishes that a candidate for
the position of polygraph examiner must meet the following minimum
standards:

       •   U.S. citizenship,
       •   at least 25 years old,
       •   graduate of an accredited 4-year college,
       •   at least 2 years of experience as an investigator with a recognized
           federal or other law enforcement agency,
       •   job qualifications at the GS-12 journeyman level,
       •   successful background investigation and polygraph examination,
       •   make a 5-year commitment to serve as a polygraph examiner,
       •   be interviewed by the SAC of the Polygraph Branch,


U.S. Department of Justice                                                  90
Office of the Inspector General
Evaluation and Inspections Division
       •   willingness to travel during the required internship period, and
       •   willingness to respond to specific polygraph needs and requests
           from the Chief of the Special Operations Division and the SAC of
           the Polygraph Branch.

      Special Agents selected for training must successfully complete
DoDPI’s 14-week Polygraph Examiner Training Course and a supervised
6-month internship as an ATF examiner before they can be certified
competent to conduct polygraph examinations. During the internship,
trainees must conduct at least 25 polygraph examinations and reach an
acceptable level of proficiency and competency in the polygraph technique to
be certified. The SAC of the Polygraph Branch certifies the competency of
ATF examiners and recommends them for full membership in the American
Polygraph Association.

      To remain certified, ATF examiners are required to meet the
requirements of the Federal Polygraph Continuing Education Certification,
which is a minimum of 80 hours of creditable education during each
consecutive 2-year period in which they are assigned duties as a polygraph
examiner. With the exception of the SAC of the Polygraph Branch, each
examiner should conduct a minimum of 18 polygraph examinations during
each 6 month period. When possible, ATF examiners attend annual
conferences sponsored by the American Association of Police Polygraphists
or the American Polygraph Association. ATF also encourages its examiners
to complete advanced polygraph training.

      In DoDPI’s June 2004 biennial report on ATF’s polygraph program,
DoDPI reported that the SAC of the Polygraph Branch had 20 years of
investigative experience and 5 years of polygraph experience. Overall, ATF’s
polygraph program team leaders had an average of 25 years of investigative
experience and 12 years of polygraph experience. ATF’s field examiners
averaged 15 years of investigative experience and 5 years of polygraph
experience.

Workload and Program Costs

      From FY 2002 through 2005, ATF reported conducting 2,700
polygraph examinations. Of those, about 50 percent were conducted for
pre-employment screening, 47 percent for criminal investigations, and
3 percent for vetting foreign agent candidates. The 82 foreign screening
examinations that ATF conducted in FY 2002 were done at the request of
the DEA, USMS, and the U.S. Secret Service (Table 9).


U.S. Department of Justice                                               91
Office of the Inspector General
Evaluation and Inspections Division
                       Table 9: ATF Polygraph Unit Workload by Use
                                  FY 2002 through 2005

         Fiscal           Pre-                 Criminal          Foreign              Total
         Year          Employment*                               Vetting*
           2002                       266              306                  82                 654
           2003                       384              328                   0                 712
           2004                       372              338                   0                 710
           2005                       316              308                   0                 624
           Total                  1,338             1,280                   82                2,700
         * The number of pre-employment screening and foreign vetting examinations includes the
         total number of tests and retests.
         Source: ATF Polygraph Unit


       From FY 2002 through 2004, ATF spent an average of approximately
 $2.5 million per year for its polygraph program (Table 10). ATF’s Special
 Operations Division tracks all polygraph program costs – both Headquarters
 and field costs.

                           Table 10: ATF Polygraph Program Costs
                                   FY 2002 through 2004

Fiscal                                                                  Other
Year              Personnel           Travel         Training         Expenses*                Total
2002                $2,096,401         $130,026        $102,671             $43,846            $2,372,944
2003                $2,153,296         $170,710           $81,599           $39,929            $2,445,534
2004                $2,272,372         $161,287           $59,309           $56,108            $2,549,076
Total              $6,522,069         $462,023         $243,579          $139,883             $7,367,554
* Other Expenses include the costs of shipping, rentals, services, supplies, and equipment.
Source: ATF Polygraph Branch


 Quality Control and Oversight

       Quality control and oversight mechanisms to ensure the integrity of
 ATF’s polygraph program include: (1) internal quality control checks of
 polygraph results by the ATF Polygraph Branch, (2) internal oversight
 provided by ATF’s Inspections Division, (3) external quality assurance
 provided by the DoDPI Quality Assurance Program, and (4) external
 oversight by OPM. Each of these mechanisms is described below.


 U.S. Department of Justice                                                                           92
 Office of the Inspector General
 Evaluation and Inspections Division
Quality Control

       The ATF Polygraph Branch conducts a quality control review of each
polygraph examination to ensure that ATF examiners conform to accepted
polygraph practices prescribed in ATF’s draft examiner’s handbook and as
set forth by DoDPI. ATF defines its quality control review as a systematic
evaluation, review, and critique of each polygraph examination conducted
by ATF examiners. Examination results are not final until the polygraph
examination records undergo a quality review and the reviewing official or
officials agree with the results of the examination and issue a final opinion
on the results.

       All quality control reviews are conducted by the SAC of the Polygraph
Branch, a team leader, or other designated senior examiner. The quality
control process for polygraph examinations conducted by one of ATF’s 12
field examiners is slightly different from the quality control process for
polygraph examinations conducted by one of the three team leaders.

        When a field examiner completes a polygraph examination, the test
data, including the test charts and all related paperwork, is forwarded to
one of the three team leaders for a quality control review. The team leader
reviews the entire examination, analyzes test question construction,
evaluates the polygraph charts independently, and reviews the overall
technical aspects of the examination. The quality review is intended to
ensure that the field examiner followed required procedures and that the
polygraph charts are compatible with the field examiner’s opinion on the
results of the examination. The team leader reviews the polygraph charts
first, rather than the report summary, so that his review is objective and
unbiased by the information in the summary report.

      If the team leader agrees with the field examiner’s opinion, the
examination package is forwarded to the SAC of the Polygraph Branch, who
reviews the examination to determine whether the team leader and the field
examiner agreed on the examination results. When there is agreement, the
examination is considered complete.

      If the team leader disagrees with the field examiner’s opinion on the
examination, the team leader contacts the examiner to discuss the review
and to identify corrective action. If there is still disagreement, the team
leader forwards the complete packet to a second team leader for review. If
the second team leader agrees with the field examiner, the case is
considered complete. If the second team leader agrees with the initial team



U.S. Department of Justice                                                93
Office of the Inspector General
Evaluation and Inspections Division
leader, additional testing is scheduled or the examination report is amended
as appropriate.

      The difference in the quality control process for team leaders is that,
when a team leader conducts an examination, the results are forwarded to
another team leader for a quality control review. If there is disagreement
between the two team leaders, the examination is sent to the SAC of the
Polygraph Branch for additional evaluation and a final opinion on the
results. The SAC of the Polygraph Branch also annually reviews at least one
polygraph examination conducted by each ATF examiner to further ensure
compliance with applicable policies and procedures.

      In DoDPI’s last three reports on the ATF polygraph program, DoDPI
has reported that ATF’s quality control program includes an independent
and objective review that is free of undue influence from the original
examiner or other sources.

Internal Oversight

      ATF management is responsible for ensuring that its various divisions
and offices comply with all applicable laws and regulations. To ensure
compliance, ATF performs triennial reviews of all of its operations. During
the week of December 12 through 15, 2005, ATF’s Office of Professional
Responsibility and Security Operations, Inspection Division, conducted an
inspection of the Polygraph Branch. The inspection covered the period of
October 1, 2004, through September 30, 2005. The Polygraph Branch
received an overall rating of “Green” for “Effective and Efficient,” which is
the highest rating attainable.

External Quality Assurance

      ATF has participated in the DoDPI Quality Assurance Program since
1997 and underwent its first review on September 30, 1997. DoDPI
conducted its last three reviews in September 2000, May 2002, and June
2004. Each of the DoDPI reviews covered 118 criteria in 9 primary areas of
ATF’s polygraph program. The next DoDPI review is expected to be
conducted in 2006.

      We reviewed DoDPI’s last two reports on ATF’s polygraph program,
and all subsequent findings and recommendations, and we found that ATF
had responded to all issues in a timely manner. According to the 2002
report, DoDPI reviewed 73 polygraph examinations (41 pre-employment
screenings and 32 specific-issue examinations). DoDPI inspectors made

U.S. Department of Justice                                               94
Office of the Inspector General
Evaluation and Inspections Division
only one recommendation, which stemmed from a finding of improper
question construction. DoDPI inspectors found that the probable lie
comparison questions used in several applicant screening examinations did
not meet federal standards for question construction because they were not
clearly separated from the relevant issue. DoDPI recommended that all
probable lie comparison questions conform to federal standards. According
to the FY 2004 report, DoDPI officials reviewed 70 polygraph examinations
(35 pre-employment screening and 35 specific-issue examinations). DoDPI
officials made no recommendations regarding the 118 criteria that were
reviewed.

       Subsequent to both reviews, DoDPI issued a letter to ATF stating,
“The ATF Polygraph Branch was found to comply with ATF polygraph
policies and procedures and its polygraph program and staff met the
standards required of a Federal Government polygraph program.” 77

OPM Oversight

       ATF employees are part of the competitive civil service and fall under
the purview of OPM. OPM annually reviews and approves ATF’s request to
be allowed to continue using pre-employment polygraph examinations as a
screening tool for determining the suitability of job applicants for ATF
Special Agent positions. OPM has continued to grant ATF annual
reauthorization to administer pre-employment screening polygraphs. To
continue receiving OPM’s approval, ATF has to re-apply to OPM each year
and attest to its continuing policies of:

   •   Complying with polygraph standards that are at least as stringent as
       or more stringent than those found in the Federal Examiner
       Handbook,

   •   Not denying employment or a security clearance based on the results
       of an Inconclusive polygraph examination without the review and
       approval of ATF’s Chief Security Officer,

   •   Participating in the federal quality assurance review program by
       undergoing biennial reviews by DoDPI and submitting the results of
       the reviews to OPM and ATF’s Office of Security.


       77The most recent letter from DoDPI attesting to ATF’s compliance with federal
standards was dated June 24, 2004.



U.S. Department of Justice                                                              95
Office of the Inspector General
Evaluation and Inspections Division
       ATF’s last application for OPM approval was September 8, 2005. In
its application, ATF asked OPM for a 1-year authorization for the expanded
use of polygraph in the screening of competitive and excepted service
GS-1811 criminal investigator, Special Agent applicants, as part of the pre-
employment background investigation process. The request was for
authorization for the period of October 1, 2005, to September 30, 2006. On
April 26, 2006, OPM officials granted ATF authorization to use polygraph
examinations for pre-employment and personnel security screening for
FY 2006

      From February to June 2004, OPM’s Center for Merit System
Compliance conducted an appraisal of the ATF personnel security,
suitability determination, and investigation programs for compliance with
applicable requirements. As part of the appraisal, OPM asked whether ATF
used polygraph examinations for security or suitability purposes and
whether OPM had approved the agency’s use for competitive service
appointment. ATF answered “Yes” to both questions. Further, OPM found
that ATF had a strong program that met or exceeded federal requirements. 78

Program Performance and Results

      The ATF Polygraph Branch maintains a database that is used to
generate monthly and annual reports on the quantity and quality of
polygraph examinations conducted by ATF’s polygraph examiners. ATF
uses the data to analyze its polygraph program, characterize polygraph
productivity, and measure program performance. In its June 2004 report
on the ATF polygraph program, DoDPI found that ATF’s polygraph program
database and the statistical reports generated from the database met federal
requirements for program statistics.

       Table 11 shows that during FY 2002 through 2005, ATF’s conclusive
rate for criminal, specific-issue polygraphs was 62.7 percent. Its conclusive
rate was 81.2 percent for pre-employment screenings and 84.1 percent for
foreign vetting polygraph examinations. ATF’s conclusive rate for pre-

       78  Executive Order 10450, “Security Requirements for Government Employees,”
April 27, 1953, grants OPM authority to make these appraisals to determine whether an
agency has established and maintained an effective program to insure that employment
and retention in employment of any civilian officer or employee is clearly consistent with
national security interests. The appraisals involve a review of an agency’s program
operations and guidelines, personnel security records, suitability files, adjudication
decisions, official personnel folders, and other related documents and records, and
interviews with agency managers and employees.



U.S. Department of Justice                                                              96
Office of the Inspector General
Evaluation and Inspections Division
employment screening and foreign vetting exceeds an industry standard of
80 percent. 79 While ATF tracks the number of pre-employment
examinations during which the examinee made an admission or confession
in the pretest phase, ATF does not track the overall confession rate of its
examiners.

       ATF uses categories for reporting polygraph results that are slightly
different from those used by the FBI and DEA. For example, similar to the
DEA, ATF uses the terms “No Significant Response” (NSR) and “Significant
Response” (SR) when reporting the results of pre-employment screening and
foreign vetting polygraph examinations. ATF also uses a “No Opinion” (NO)
to mean that the examiner could not render an opinion based on the
physiological data on the charts. ATF’s “NO” is similar in definition to the
FBI’s and DEA’s “Inconclusive” result. ATF also uses the term
“Administrative Opinion” (AO) to categorize tests that were scheduled but
not conducted for a variety of reasons, such as when the test subject
refused to go through with the examination or the examiner determined that
the test subject was not medically, physically, or mentally fit to undergo the
examination.


                     Table 11: ATF Polygraph Examination Results
                                FY 2002 through 2005

         Examinations                           Examination Result (Percentage)
       Use             Number         NDI (NSR)      DI (SR)*    NO        AO     Total
Non-Specific Issue (Screening) Polygraph Examinations
Pre-Employment              1,338            72.3%       8.9%    16.0%     2.8%   100%
Foreign Vetting                82            76.8%       7.3%    14.6%     1.2%   100%
Specific-Issue Polygraph Examinations
Criminal                    1,280            29.3%     33.4%     15.1%    22.2%   100%
             Total          2,700             N/A.        N/A     N/A       N/A   100%
*Includes pre-test confessions/admissions.
Source: ATF Polygraph Branch




        79ATF reports the results of each series of questions that an examinee undergoes
during a pre-employment or foreign vetting screening – not the results of the overall
examination as do the FBI and DEA. When calculating ATF’s conclusive rate, we used the
total number of series as the basis.



U.S. Department of Justice                                                          97
Office of the Inspector General
Evaluation and Inspections Division
THE OIG POLYGRAPH PROGRAM

Background

      The OIG investigates alleged violations of criminal and civil laws, and
regulations pursuant to the Inspector General Act of 1978 and Attorney
General Order 1393-90, dated January 29, 1990.

Mission and Purpose

      The OIG Polygraph Unit is staffed by Special Agents whose primary
responsibility is to conduct investigations of suspected criminal and
administrative violations affecting Department resources and programs.
When requested, the OIG Polygraph Unit also sometimes conducts
examinations in support of the BOP, USMS, U.S. Attorneys’ Offices, and
other federal agencies.

Policies and Regulations

      The OIG’s Assistant Inspector General (AIG) of Investigations has been
delegated responsibility for the formulation and implementation of policy
and procedures pertaining to the administration and conduct of polygraph
examinations by OIG personnel.

       OIG polygraph policy is contained in the Inspector General Manual,
Volume III, Investigations, Chapter 265, Polygraph Examinations,
January 16, 2001, and in the Inspector General Handbook, Investigations
Division, Polygraph Examiner Handbook, January 2003. Chapter 265 of the
OIG Investigations Manual establishes procedures and guidelines for the use
of polygraph examinations as a tool in OIG investigations. The OIG
Polygraph Examiner Handbook establishes procedures and guidelines for the
conduct of polygraph examinations by polygraph examiners. Its provisions,
along with those of Chapter 265 of the Investigations Manual, apply to all
polygraph examinations conducted by examiners in the OIG’s Investigations
Division. OIG policy states that polygraph examiners are to strictly adhere
to all OIG rules, regulations, and established procedures so that they are
prepared to defend their competence, procedures, opinions, and standards
before all judicial bodies concerning any examination in which they are
involved.

      Individuals polygraphed by the OIG normally are not compelled to
take a polygraph examination, and they may refuse to do so without adverse


U.S. Department of Justice                                                98
Office of the Inspector General
Evaluation and Inspections Division
administrative action or a negative inference. An exception occurs when the
OIG is conducting an administrative investigation involving FBI employees
who, under FBI policy, can be compelled to take a polygraph examination if
an administrative investigation concerns a serious violation of the law or
FBI policy. The FBI can compel its employees to cooperate with OIG
investigations and to take polygraph examinations in certain circumstances
(described on pages 43 and 44) or face disciplinary action.

       Provisions of the OIG Investigations Manual require OIG examiners to
use DoDPI question formulation procedures for all authorized polygraph
examinations. The manual’s provisions also state that the examiner’s
opinion should not be the sole factor in determining the guilt or innocence
of the test subject.

       The OIG’s Polygraph Examiner Handbook addresses the more general
aspects of conducting polygraph examinations and includes policy on
initiating a polygraph examination, certifying OIG examiners, controlling
examination quality, authorization and reporting procedures, and polygraph
examination procedures.

Organization and Staffing

       As shown in Chart 5, the SAC of the Special Operations Branch has
been designated by the AIG of the Investigations Division to serve as the
OIG’s Polygraph Program Manager and Coordinator. The SAC, assigned to
OIG Headquarters in Washington, D.C., is responsible for specific oversight
of the polygraph program as well as management of its day-to-day
operations. All requests, reports, and recommendations relating to
polygraph activities are directed to the SAC for action.

      The SAC is assisted by three Special Agent/Polygraphers. The three
Special Agent/Polygraphers, who are GS-1811 Special Agent criminal
investigators, may be assigned to participate in criminal investigations as
well as to conduct polygraph examinations. The Special Agents maintain an
investigative caseload in their assigned field offices and also conduct
polygraph examinations as assigned.




U.S. Department of Justice                                              99
Office of the Inspector General
Evaluation and Inspections Division
                        Chart 5: OIG Polygraph Program


                                      Inspector General

                                  Deputy Inspector General



                                 Assistant Inspector General
                                   Investigations Division




                             SAC Special Operations Branch
                                  Washington, D.C.




                Special Agent/           Special Agent/        Special Agent/
                 Polygrapher              Polygrapher           Polygrapher
                 Field Office             Field Office          Field Office



       Source: OIG Polygraph Unit


Polygraph Examination Uses and Procedures

      The OIG uses specific-issue polygraph examinations in its
investigations into allegations of criminal activity or other misconduct by
Department employees. The OIG does not require its job applicants to
undergo a pre-employment polygraph examination. Further, the OIG does
not subject its employees to random or periodic personnel security
screening polygraphs as a condition for access to sensitive information or to
obtain a security clearance.

      In addition to its own polygraph activities, the OIG sometimes
conducts polygraph examinations for Department components that do not
have their own polygraph programs. These examinations are conducted at




U.S. Department of Justice                                                      100
Office of the Inspector General
Evaluation and Inspections Division
the request of the other agencies with the approval of the SAC of the Special
Operations Branch. 80

      The SAC of the Special Operations Branch must authorize all OIG-
administered polygraph examinations, including those requested by other
law enforcement and intelligence agencies. A polygraph examination may
be authorized for any offense subject to investigation by the OIG. If there is
a conflict between OIG polygraph procedures and those of a requesting
agency, the OIG uses its own procedures.

      Polygraph examinations conducted by the OIG are normally requested
by an investigating agent. Prior to making an official request for polygraph
assistance, the case agent determines whether a polygraph examination
would be useful and whether a proposed test subject would be willing to
take a polygraph examination. 81 If the case agent is unsure about the
feasibility of using a polygraph examination in an investigation, the agent is
encouraged to discuss the matter with the SAC of the Special Operations
Branch. The case agent is also encouraged to use the polygraph as an
investigative tool only when other investigative leads have been exhausted,
but the primary issues have not been resolved. 82 Requests can be made in
writing or by telephone, but all requests must include specific information
concerning the proposed test subject (such as age, physical and mental
condition, and special requirements) and the investigation (such as the
name of the requestor, type of case, and issues needing resolution).

       The SAC of the Special Operations Branch must approve all polygraph
examinations the OIG conducts. Once an examination is scheduled, the
case agent is responsible for providing logistical support to the assigned
examiner, being available to confer with the examiner concerning the
specifics of the case, ensuring the examinee is present at the scheduled
time, witnessing the advisement of the examinee’s rights and the signing of
the consent form, monitoring the examination when possible, and obtaining
a formal statement in the event that the examinee makes a confession or


       80 From FY 2002 through 2005, the OIG conducted 33 polygraph examinations for

other Department components. These polygraphs were conducted for Federal Bureau of
Prisons internal affairs investigations and Criminal Division criminal investigations.

       81 For cases involving FBI employees, OIG investigators do not take into account
whether the subject of the investigation would be willing to take a polygraph examination.

       82  On occasion, the OIG will conduct polygraphs on complainants at the start of an
investigation.



U.S. Department of Justice                                                           101
Office of the Inspector General
Evaluation and Inspections Division
admission during the examination process. When practical, the OIG honors
requests made by an examinee’s legal counsel to observe the examination.

      The examiner is responsible for developing a written report on the
results of the examination. The examiner can render one of three
preliminary opinions regarding the results of a completed examination:

   •   Deception Indicated,
   •   No Deception Indicated, or
   •   Inconclusive.

Multiple series, or retests, may be conducted at the discretion of the
examiner to clarify an initial inconclusive opinion. 83 If the examiner finds
indications of deception, the examiner conducts a post-test interview to
attempt to resolve any relevant issues.

      The examiner develops an examination report for each test and
submits it to the SAC of the Special Operations Branch within 5 days of the
examination. Each polygraph report and preliminary opinion by the
examiner is reviewed by the SAC for quality, and the SAC renders the final
opinion on the results of the examination. Polygraph examinations are not
complete until the SAC signs the polygraph report.

       The original polygraph report is sent to the requesting area or field
office where the investigation originated for retention in the working and
permanent case file. When the OIG conducts a polygraph examination at
the request of another component, the original report is sent to the
requesting component. A copy of all examination reports is retained in the
OIG Investigations Division’s files.

Examiner Qualifications and Training

      The AIG for Investigations is responsible for selecting and training
OIG polygraph examiners. Only OIG-certified polygraph examiners conduct
OIG-sponsored polygraphs, unless the AIG for Investigations authorizes the
use of another federally certified examiner.

     OIG Special Agents selected to be trained as polygraph examiners are
GS-1811 series criminal investigators who must have a minimum of 4 years

       83 An OIG examiner’s opinion can be rendered based on a minimum of two
polygraph test charts – one less than most federal polygraph program standards require.



U.S. Department of Justice                                                         102
Office of the Inspector General
Evaluation and Inspections Division
of criminal investigative experience and pass a mandatory integrity
screening polygraph examination. OIG examiner trainees receive basic
examiner training at DoDPI and must successfully complete a supervised
internship.

       After examiners complete all required training, they receive a
certificate of competence from the Inspector General through the AIG for
Investigations. To maintain their certification, examiners must conduct,
review for quality, or act as second examiner for a minimum of 12 polygraph
examinations per year. Examiners also have to participate in the federal
continuing education program by attending at least one polygraph-related
training course or by accumulating at least 80 hours of advanced training
courses biannually. 84

      The AIG for Investigations can decertify OIG examiners, which means
they can no longer conduct polygraph examinations for the OIG. Examiners
can be decertified for repeatedly failing to demonstrate the ability to conduct
proper examinations, render accurate opinions, meet reporting
requirements, or act in a professional manner consistent with the
professional and ethical standards of the OIG.

      As of January 2006, the SAC of the Special Operations Branch had
over 31 years of investigative experience and 22 years of polygraph
experience.

Workload and Program Costs

      In FY 2002 through 2005, the OIG Polygraph Unit conducted 173
polygraph examinations. (See Table 12.) The OIG conducted 81 percent
(140) of the examinations as part of OIG criminal and misconduct
investigations. 85 The OIG conducted the other 19 percent (33) in response
to requests made by other agencies that included the BOP (17), Criminal
Division (5), the WITSEC Program (3), U.S. Attorneys (2), and agencies
outside of the Department (6).

       84 OIG examiners are also required to be members of the American Polygraph
Association. Examiners are encouraged to belong to other law enforcement-related
professional organizations as well.

       85  The OIG does not distinguish between examinations conducted for criminal
investigations and those conducted for misconduct investigations. Both criminal and
administrative investigations are handled in the same manner. A case may be initiated as
a criminal investigation but change to an administrative investigation at some point.



U.S. Department of Justice                                                          103
Office of the Inspector General
Evaluation and Inspections Division
                         Table 12: OIG Polygraph Unit Workload
                                 FY 2002 through 2005

              Fiscal Year                             Misconduct*
                  2002                                     32
                  2003                                     52
                  2004                                     44
                  2005                                     45
                 Total                                     173
         * The OIG does not compile data for criminal and misconduct investigations
         separately.
         Source: OIG Polygraph Unit

     As shown in Table 13, the OIG spent approximately $559,000 in
support of its polygraph program in fiscal years 2002 through 2004.


                    Table 13: OIG Polygraph Unit Budget Costs
                              FY 2002 through 2004

                          DoDPI and
Fiscal                      Other
 Year     Polygraphs       Training      Personnel       Travel      Equipment         Total

  2002             32         $8,629      $121,162       $14,374         $11,709      $155,874
  2003             52         $9,234      $163,194       $23,946               $0     $196,374
  2004             44         $9,451      $174,325       $21,852          $1,515      $207,143
 Total            128        $27,314     $458,681       $60,172         $13,224       $559,391

Source: OIG Polygraph Unit



Quality Control and Oversight

      The OIG’s polygraph program has two oversight and quality control
mechanisms – an internal quality control program conducted by the SAC of
the Special Operations Branch and an external quality assurance review by
DoDPI.

Quality Control Review

       The SAC of the Special Operations Branch, or a senior examiner who
is designated by the SAC, conducts a quality control review of every


U.S. Department of Justice                                                               104
Office of the Inspector General
Evaluation and Inspections Division
examination record to ensure that the examination was conducted
according to the highest standards of professionalism, accuracy, and
reliability. The SAC’s opinion is based on an independent and objective
analysis of the test data followed by a review of all other documentation,
including the examination report. The SAC can “concur” or “non-concur”
with the examiner’s preliminary opinion on the results of the examination.
The SAC’s chart analysis, opinion, and other commentary become a
permanent part of the examination file.

       If the SAC concurs with the examiner’s opinion, the examination
report is considered complete and the original polygraph report is sent to
the controlling field office to be used in the investigation and to become a
part of the case file. If the SAC does not agree with the examiner’s opinion,
the file is forwarded to the U.S. Secret Service or the FBI for a third and
final opinion that is binding. When the SAC conducts a polygraph
examination, another senior OIG examiner is designated to conduct a
quality control review of the examination record. No examination is
considered valid and complete until the quality control review has been
completed and the SAC has signed the polygraph report.

      In its three quality assurance reviews of the OIG Polygraph Unit,
DoDPI has consistently found that the OIG’s quality control process is
independent, objective, and free of undue influence.

DoDPI Quality Assurance Reviews

       DoDPI provides external oversight of the OIG Polygraph Unit through
its biennial quality assurance reviews. In 2000, 2002, and 2004, DoDPI
reviewed 112 examination records to determine whether the program was
being managed and implemented in compliance with OIG polygraph policies
and procedures and the standards established for federal polygraph
programs. The examination records were reviewed for compliance with the
118 criteria in 9 primary management and technical areas.

      A number of recommendations were made in DoDPI’s 2000 review,
and all but one were implemented prior to the completion of the review.
Consequently, DoDPI’s report on its 2000 review contained one
recommendation, which addressed the OIG’s use of a fourth chart, or a
fourth round of questioning. Although OIG policy limited the use of a fourth
chart, records showed that examiners had used a fourth chart in
circumstances that were not supported by OIG policy and federal standards.
The DoDPI report recommended that the OIG ensure that a fourth chart was
used only when appropriate.

U.S. Department of Justice                                                105
Office of the Inspector General
Evaluation and Inspections Division
      In 2002, DoDPI recommended that OIG polygraph examiners adhere
to OIG policies pertaining to question formulation and examination test
formats. The recommendation stemmed from a DoDPI finding that, in 3 of
the 32 examinations, examiners had not followed OIG policies and
procedures for test question construction.

      In 2004, the DoDPI report contained no recommendations because
DoDPI inspectors found that the OIG program met or exceeded all the
requirements expected of a federal polygraph program.

      DoDPI reported that, after each of its three reviews of the OIG
Polygraph Unit, the OIG responded in a timely and cooperative manner to
all DoDPI recommendations and was subsequently certified compliant with
federal standards. The most recent certification was on November 9, 2004.

Program Performance and Results

       The OIG maintains a database concerning its use of polygraph
examinations. The database includes information on who was polygraphed,
whether they were a subject or witness in an investigation, the organization
with jurisdiction in the case, and the results of the examination. The SAC of
the Special Operations Branch uses the information to manage the OIG’s
polygraph program, to characterize and report its workload and
productivity, and to meet federal standards for maintaining program
statistics. The results of the OIG’s polygraph examinations are shown in
Table 14.

      We examined data on the outcomes of polygraph examinations from
FY 2002 through 2005 and found that OIG examiners reached conclusive
opinions (e.g., No Deception Indicated or Deception Indicated) in 94 percent
(145) of all examinations that were completed (155). This means that OIG
examiners had an inconclusive rate of 6 percent. The remaining 18
examinations resulted in a “No Opinion” (NO) because the examiner stopped
the examination before collecting enough data to render a conclusive
decision or in a “No Examination” because the proposed examinee did not
undergo an examination as scheduled. DoDPI reported that during FY 2004
OIG examiners had a confession rate of over 84 percent.




U.S. Department of Justice                                             106
Office of the Inspector General
Evaluation and Inspections Division
                       Table 14: OIG Polygraph Examination Results
                                   FY 2002 through 2005
       Examinations                             Examination Result (Percentage)
                                                                          No Opinion
                              No Deception Deception                      or No
Use              Number       Indicated       Indicated   Inconclusive Examination     Total
                              Specific-Issue Polygraph Examinations
Criminal and
Misconduct
Investigations          173            49%         35%             6%           10%      100%
Source: Special Operations Branch




      U.S. Department of Justice                                                   107
      Office of the Inspector General
      Evaluation and Inspections Division
                 SECTION II: Other Polygraph Users in the
                         Department of Justice

Background

       Seven organizations in the Department reported using the results of
polygraph examinations that were conducted by other federal agencies,
such as the FBI, OIG, and CIA, or by a private contractor. The seven users
were the Department’s Criminal Division, Justice Command Center (JCC),
Antitrust Division (ATR), National Drug Intelligence Center (NDIC), Office of
Professional Responsibility (OPR), BOP, and USMS. From FY 2002 through
2004, the seven users requested other agencies to conduct a total of 1,728
polygraph examinations for witness security screening, administrative
(misconduct and internal affairs) investigations, criminal investigations,
personnel security screening, sex offender treatment, and vetting foreign
witnesses, prosecutors, and law enforcement personnel. 86 Over 96 percent
of the examinations were conducted by the FBI.

       Of the seven users, only the BOP, JCC, and NDIC have internal
policies and procedures governing the use of polygraph examinations. 87 The
JCC is the only user that OPM has approved to use narrowly focused,
counterintelligence-scope polygraph examinations as part of the security
clearance process for its competitive service employees and recruits. OPM
granted the Department authority to use polygraph examinations for
positions in the JCC after OPM determined that the JCC had a national
security mission supporting the use of polygraphs and approved the JCC’s
polygraph policies and procedures.

      DoDPI has never conducted a quality assurance review of the seven
components’ uses of polygraph examinations. DoDPI has reviewed some of
the examination records via its quality assurance reviews of the polygraph
programs of the agencies such as the DEA, ATF, and OIG that conduct
examinations. Although the FBI conducted approximately 96 percent of the
examinations requested by the seven users in FY 2002 through 2004, the
FBI has not provided the records of those examinations for DoDPI review.

       86 The same polygraph examinations reported in this section as requested by the
seven user components were also reported by the FBI in its number of polygraph
examinations conducted for other agencies.

       87 As described in the Introduction section, the Department has policies and
procedures dealing with the use of polygraph examinations in criminal investigations,
prosecutions, and the Witness Security Program that apply to all of its components.



U.S. Department of Justice                                                          108
Office of the Inspector General
Evaluation and Inspections Division
The FBI cited the logistical problems of retrieving the records of criminal
specific-issue, pre-employment and personnel security polygraph
examinations from the requesting agencies as the reason for not providing
them to DoDPI for review. The FBI does not provide examination records
associated with the WITSEC Program, Foreign Counterintelligence and
Counterterrorism, and Office of Professional Responsibility programs for
DoDPI review, whether they are conducted for FBI purposes or for another
agency, due to the sensitive nature of those programs.

      A description of the polygraph policy and operations of each of the
seven components that use polygraph examination results follows.

Criminal Division

      The Department’s Criminal Division and the 93 U.S. Attorneys have
responsibility for overseeing criminal matters under more than 900 federal
statutes as well as certain civil litigation. The Division also approves or
monitors sensitive areas of law enforcement, such as participation in the
WITSEC Program and the use of electronic surveillance. According to the
Criminal Division, 4 of the 19 organizations within the Division oversee or
use the results of polygraph examinations. From FY 2002 through 2004,
the 4 organizations requested that the FBI and other law enforcement
agencies conduct a total of 1,171 polygraph examinations. Each of the four
organizations is described below.

Office of Enforcement Operations (OEO)

       OEO provides U.S. Attorneys’ Offices with assistance on wiretaps,
subpoenas, witness security, and prisoner transfers. OEO uses the results
of polygraph examinations primarily to evaluate prisoner-witnesses seeking
entry into the WITSEC Program. (See the box on page 136 for a description
of polygraph usage in WITSEC.) The FBI conducts most of the
examinations, but the OIG and the Secret Service have also conducted them
for OEO. Although rare, OEO has asked the FBI and OIG to polygraph
informants in undercover operations to verify their truthfulness.

     The Chief of the WITSEC Security Unit and the Director of OEO and
the WITSEC Program are responsible for overseeing polygraph
examinations. They use the provisions of the U.S. Attorneys’ Manual, which




U.S. Department of Justice                                             109
Office of the Inspector General
Evaluation and Inspections Division
contains Department policy and guidance for prisoner-witnesses seeking
entry into the WITSEC Program. 88

      OEO Intelligence Analysts initiate requests for polygraph
examinations via memorandums to the FBI, OIG, or Secret Service,
depending on the availability of examiners. After an individual takes a
polygraph examination, the examining authority (FBI, OIG, or Secret
Service) submits a report on the results to OEO. Candidates for the
WITSEC Program who fail a polygraph examination are not admitted to a
BOP Protective Custody Unit.

       About 7 months before an individual in a Protective Custody Unit
leaves prison, the individual undergoes an exit polygraph examination. The
purpose of this examination is to determine whether someone leaving the
Protective Custody Unit is or is planning to exchange information on how to
contact someone else in the unit. If the polygraph results are inconclusive,
OEO authorizes another examination, but it never authorizes more than
two. The conducting agency sends OEO the polygraph examination report.
OEO maintains a copy of the report because it is ultimately responsible for
the prisoners. The BOP also receives a copy. OEO provides the results of
exit polygraph examinations to the USMS, which assumes responsibility for
protecting WITSEC Program participants who are not incarcerated. OEO
officials said that they do not know whether the agency conducting the
polygraph examination (usually the FBI) keeps a copy of the examination
records. The results of the polygraph examinations remain in OEO’s files as
part of the prisoner-witness’s permanent record. OEO restricts access to
those files to only WITSEC staff.

      OEO officials said that neither the Department nor DoDPI has
reviewed OEO’s use of polygraph examinations. Although DoDPI conducts
biennial reviews of the polygraph programs managed by the FBI, OIG, and
the Secret Service, the FBI conducts most of the examinations and it does
not make those records available to DoDPI for review.




       88 The purpose of Title 9, Chapter 9-21 of the U.S. Attorneys’ Manual is to provide
information and guidance to Department attorneys with respect to the Witness Security
Reform Act of 1984, Part F of Chapter XII of the Comprehensive Crime Control Act of 1984
(Pub. L. No. 98-473). According to Section 9-21.340, Polygraph Examinations for Prisoner-
Witness Candidates, “A polygraph examination is required of all Witness Security Program
candidates who are incarcerated . . . .” The U.S. Attorneys’ Manual further provides that
candidates must consent to take an examination in writing.



U.S. Department of Justice                                                           110
Office of the Inspector General
Evaluation and Inspections Division
Domestic Security Section (DSS)

       The DSS investigates and prosecutes criminal organizations that
smuggle aliens, including those that could be used to smuggle terrorists
into the United States. The DSS also investigates and prosecutes
individuals that harbor aliens, provide false identification documents, and
contract with smuggling groups to obtain illegal workers for factories and
plants. The DSS sometimes supports bringing to the United States
potential witnesses, such as persons who were being smuggled or are
connected to the smuggling organization. DSS officials said that, while they
themselves rarely, if ever, use polygraph examinations, they work closely
with other agencies that may use polygraphs more frequently, such as the
FBI and CIA. If the results of a polygraph examination are available and
have any application to a DSS investigation, DSS officials may review the
results of a polygraph examination because it may be relevant to assessing
the reliability of a witness. DSS officials said that they recently concurred
in a decision to polygraph two potential witnesses for national security
purposes. The DSS uses Department regulations in the U.S. Attorneys’
Manual for guidance in their use of polygraph examinations. The DSS also
reviewed the results of four polygraph examinations from FY 2002 through
2004.

Overseas Prosecutorial Development, Assistance, and Training (OPDAT)

       OPDAT trains and provides technical assistance to foreign
counterparts to develop reliable law enforcement partners overseas. 89
OPDAT offers technical assistance, including arranging for and supporting
polygraph examinations, to host countries that decide to establish vetted
units staffed by investigators and prosecutors, as well as, in some
instances, financial and administrative support staff. Host country officials
choose the prosecutors and investigators for membership in the units and
also determine whether the candidates will be vetted. OPDAT officials told
us that only 4 percent of the approximately 70 countries that receive OPDAT
technical assistance have been assisted with FBI polygraph services. If the
host country request polygraph services, OPDAT arranges for FBI examiners
to conduct the polygraph examinations to determine, for example, whether
the foreign prosecutors have taken bribes or violated human rights laws in



       89The Department of State provides funding for technical assistance to OPDAT
through an interagency agreement.




U.S. Department of Justice                                                       111
Office of the Inspector General
Evaluation and Inspections Division
their countries. 90 As shown in Table 3, during our study period, FY 2002
through 2004, the FBI conducted 725 polygraph examinations for OPDAT.
However, OPDAT began using polygraph examinations in its programs in
FY 1999. OPDAT officials reported in August 2006, that, over the life of the
program, a total of 1,954 examinations have been conducted at OPDAT’s
request:

            •   FY   1999   -   162;
            •   FY   2000   -   224;
            •   FY   2001   -   198;
            •   FY   2002   -   302;
            •   FY   2003   -   136;
            •   FY   2004   -   287;
            •   FY   2005   -   420; and
            •   FY   2006   -   225 (as of August 2006).

       OPDAT does not have written internal policy or procedures for its use
of polygraph examinations for foreign vetting. To initiate a polygraph
examination, OPDAT personnel in Washington, D.C., forward a request to
the FBI based on information received from an OPDAT office in another
country. OPDAT staff work with FBI examiners to develop test questions,
and the FBI Polygraph Unit uses OPDAT funding to send a group of
examiners to the designated country to conduct the examinations. An
individual who fails a polygraph examination is not allowed to work with a
vetted task force and, in some countries, may be ineligible to receive OPDAT
assistance. OPDAT relies heavily on polygraph examination results because
of the limitations on the background investigations that can be done on
foreign prosecutors. The results of an examination are reported to OPDAT
and shared with the FBI Embassy Legal Attaché, Embassy Regional Security
Officer, and the host country. A senior-level team leader supervises the FBI
polygraph examiners in-country. OPDAT’s Resident Legal Advisors also
provide oversight to the teams while they are in-country.

      DoDPI has not reviewed OPDAT’s use of polygraph examinations for
foreign vetting. OPDAT officials said they relied on the FBI to comply with
federal standards. DoDPI has certified that the FBI’s polygraph program
meets federal technical, professional, and ethical standards. However,
DoDPI has not reviewed the FBI’s records of the OPDAT examinations or the
OPDAT files.

       90According to OPDAT officials, if FBI examiners are not available, OPDAT asks the
DEA to conduct an examination.



U.S. Department of Justice                                                         112
Office of the Inspector General
Evaluation and Inspections Division
Public Integrity Section

      The Public Integrity Section prosecutes public corruption cases
nationwide, typically working with the law enforcement agencies, especially
the FBI and the OIG community, to investigate alleged crimes. The Public
Integrity Section uses polygraph examinations in connection with criminal
cases to verify the truthfulness of cooperating witnesses and informants, as
well as the subjects of criminal investigations. The Criminal Division
reported to us that polygraph examinations were used by law enforcement
agents in 15 instances in matters handled by the Public Integrity Section in
FY 2002 through 2004.

      The Public Integrity Section follows Department polygraph policy
contained in the U.S. Attorneys’ Manual. 91 The Public Integrity Section does
not have a formal process for initiating a request for a polygraph
examination. Typically, the law enforcement agent that is working with the
Public Integrity Section staff on an investigation will initiate the idea of
using a polygraph examination as an investigative tool and officials in the
Public Integrity Section will either object or agree to its use. Public Integrity
Section officials said that law enforcement agents are more inclined to use
polygraph examinations than others who are involved in their cases such as
the prosecutor. All requests are handled by the law enforcement agency’s
case agent who is working with the Public Integrity Section. Usually, the
Public Integrity Section’s Deputy Chief and the trial attorney discuss a
request from the case agent and decide whether to grant it based on the
potential value of the examination results in the investigation. Their
decision is conveyed to the case agent. Proposed subjects cannot be
compelled to take a polygraph examination. Results of polygraph
examinations are placed in the appropriate case files.


         91 Title 9, Chapter 13 of the U.S. Attorneys’ Manual, Section 9-13.300, Polygraphs –

Department Policy, states that that the “Department opposes all attempts by defense
counsel to admit polygraph evidence or to have an examiner appointed by the court to
conduct a polygraph test. Government attorneys should refrain from seeking the
admission of favorable examinations that may have been conducted during the
investigatory stage. . . . Given the present theoretical and practical deficiencies of
polygraphs, the government takes the position that polygraph results should not be
introduced into evidence at trial. On the other hand, in respect to its use as an
investigatory tool, the Department recognizes that in certain situations, as in testing the
reliability of an informer, a polygraph can be of some value. Department policy therefore
supports the limited use of the polygraph during investigations. This limited use should be
effectuated by using the trained examiners of the federal investigative agencies, primarily
the FBI, in accordance with internal procedures formulated by the agencies . . . .”



U.S. Department of Justice                                                             113
Office of the Inspector General
Evaluation and Inspections Division
      Public Integrity Section officials told us that their use of polygraph
examinations has not been reviewed by DoDPI. However, the FBI and the
OIG maintain copies of those polygraph examination records, and DoDPI
may have reviewed the FBI’s or the OIG’s copies of some of the records
during its biennial quality assurance reviews of the FBI’s and OIG’s
polygraph program.

Justice Command Center

       The JCC, which serves as a crisis center for the Department, is a
branch of the Justice Management Division’s SEPS. The JCC is the primary
crisis management facility for the Attorney General and other senior
Department decision makers. It also functions as an around-the-clock
contact point for all Department operations worldwide.

      Because the JCC handles highly classified intelligence information,
the JCC requires its employees and job recruits to pass a narrowly focused,
counterintelligence-scope polygraph examination as part of the security
clearance process. The JCC established the requirement for polygraph
examinations in 1987 at the request of the National Security Agency, which
was the controlling authority for some of the cryptographic information and
information systems accessed by JCC personnel. 92

     The JCC has 15 positions subject to mandatory polygraph
examinations. Three personnel security polygraph examinations were
conducted by the FBI for the JCC in FY 2002 through 2004. 93

      The JCC is the only one of the seven users discussed in this section
that OPM has authorized to use polygraph examinations for personnel
security screening. In October 1987, as then required by federal
regulations, 94 the Department’s Assistant Attorney General for
Administration applied to the OPM Director for authority to require

        92 At the time, NSA and CIA employees with similar access were required to take

polygraph examinations. The JCC’s employees who were hired before 1987 had never been
tested, but volunteered to be tested when asked in 1987.

       93Only three JCC employees were hired during this period. The remaining
employees had previously submitted to mandatory polygraph examinations during their
pre-employment hiring process or when the requirement was established in 1987.

       94  See Subchapter 2-6 of the Federal Personnel Manual, dated January 6, 1984,
regarding federal requirements for using polygraph examinations in personnel
investigations.



U.S. Department of Justice                                                         114
Office of the Inspector General
Evaluation and Inspections Division
polygraph examinations of the JCC’s competitive service employees and any
future recruits. On November 24, 1987, the OPM Director granted authority
to the Department to conduct polygraph examinations of JCC personnel
with access to cryptographic keying material and SCI. OPM required that
the Department reapply each year for continued authority to polygraph its
personnel. Records OPM provided to us show that the Assistant Attorney
General for Administration reapplied to OPM in FY 1988 through 1995 and
that the OPM Director approved each reauthorization request through
September 30, 1996. OPM officials said they had no record of
reauthorization requests by the Department in FY 1997 through 2004, and
JCC officials could not provide us any additional authorizations.

       On November 23, 2005, after we asked to review JCC records of
reauthorization requests, the Department applied for reauthorization to use
polygraph examinations for JCC personnel. In early May 2006, OPM
officials told us that their reauthorization letters to all agencies had been
delayed while OPM officials reviewed OPM’s authorities for requiring
reauthorizations and revised the language contained in previous
authorization letters to federal agencies. 95 However, on May 12, 2006, OPM
officials grant JCC’s authorization to use polygraph examinations for pre-
employment and personnel security screening for FY 2006.

       The SEPS Director authorizes requests for polygraph examinations for
JCC job applicants. A supervisory security specialist in the JCC has
managerial responsibility for the polygraph process. JCC job
announcements indicate that successful completion of a background
investigation, including a polygraph examination, is a mandatory condition
of employment. Applicants who refuse to take a polygraph examination are
not considered for employment in the JCC. If applicants are currently
employed in the Department, the refusal to take the polygraph examination
is not made a part of their personnel file.



         95 OPM’s reauthorization of the JCC’s use of polygraphs was also delayed because

the FBI, which conducts the examinations for the JCC, had not provided OPM with a copy
of its most recent DoDPI quality assurance review report, as required by OPM. (OPM’s
requirement to submit a copy of a DoDPI quality assurance review report was probably
instituted sometime after 1995, that is, after the Federal Personnel Manual was retired. A
review of OPM’s authorization of the DEA’s program, for example, showed that OPM’s
requirement for a copy of a DoDPI report was not in its FY 1994 or FY 1995 authorization
letters to the DEA.) This is the first time that OPM has asked for a copy of the FBI’s DoDPI
quality assurance report and OPM is still in discussion with OPM about the necessity of
providing the report as a precondition for approving the request for JCC reauthorization.



U.S. Department of Justice                                                            115
Office of the Inspector General
Evaluation and Inspections Division
       After selecting a candidate, the JCC supervisor sends a memorandum
to the FBI requesting an examination, and the FBI examiner contacts the
applicant to schedule the examination. According to the Department’s JCC
polygraph regulations, the scope of the polygraph examination is limited to
questions related to counterintelligence, and a list of the questions is
provided to the job applicant before testing begins. The FBI conducts the
examination and forwards a report on the results to the SEPS Director, who
is responsible for adjudicating personnel security decisions.

       The Department’s use of polygraph examinations for JCC personnel
has never been reviewed by DoDPI as part of the federal quality assurance
program. Also, records of examinations conducted by the FBI for the JCC
have never been reviewed by DoDPI inspectors during quality assurance
reviews of the FBI’s polygraph program because the FBI did not allow DoDPI
to begin reviewing its personnel security examination records until DoDPI’s
last review of the FBI polygraph program in December 2005.

Antitrust Division

      The ATR enforces antitrust laws to protect the competitive process
from prohibited practices such as price-fixing and bid-rigging conspiracies,
corporate mergers likely to reduce competition, and business practices
designed to achieve or maintain monopoly power. The ATR prosecutes
serious and willful violations of the antitrust laws by filing civil and criminal
suits. Criminal prosecutions can lead to large fines and jail sentences.

      The ATR uses polygraph examinations only in connection with
criminal investigations. The ATR is involved in about 100 criminal
investigations each year. It has used polygraph examinations only twice
from FY 2002 through 2004. The examinations were conducted at the
ATR’s request by the FBI and the U.S. Army Criminal Investigation
Command. 96

     The ATR has no internal policies or procedures for using polygraph
examinations and no formal process for requesting other agencies to

       96  The Army Criminal Investigation Command polygraphed one of the subjects in a
now-closed investigation into bidding irregularities on a major contract and possible
acceptance of gratuities from the winner of that contract. It did not cover criminal antitrust
issues (collusion) because there was no such evidence at the time (or subsequently). The
Army Criminal Investigation Command, which had initiated and formed a multi-agency
task force to handle the investigation, arranged for the polygraph. The ATR did not request
the polygraph, but did approve it.



U.S. Department of Justice                                                             116
Office of the Inspector General
Evaluation and Inspections Division
conduct examinations for the ATR’s use. However, the ATR’s Director of
Criminal Enforcement said that he had attended an FBI class on the uses of
polygraph examinations. The ATR’s Director of Criminal Enforcement said
that an investigating agency or a defendant’s attorney probably requested
the two examinations conducted during our study period. Before making a
request for an examination, a federal agent discusses the potential use of an
examination with the ATR’s Director of Criminal Enforcement and litigation
staff, according to the Director. A defendant’s attorney may also request a
polygraph; however, the Director said that he usually denies defense
attorneys’ requests if ATR staff members believe they already have sufficient
evidence to prove their case. If the Director approves a request for a
polygraph examination, the investigating agency conducts the polygraph
examination and reports the results to the ATR. According to the Director,
the results of an examination may influence an ATR investigation, but the
ATR would not enter the results of a polygraph examination as evidence at
trial.

National Drug Intelligence Center

      The NDIC, located in Johnstown, Pennsylvania, is responsible for the
production of domestic, strategic, drug-related intelligence. When the NDIC
was created in 1992, it was organized under the FBI. The NDIC was
reorganized in 1996 as a separate component of the Department of Justice.

     The NDIC’s Office of Security and Classified Programs uses polygraph
examinations for pre-employment screening. From FY 2002 through 2004,
the NDIC’s Office of Security and Classified Programs asked the FBI to
conduct 72 polygraph examinations for its use in screening job applicants
who had received conditional offers of NDIC employment.

      In 1997, the Department gave the NDIC Director approval to hire
NDIC employees into the excepted service and to use pre-employment
polygraph examinations in its hiring process. 97 The Department’s Director
of Personnel asked the NDIC to develop written internal policy addressing
why polygraph examinations were necessary, who would be subject to

       97   Most federal government civilian positions are part of the competitive civil
service, which means they must compete with other applicants according to competitive
civil service procedures. Agencies’ compliance with those procedures is overseen by OPM.
Excepted service agencies, like the NDIC, are excluded from the competitive civil service
procedures and OPM oversight. In 1997, OPM officials wrote to the Department saying that
the NDIC did not need OPM approval to use pre-employment polygraph examinations
because its employees were in the excepted service.



U.S. Department of Justice                                                         117
Office of the Inspector General
Evaluation and Inspections Division
polygraph examinations, and how the examinations would be conducted.
NDIC Procedure Number SEC-26, “Security Program Unit Hiring Process for
New Employees,” provides policy and implementing guidance for the NDIC’s
use of polygraph examinations. According to SEC-26, all new employees
hired from outside the federal government, including those working with
government contractors at the time of hire, are required to pass a full-scope,
pre-employment polygraph examination before assuming a position at the
NDIC. NDIC policy does not specifically require new hires from within the
federal government to pass a polygraph examination. An NDIC official told
us that the NDIC usually waives the requirement for a polygraph
examination for new hires who are already working in the federal
government and who have Top Secret security clearances issued by another
agency.

       NDIC vacancy announcements include a notice that a polygraph is
required for employment and that an applicant who refuses to take a
polygraph examination will not be hired. After the NDIC Human Resources
Office makes an applicant a conditional offer of employment, a member of
the Office of Security and Classified Programs makes a direct request to an
FBI examiner located in the NDIC’s geographic region. The FBI conducts
most of the examinations at the NDIC facility in Johnstown. The FBI
examiner provides a copy of the results of the examination as well as the
polygraph test charts to the NDIC’s Chief of the Office of Security and
Classified Programs. According to the Chief, four people in his office
(including the Chief) have authority to adjudicate personnel security
decisions based on the results of polygraph examinations.

      If the FBI examiner detects indications of deception during the initial
polygraph examination, the NDIC’s Office of Security and Classified
Programs notifies the Human Resource unit of the test results, and the
Human Resources unit sends a letter to the applicant withdrawing its
conditional offer of employment. However, if after receipt of the letter, the
applicant submits a formal request for a retest, a second polygraph is
generally granted. If the applicant does not pass the second examination,
the applicant cannot be hired because the applicant does not meet the
requirements of the job. If an applicant passes, the Security Office advises
the Human Resources unit to proceed with the hiring process.

       DoDPI has not reviewed the NDIC’s use of polygraph examinations or
its polygraph activities. However, the FBI maintains copies of the NDIC’s
polygraph examination records, and DoDPI may have reviewed the FBI’s




U.S. Department of Justice                                               118
Office of the Inspector General
Evaluation and Inspections Division
copies of some of the records during its biennial quality assurance reviews
of the FBI’s polygraph program. 98

Office of Professional Responsibility

     The Department’s OPR was established by the Attorney General in
1975. It has the jurisdiction:

       to investigate allegations of misconduct by Department of
       Justice attorneys that relate to the exercise of their authority to
       investigate, litigate, or provide legal advice; and to investigate
       allegations of misconduct by law enforcement personnel when
       they are related to allegations of misconduct by attorneys with
       the jurisdiction of OPR. 99

       OPR can use the results of polygraph examinations, which the FBI
conducts for OPR, as an investigative tool in criminal and administrative
misconduct investigations. OPR’s investigations also may involve agents
and witnesses who have already taken a polygraph examination. OPR
officials told us that they had not requested a polygraph examination since
before FY 2001.

      According to an OPR official, a request for a polygraph examination
would be initiated by an OPR team conducting an investigation. The OPR
Counsel and Deputy Counsel review requests for polygraph examinations; if
they approve the request, the OPR Counsel asks the FBI to arrange and
conduct the examination. The FBI sends a report on the results of the
polygraph examination to OPR, which may or may not include it in its final
investigative report. An OPR official told us that, in the past, polygraph
examinations have only been conducted when the proposed test subject has
voluntarily consented to the examination.




       98 We were unable to determine if the NDIC’s polygraph examination records were
included in DoDPI’s review of the FBI’s polygraph examination records.

       99   28 C.F.R. Sec. 0.39a (a).



U.S. Department of Justice                                                        119
Office of the Inspector General
Evaluation and Inspections Division
Federal Bureau of Prisons

      The BOP is responsible for the administration of 106 institutions, 6
regional offices, a Central Office (headquarters), 2 staff training centers, and
28 community corrections offices. It is responsible for the custody and care
of approximately 185,000 federal offenders.

       The BOP uses polygraph examinations as an investigative tool in
administrative investigations of BOP employees, as a condition for inmates’
entry into the WITSEC Program, and as a condition for participation in the
BOP’s Sex Offender Treatment Program (SOTP). 100 BOP units used the
results of 435 polygraph examinations in FY 2002 through 2004. The
following sections detail the BOP’s uses of polygraph examinations.

Office of Internal Affairs

       The BOP’s Office of Internal Affairs (OIA) is a branch of the Office of
General Counsel and Review. In coordination with the OIG, it is responsible
for investigating allegations of administrative misconduct by BOP
employees. The OIA uses the results of polygraph examinations that the
FBI or the OIG conducts of subjects, witnesses, and complainants in
administrative investigations into alleged misconduct. The OIA requested
21 polygraph examinations during administrative investigations from
FY 2002 through 2004. The OIG conducted 17 of the examinations, and the
FBI conducted 4. Fifteen of the polygraph examinees were the subjects of
misconduct investigations, four were alleged victims, and two were
complainants.

      BOP Program Statement 1210.24 provides policy and guidance for the
use of polygraph examinations in administrative investigations. 101 All
requests for polygraph examinations regarding staff misconduct must be
coordinated through the OIA. When considering a request for a polygraph
examination, a “Chief Executive Officer” discusses the matter with the OIA


       100 A BOP warden also may permit an inmate to take a polygraph examination in

connection with a state or federal criminal felony investigation if the inmate consents to the
examination. Program Statement 5110.13, “Administering of Polygraph Tests,”
December 15, 1999, details the procedures for requesting and administering a polygraph
examination of a federal inmate. All requests for polygraph testing must be approved by
the warden of the institution where the inmate is incarcerated.

       101  See Program Statement 1210.24, “Office of Internal Affairs,” May 20, 2003, for
details of the procedures for reporting allegations of misconduct to the OIA.



U.S. Department of Justice                                                             120
Office of the Inspector General
Evaluation and Inspections Division
Chief and receives the Chief’s approval prior to arranging an examination. 102
The OIA Chief has the sole authority to approve the use of a polygraph
examination during the course of a BOP-run investigation into staff
misconduct. 103 According to BOP internal policy (Office of Internal Affairs
Program Statement 1210.24, May 20, 2003), neither BOP staff nor its prison
inmates can be compelled to take a polygraph examination. BOP staff and
inmates must voluntarily consent in writing prior to undergoing an
examination.

       All requests for polygraph examinations regarding staff misconduct
must be coordinated through the OIA. Office of Internal Affairs Program
Statement 1210.24 says that, whenever possible, the BOP should use the
FBI or OIG Polygraph Unit examiners to conduct the examinations. 104 The
examiners then provide the OIA with a written report of examination results
that becomes part of the investigation record, although the OIA may or may
not mention the results of a polygraph examination in its final investigative
report. The final investigative report is provided to the warden of the
institution that employs the subject of the investigation and to the BOP
Assistant Director who makes the decision on appropriate disciplinary
action.

      OIA officials told us that the OIA’s use of polygraph examinations has
not been reviewed by the BOP, the Department, or DoDPI. The OIA relies on
the FBI and OIG examiners conducting the examinations to comply with
federal polygraph standards. DoDPI reviews both the FBI and OIG
polygraph programs as part of the federal quality assurance review program.
The OIG provides its files for DoDPI reviews and, consequently, the OIA files
may have been included in a DoDPI review. However, the FBI does not allow
DoDPI to review its records of examinations conducted as part of a
misconduct investigation.



         102 A Chief Executive Officer can be a warden of a correctional facility, director of a

staff training center, Regional Director of a regional office, or Assistant Director of a division
at the BOP’s Central Office.

       103 OIA approval to use a polygraph examination is not necessary in cases
unrelated to staff misconduct or when outside authorities, such as the OIG, are conducting
an external investigation of staff misconduct.

       104  If an FBI or OIG polygraph examiner is not available, OIA personnel may get a
local police department to conduct an examination. This has happened only two or three
times since calendar year 2000.



U.S. Department of Justice                                                                 121
Office of the Inspector General
Evaluation and Inspections Division
WITSEC Program

      All BOP prisoners seeking entry into the Criminal Division-run
WITSEC Program are required to take polygraph examinations to determine
whether they can be placed in a BOP Protective Custody Unit. (See box on
page 136 for an overview of the WITSEC Program.) The BOP has seven
Protective Custody Units that house program inmates. The Criminal
Division, working through the BOP, uses polygraph examinations as a tool
for maintaining the security of prisoner-witnesses and to help determine
whether an inmate seeking admission to the WITSEC Program intends to
harm another WITSEC Program inmate. If prisoner-witnesses fail the
polygraph examination, they may or may not be accepted into the WITSEC
Program. If they fail, but are still accepted into the program, they may not
be housed in a Protective Custody Unit.

      The Criminal Division, working through the BOP, also requires
prisoner-witnesses in the WITSEC Program to take a polygraph examination
before leaving a BOP facility. The purpose of the second polygraph,
according to BOP officials, is to deter prisoner-witnesses from sharing
information about other WITSEC inmates. Prisoner-witnesses know they
have to undergo a polygraph and, if they believe a polygraph examination
would detect this activity, they may be less likely to share information about
other inmates. The Criminal Division contacts the FBI or the OIG to
conduct the examinations for the BOP. In FY 2002 through 2004, the FBI
and the OIG conducted a total of 338 polygraph examinations of proposed
WITSEC inmates in BOP institutions.

      The BOP WITSEC Program Chief is responsible for managerial
oversight of the BOP’s role in the WITSEC Program. BOP Program
Statement 5180.04, “Central Inmate Monitoring System Operations
Manual,” August 16, 1996, Chapter 8, provides internal guidance for
temporary designations of WITSEC cases. 105 The BOP Chief of the WITSEC
Program said that neither the Department nor DoDPI had reviewed the
BOP’s use of polygraph examinations for the WITSEC Program. As
previously discussed, the FBI does not open its WITSEC polygraph
examination files to DoDPI’s quality assurance reviews.




       105 The BOP’s Inmate Monitoring Section receives applications from prisoner-
witnesses seeking entry into WITSEC and designates those prisoners as temporary WITSEC
cases until they undergo commitment interviews and polygraph examinations.



U.S. Department of Justice                                                      122
Office of the Inspector General
Evaluation and Inspections Division
Sex Offender Treatment Program (SOTP)

       The BOP’s SOTP is located at the Butner Federal Correctional
Institution in North Carolina. The SOTP is a voluntary program that can
accommodate up to 112 of the approximately 12,000 federal inmates that
are convicted sex offenders. Each institution at the Federal Correctional
Complex in Butner has a Chief Psychologist. The Chief Psychologist for the
Psychological Services Department at the Federal Correctional Institution
(Medium), Butner, has overall responsibility for the SOTP. Authority for
conducting polygraph examinations for the SOTP comes from the Assistant
Director of Correctional Programs, BOP Central Office. All SOTP
participants must voluntarily agree to undergo a polygraph examination as
a condition for admission to the program. However, an inmate’s admission
to and retention in the SOTP are not contingent on the results of the
polygraph examinations. Participants may undergo an additional
examination sometime later in the course of treatment as clinically
indicated. Additional polygraph examinations may be conducted at the
discretion of the United States Probation Office. 106

       The SOTP at Butner began in 1989, but SOTP officials did not begin
using polygraph examinations until FY 2002. In FY 2002 through 2004, the
SOTP examiner conducted a total of 76 polygraph examinations. The SOTP
polygraph examiner is a psychologist who was trained to conduct criminal
investigative and national security screening examinations at DoDPI. He
also received advanced training at DoDPI in the use of polygraph
examinations in the treatment of sex offenders.

       SOTP staff told us that polygraph examinations are used for non-
investigative, post-conviction sexual histories and as an aid in managing the
potential risks inmates pose to the community after they are released from
prison. The questions used for polygraph examinations conducted in the
treatment of sex offenders are different from those used in other types of
examinations (for example, criminal investigations and personnel security
screening). The examiner asks deliberately broad questions that are
designed to encourage inmates to be truthful about the full parameters of
their past criminal behavior. Although inmates are encouraged to be
truthful, they are not required to disclose self-incriminating aspects of their
past criminal behavior. Inmates are informed that, if they elect to do so,


       106 The BOP has no jurisdiction over inmates once they are released from their
terms of incarceration. The level of monitoring and any frequency in the administration of
polygraph examinations would be solely determined by probation officials.



U.S. Department of Justice                                                           123
Office of the Inspector General
Evaluation and Inspections Division
they risk criminal prosecution. For example, the inmates are encouraged to
reveal whether they raped someone in the past, not who they raped or where
the crime was committed because the information is used for clinical, not
investigative, purposes.

      Bureau policy establishes the general requirement that an inmate
entering the SOTP have a maximum of 24 months and a minimum of 12
months remaining on their current incarceration period. A polygraph
examination is administered toward the end of the treatment program to
confirm the inmate’s self-reported sexual offence history. The results of the
polygraph examination contribute to the final risk assessment and are
incorporated into the inmate’s risk management plan for community
supervision. 107

       SOTP staff told us that the only oversight mechanism for the SOTP is
self-auditing by the staff. In August 2006, BOP officials reported that the
SOTP had developed an informal peer review process concerning technical
issues such as test question construction with other practitioners
specializing in examining sex offenders.

       Nonetheless, the SOTP does not have an internal process that
provides for a quality control review of 100 percent of the examinations as
required by federal polygraph standards, and SOTP officials have declined to
participate in the federal quality assurance review program administered by
DoDPI.

       In August 2006, DoDPI officials told us that significant decisions are
being made based in part on the results of polygraph examinations
conducted by the SOTP. DoDPI officials also stated that although these
SOTP polygraphs are being conducted under the auspices of the
Department of Justice, the quality of the work product is not known
because the SOTP polygraphs have not been subjected to standard quality
assurance reviews through the federal Quality Assurance Program
administered by DoDPI. DoDPI also said that most of the federal agencies
participating in the program at one time considered this oversight
unnecessary, but in every instance those agencies have found great benefit
in adopting standardized procedures. DoDPI officials suggested that both
the BOP’s SOTP and the USMS’s WITSEC Program adopt a quality control

       107  During probation, inmates also may be required to undergo polygraph
examinations that are used as a monitoring tool. Inmates are monitored closely for up to
3 years after their release and may be subject to polygraph examinations every 6 months.
However, those examinations are not conducted by the SOTP examiner.



U.S. Department of Justice                                                          124
Office of the Inspector General
Evaluation and Inspections Division
process that ensures an independent and objective review of all examination
records before a final opinion on the results is rendered and that they be
required to undergo biennial quality assurance reviews in compliance with
federal polygraph standards.

United States Marshals Service

       The USMS mission is to provide support to all elements of the federal
justice system, including protecting the federal judiciary and apprehending
fugitives. The USMS uses polygraph examinations for administrative
investigations involving USMS personnel and for individuals in the WITSEC
Program who are not incarcerated and claim their security has been
breached. From FY 2002 through 2004, the USMS requested 16 polygraph
examinations of witnesses in the WITSEC Program, but none for
administrative investigations.

      The FBI and a contractor who is a retired USMS WITSEC Program
Inspector administer examinations for USMS. The USMS has no internal
policy or regulations addressing the use of polygraphs and no quality
control or oversight of the polygraph examinations conducted by the USMS’s
contractor as required by federal technical standards.

Operations Support Division

       In coordination with the OIG, the Operations Support Division, Office
of Internal Investigations (OII) oversees administrative investigations
involving USMS personnel. According to USMS, when a dispute or
discrepancy arises during the course of an OII investigation, the OII
Inspector can offer the subject or witness the opportunity to take a
polygraph examination. The individual must sign a form to accept or
decline to take a polygraph examination. According to USMS officials, most
individuals refuse this offer and no action is taken against those who refuse.
If an individual accepts, the OII will ask the FBI to arrange and conduct the
examination. The OII Inspector works with the FBI examiner to formulate
questions for the examination. 108 Examination results are sent to the OII
Inspector and included in the case file. Along with the OII Inspector’s
findings, polygraph results are ultimately used by the USMS Discipline
Panel assigned to make a determination in the administrative investigation.


       108  On rare occasions, the FBI examiner, after reviewing the case, may determine
that the administrative investigation is not a good case for a polygraph examination and
decline to administer one.



U.S. Department of Justice                                                          125
Office of the Inspector General
Evaluation and Inspections Division
Neither the Department nor any other entity has reviewed the USMS’s
polygraph activities. According to USMS, no polygraph examinations were
conducted for OII from FY 2002 through 2004.

WITSEC Program

       The USMS’s WITSEC and Prisoner Operations Division is responsible
for providing security for protected witnesses who are not incarcerated and
their families. The USMS provides 24-hour protection to these witnesses
while they are in a high-threat environment, including while attending
pretrial conferences, testifying at trial, and attending other court
appearances. In certain cases, a protected witness will claim that a security
breach has occurred, but the USMS cannot independently corroborate the
breach. In those cases, the USMS will request that the witness take a
polygraph examination as a means of confirming that a security breach has
really occurred before the USMS permanently relocates the witness for their
safety. The USMS uses the examinations to deter protected witnesses from
falsely claiming they are in danger because they want to move. Witnesses
who believe that a polygraph examination would detect deception are less
likely to make false claims. Witnesses will often admit to the security
breach or their false claims of a security breach with the threat of a
polygraph examination. According to a WITSEC Supervisory Inspector, if
WITSEC participants refuse, they most likely would be removed from the
program.

      In FY 2002 through 2004, USMS officials used the results of 16
polygraph examinations conducted by either ATF (5) or a private contractor
(11). A WITSEC Chief Inspector told us that he would use more polygraph
examinations in the WITSEC Program if he had a dedicated USMS
polygraph examiner.

      USMS officials said they had no formal internal policy for conducting
polygraph examinations of witnesses. However, they do follow the
provisions of Title 9, Chapter 21, of the U.S. Attorneys’ Manual that provides
Department policy for witness security. USMS officials said there has been
no internal review or DoDPI review of their use of polygraph examinations.




U.S. Department of Justice                                               126
Office of the Inspector General
Evaluation and Inspections Division
        Also, the USMS has not                  Polygraph Usage in the Federal
established an internal quality control           Witness Security Program
program or procedures that ensure
an independent and objective review                The WITSEC Program was established to
                                          provide protection and security for witnesses in
of all examinations conducted by its
                                          official proceedings. The program involves three
contractor. Federal standards require     Department components – the Criminal Division,
that agencies provide for a technical     BOP, and the U.S. Marshals Service – and, for
review of all examination records by a    some witnesses, requires polygraph
certified federal examiner before a       examinations.
final opinion on the examination                  Criminal Division. The WITSEC Program
results is rendered. However, there       is overseen by the Criminal Division’s OEO, which
was no independent technical review       is responsible for authorizing or denying
                                          applicants to the WITSEC Program and for
of the 11 examinations conducted by       coordinating matters related to the program with
the USMS contractor from FY 2002          the BOP and USMS. Polygraph examinations for
through 2004.                             non-incarcerated witnesses seeking entry into the
                                          WITSEC Program are voluntary. The FBI
       DoDPI officials said that the      conducts most of the polygraphs for OEO.
                                          According to the Criminal Division, a total of 427
use of contractors to conduct             polygraphs were conducted for OEO from
polygraph examinations is a common        FY 2002 through 2004 and another 175 in FY
practice throughout the federal           2005, for a total of 602 examinations.
government. Federal agencies that                  BOP. Individuals incarcerated in BOP
use contractors, however, must            facilities that seek entry into the WITSEC
ensure that those contractors             Program are required to have a polygraph
conduct polygraph examinations in         examination before entering a BOP Protective
                                          Custody Unit. If granted entry into the WITSEC
compliance with established technical
                                          Program, these witnesses are also required to
standards by providing quality control    take a polygraph examination before leaving a
reviews. According to Chapter C2 of       BOP facility. The FBI or the OIG conducts these
the Federal Examiner Handbook, the        examinations. According to the BOP, 338
USMS can do that by either:               polygraphs were conducted of federal inmates for
                                          the WITSEC Program from FY 2002 through
(1) hiring a certified federal examiner
                                          2004, which are part of the 427 examinations
to conduct quality control reviews        reported by OEO.
and oversee the examinations
                                                  USMS. Non-incarcerated witnesses in the
conducted by its contractor, or           WITSEC Program who claim that their security
(2) entering into an agreement with       has been breached are asked to take a polygraph
another federal agency to obtain          examination by the USMS, the agency responsible
quality control services. USMS            for providing protection to these individuals. The
officials recently told DoDPI officials   examinations are conducted by either ATF or a
                                          private contractor (a retired USMS WITSEC
that they had decided not to hire a       Inspector). According to the USMS, the
senior federal examiner or to             contractor (11) or ATF (5) conducted 16 polygraph
establish a USMS polygraph                examinations from FY 2002 through 2004.




U.S. Department of Justice                                                    127
Office of the Inspector General
Evaluation and Inspections Division
program. 109 DoDPI officials maintain that without the required oversight,
the quality of the decisions being provided the USMS cannot be established.




       109In November 2004, DoDPI and USMS officials discussed the possibility of the
USMS initiating a formal polygraph program in support of its WITSEC mission. However,
in FY 2005, the USMS told DoDPI officials that it was not going to pursue its own program.



U.S. Department of Justice                                                          128
Office of the Inspector General
Evaluation and Inspections Division
